No. 19In the

Supreme Court of the United States
MAGHREB PETROLEUM EXPLORATION, S.A.
AND MIDEAST FUND FOR MOROCCO LIMITED,
Petitioners,
v.
JOHN PAUL DeJORIA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of A ppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

Roger D. Townsend
Cokinos | Young
Four Houston Center
1221 Lamar, 16th Floor
Houston, Texas 77010
(713) 535-5500

Geoffrey L. Harrison
Counsel of Record
Kenneth Mcneil
John P. Lahad
Susman Godfrey LLP
1000 Louisiana, Suite 5100
Houston, Texas 77002
(713) 651-9366
gharrison@susmangodfrey.com

Counsel for Petitioners

293080

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1.

Respondent John Paul DeJoria is a billionaire who
co-founded a Moroccan company, was found liable
in Moroccan court for defrauding Petitioners and
ordered to pay $122.9 million in damages. After
the Fifth Circuit in 2015 ruled against DeJoria
in his attempt to avoid U.S. recognition of the
Moroccan court’s judgment, DeJoria lobbied the
Texas Legislature to revise Texas’s Uniform
Foreign-Country Money Judgments Recognition
Act to add new defenses and, in 2017, got the
Legislature to apply the newly revised Act
retroactively to allow him to defeat recognition.
The first question presented is: Whether the
retroactive application of the 2017 Texas Act
violates the anti-retroactivity provisions of the
Federal and the Texas Constitutions?

2.

The district court granted DeJoria’s motion
to deny recognition of the Moroccan under the
retroactively applied 2017 Texas Act. Texas
law required the Fifth Circuit to review that
judgment de novo and the Fifth Circuit applied
de novo review in its 2015 decision. Yet the panel
broke with established precedent in this case and
applied the “clear error” standard of review. The
second question presented is: Whether, under
Erie, federal courts of appeal should apply the
state-law standard of review in foreign country
money judgment recognition cases.

ii
PARTIES TO THE PROCEEDING BELOW
Petitioners Maghreb Petroleum Exploration SA and
Mideast Fund for Morocco Limited were the DefendantsCounterclaimants in the district court and the Appellants
in the court of appeals.
John Paul DeJoria was the Plaintiff-Counterdefendant in the district court and the Appellee in the
court of appeals.

iii
CORPORATE DISCLOSURE STATEMENT
Petitioner Mideast Fund for Morocco Limited is the
parent corporation of Petitioner Maghreb Petroleum
Exploration SA. Mideast Fund for Morocco Limited has
no parent. No publicly held company owns 10% or more
of either Petitioner.

iv
RELATED PROCEEDINGS
The following federal trial and appellate court cases
are related proceedings as defined by Supreme Court
Rule 14.1(b)(iii):
• John Paul DeJoria v. Maghreb Petroleum
Exploration SA and Mideast Fund for
Morocco Limited, Case No. 1:13-cv-654-RP,
pending in the United States District Court
for the Western District of Texas, Austin
Division (judgment entered Mar. 28, 2018).
• John Paul DeJoria v. Maghreb Petroleum
Exploration SA and Mideast Fund for
Morocco Limited, Appeal No. 14-51022,
previously before the United States Court
of Appeals for the Fifth Circuit (judgment
entered September 30, 2015).
• John Paul DeJoria v. Maghreb Petroleum
Exploration SA and Mideast Fund for
Morocco Limited, Appeal No. 18-50348,
previously before the United States Court
of Appeals for the Fifth Circuit (judgment
entered August 15, 2019).
• John Paul DeJoria v. Maghreb Petroleum
Exploration SA et al ., No. 15 -10 3 3,
previously before the Supreme Court of
the Unites States on a petition for a writ of
certiorari (petition denied on June 20, 2016).

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING BELOW  . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . .  viii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . x
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
STATUTORY PROVISION INVOLVED . . . . . . . . . . . 2
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 6
I.

Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

II. Proceedings Below . . . . . . . . . . . . . . . . . . . . . . . . . 8
A. The 2013 district court proceedings  . . . . . . 8

vi
Table of Contents
Page
B. The Fifth Circuit’s 2015 opinion in
DeJoria I . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
C. Proceedings After Remand  . . . . . . . . . . . . 10
D. The Magistrate Judge’s report and
recommendation  . . . . . . . . . . . . . . . . . . . . . 11
E. The Fifth Circuit’s 2019 opinion in
DeJoria-II . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
REASONS FOR GRANTING THE PETITION . . . . 15
I.

The Fifth Circuit permitted wanton
abuse of power by allowing retroactive
application of a new law lobbied for by a
party in this case  . . . . . . . . . . . . . . . . . . . . . . . . . 15
A. Retroactivity offends constitutional
protections . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
B. DeJoria-II marginalized constitutional
protections and condoned legislative
abuse of power  . . . . . . . . . . . . . . . . . . . . . . .  17
C. Retroactive application of the 2017
Texas Act is unconstitutional . . . . . . . . . . . 20

II. The Fifth Circuit disregarded Erie and
crafted a new standard of review . . . . . . . . . . . . 25

vii
Table of Contents
Page
III. These issues must not evade review  . . . . . . . . . 29
A. T h e F i f t h C i r c u i t ’s d e c i s i o n
sanctions retroactive application of
a new law in the most egregious
circumstances . . . . . . . . . . . . . . . . . . . . . . . . 29
B. The Fifth Circuit’s opinion encourages
forum shopping . . . . . . . . . . . . . . . . . . . . . . . 30
C. This case presents an appropriate vehicle . 31
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

viii
TABLE OF APPENDICES
Page
Appendix A — opinion of the united
states court of appeals for the
	fifth circuit, filed august 15, 2019 . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF TEXAS, AUSTIN
DIVISION, FILED MARCH 28, 2018 . . . . . . . . . . 28a
A ppendix c — report and
recommendation of the united
states district court for the
western district of texas, austin
	division, filed february 26, 2018  . . . . . . 31a
A ppendix d — DENIA L OF WRIT OF
CERTIORARI of the united states
SUPREME COURT, DATED JUNE 20, 2016 . . . 87a
Appendix e — denial of rehEAring
of the united states court of
appeals for the fifth circuit,
	filed november 16, 2015  . . . . . . . . . . . . . . . . 88a
A ppendix F — opinion of the
united states court of appeals
FOR T H E FI F T H CIRCU I T, FILED
SEPTEMBER 30, 2015 . . . . . . . . . . . . . . . . . . . . . . . 90a

ix
Table of Appendices
Page
APPENDIX G — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF TEXAS, AUSTIN
DIVISION, FILED AUGUST 13, 2014 . . . . . . . . .  117a
Appendix h — denial of rehEAring
of the united states court of
appeals FOR THE FIFTH CIRCUIT,
FILED SEPTEMBER 17, 2019 . . . . . . . . . . . . . . 143a

x
TABLE OF CITED AUTHORITIES
Page
Cases:
Butler v. Eaton,
141 U.S. 240 (1891)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Christianson v. Colt Indus. Operating Corp.,
486 U.S. 800, 108 S. Ct. 2166 (1988)  . . . . . . . . . . . . . 14
Derr v. Swarek,
766 F.3d 430 (5th Cir. 2014) . . . . . . . . . . . . . . . . . 26, 31
Erie R. Co. v. Tompkins,
304 U.S. 64, 58 S. Ct. 817 (1938)  . . . . . . . . . . 25, 28, 30
Gasperini v. Center for Humanities, Inc.,
518 U.S. 415, 116 S. Ct. 2211 (1996) . . . . . . . . . . . . . . 28
Goodner v. Hyundai Motor Co.,
650 F.3d 1034 (5th Cir. 2011) . . . . . . . . . . . . . . . . . . . 26
Guaranty Trust Co. v. New York,
326 U.S. 99, 65 S. Ct. 1464 (1945)  . . . . . . . . . . . . . . . 27
Hanna v. Plumer,
380 U.S. 460, 85 S. Ct. 1136 (1965) . . . . . . . . 27, 28, 30
INS v. St. Cyr,
533 U.S. 289, 121 S. Ct. 2271 (2001) . . . . . . . . . . 20, 21
Landgraf v. USI Film Products,
511 U.S. 244, 114 S. Ct. 1483 (1994) . . . . . . . . . . passim

xi
Cited Authorities
Page
Lynce v. Mathis,
519 U.S. 433, 117 S. Ct. 891 (1997)  . . . . . . . . . . passim
Patchak v. Zinke,
138 S. Ct. 897 (2018) . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Plaut v. Spendthrift Farm, Inc.,
514 U.S. 211, 222 115 S. Ct. 1447 (1995)  . . . . . . .  17, 23
Pope v. United States,
323 U.S. 1, 65 S. Ct. 16 (1944)  . . . . . . . . . . . . . . . . . .  17
Presley v. N.V. Masureel Verdeling,
370 S.W.3d 425 (Tex. App.—Houston
(1st Dist.) 2012, no pet.)  . . . . . . . . . . . . . . . . . . . . 26, 30
Reading & Bates Construction Company v.
Baker Energy Resources Corporation,
976 S.W.2d 702 (Tex. App.—Houston
(1st Dist.) 1998, pet. denied) . . . . . . . . . . . . . . . . . 26, 30
Reynolds v. McArthur,
2 Pet. 417 (1829) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Robinson v. Crown Cork & Seal Co., Inc.,
335 S.W.3d 126 (Tex. 2010) . . . . . . . . . . . . . . . 17, 23, 24
Skidmore Energy, Inc. v. KPMG,
455 F.3d 564 (5th Cir. 2006), cert. denied,
549 U.S. 996 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

xii
Cited Authorities
Page
Sveen v. Melin,
138 S. Ct. 1815 (2018)  . . . . . . . . . . . . . . . . . . . . 5, 16, 22
The Courage Corp. v. Chemshare Corp.,
93 S.W.3d 323 (Tex. App.—Houston (14th Dist.)
2002, pet. denied)  . . . . . . . . . . . . . . . . . . . . . . . . . 26, 30
Statutes and Other Authorities:
28 U.S.C. § 1254(1) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
28 U.S.C. § 2403(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
5 C.J.S. Appeal and Error § 1106  . . . . . . . . . . . . . . . . . 12
36 C.J.S. Federal Courts § 739 . . . . . . . . . . . . . . . . . . . . 12
Cedric C. Chao & Christine S. Neuhoff, Enforcement
and Recognition of Foreign Judgments
in U.S. Courts: A Practical Perspective,
29 Pepp. L. Rev. 147 (2001) . . . . . . . . . . . . . . . . . . . . . 29
Fed. R. App. P. 44(b)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Senate Bill 944 § 3, Act of May 22, 2017, 85th Leg. . . . 11
Sup. Ct. R. 29.4(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Tex. Civ. Prac. & Rem. Code Ann. § 36A.003 . . . . . . 4, 11

xiii
Cited Authorities
Page
Tex. Civ. Prac. & Rem. Code Ann. § 36A.004  . 2, 11, 12, 19
Texas Const. Art. I § 16 . . . . . . . . . . . . . . . . . . . .  13, 16, 17
The Federalist No. 81, p. 545 (J. Cooke ed. 1961) . . . . .  17

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners Maghreb Petroleum Exploration SA
(“MPE”) and Mideast Fund for Morocco Limited (“MFM”)
(collectively, “Petitioners”) respectfully petition for a writ
of certiorari to review the judgment of the United States
Court of Appeals for the Fifth Circuit.
OPINIONS BELOW
The opinion of the U.S. Court of Appeals for the
Fifth Circuit is reported at 935 F.3d 381 (App,, infra,
1a-27a, hereinafter, “DeJoria-II”). The report and
recommendation of the magistrate judge is unreported
(App., infra, 31a-86a). The district court order adopting
the report and recommendation is unreported (App., infra,
28a-31a). The prior opinion of the U.S. Court of Appeals
for the Fifth Circuit is reported at 804 F.3d 373 (App.,
infra, 90a-116a, hereinafter, “DeJoria-I”). The August
2014 district court order reversed in DeJoria-I is reported
at 38 F. Supp. 3d 805 (App., infra, 117a-142a).
This Court’s denial of Respondent DeJoria’s 2015
petition for writ of certiorari to this Court is unreported
(App., infra, 87a). The Fifth Circuit’s denial of Respondent
DeJoria’s 2015 petitions for panel and en banc rehearing
is unreported (App., infra, 88a-89a). The Fifth Circuit’s
denial of Petitioners’ 2019 petition for en banc rehearing
of the decision below is unreported (App., infra, 143a).
STATEMENT OF JURISDICTION
The judgment of the court of appeals was filed on
August 15, 2019. The court denied rehearing on September

2
17, 2019. This Court has jurisdiction under 28 U.S.C.
§1254(1).
Because the constitutionality of a state statute is
drawn into question, 28 U.S.C. §2403(b) may apply, and
this petition has been served on the Attorney General
of the State of Texas in accordance with Supreme Court
Rule 29.4(c). In accordance with Federal Rule of Appellate
Procedure 44(b), Petitioners provided written notice to
the Clerk of the Fifth Circuit that one of the issues in the
appeal involved a challenge to the constitutionality of a
Texas statute. Is it unknown whether either the district
court or the Fifth Circuit certified to the Texas Attorney
General the fact that the constitutionality of the statute
at issue was drawn into question, but the Texas Attorney
General filed an amicus brief before the Fifth Circuit on
September 5, 2018 and filed an amicus brief in the district
court proceedings on November 17, 2017.
STATUTORY PROVISION INVOLVED
Section 36A.004 of the Texas Uniform ForeignCountry Money Judgments Recognition Act, Tex. Civ.
Prac. & Rem. Code Ann. § 36A.004 (West 2017), provides:
(a) Except as otherwise provided in Subsections
(b) and (c), a court of this state shall
recognize a foreign-country judgment to
which this chapter applies.
(b) A court of this state may not recognize a
foreign-country judgment if:
(1) the judgment was rendered under a
judicial system that does not provide

3
impartial tribunals or procedures
compatible with the requirements of due
process of law;
(2) the foreign court did not have personal
jurisdiction over the defendant; or
(3) the foreign court did not have jurisdiction
over the subject matter.
(c) A court of this state is not required to
recognize a foreign-country judgment if:
(1) the defendant in the proceeding in the
foreign court did not receive notice of the
proceeding in sufficient time to enable
the defendant to defend;
(2) the judgment was obtained by fraud that
deprived the losing party of an adequate
opportunity to present the party’s case;
(3) the judgment or the cause of action
on which the judgment is based is
repugnant to the public policy of this
state or the United States;
(4) the judgment conflicts with another final
and conclusive judgment;
(5) the proceeding in the foreign court
was contrary to an agreement between
the parties under which the dispute in
question was to be determined otherwise
than by proceedings in the foreign court;

4
(6) jurisdiction was based only on personal
service and the foreign court was a
seriously inconvenient forum for the trial
of the action;
(7) t h e j u d g m e n t w a s r e n d e r e d i n
circumstances that raise substantial
doubt about the integrity of the rendering
court with respect to the judgment
(8) the specific proceeding in the foreign
court leading to the judgment was not
compatible with the requirements of due
process of law; or
(9) it is established that the foreign country
in which the judgment was rendered
does not recognize judgments rendered
in this state that, but for the fact that
they are rendered in this state, would
constitute foreign-country judgments
to which this chapter would apply
under Section 36A.003.
(d) A party resisting recognition of a foreigncountr y judg ment has the burden of
establishing that a ground for nonrecognition
stated in Subsection (b) or (c) exists.
INTRODUCTION
The Fifth Circuit departed from the accepted and
usual course of judicial proceedings—and allowed
the district court’s similar departure—by permitting

5
retroactive and unconstitutional application of Texas’s
enactment of the 2005 Uniform Foreign Country Money
Judgment’s Recognition Act. Respondent DeJoria lobbied
for the new Act and its retroactive application after the
DeJoria-I Court ruled against him and ruled in favor of
recognizing the Moroccan judgment.
This Court has repeatedly served as a check against
the sovereign’s ability to employ lawmaking to alter
parties’ settled expectations and affect transactions in
the past. That fundamental protection applies in both the
criminal and civil context, and the presumption against
retroactive application of new laws “is an essential
thread in the mantle of protection that the law affords
the individual citizen” and “‘embodies a legal doctrine
centuries older than our Republic.’” Lynce v. Mathis,
519 U.S. 433, 439, 117 S. Ct. 891, 895 (1997) (quoting
Landgraf v. USI Film Products, 511 U.S. 244, 265, 114
S. Ct. 1483, 1497 (1994)); see also Sveen v. Melin, 138 S.
Ct. 1815, 1826 (2018) (Gorsuch, J., dissenting) (“Because
legislation often disrupts existing social arrangements, it
usually applies only prospectively. This longstanding and
‘sacred’ principle ensures that people have fair warning
of the law’s demands.” (Citing Reynolds v. McArthur, 2
Pet. 417, 434 (1829)).
The Fifth Circuit acknowledged that DeJoria’s
lobbying efforts “changed the rules of the game midway
through the proceedings,” and noted the “whiff of
home cooking” present below. App., infra, 12a. But
the court permitted this rank abuse of power (and
means) nonetheless, in violation of the federal and state
constitutional prohibitions against retroactive application
of the laws.

6
In affirming the district court, the Fifth Circuit
approved the Magistrate Judge’s condemnation of the
judicial system of Morocco, one of this country’s oldest
allies. But unlike DeJoria’s unsubstantiated speculation
about the Moroccan executive’s supposed meddling in his
proceedings, DeJoria actually and undisputedly engaged
in extra-judicial interference in this federal case. DeJoria’s
extra-judicial actions have now gained the imprimatur
of the Fifth Circuit and will invite other parties to seek
legislation to alter or affect the outcome of pending court
cases. Such successful lobbying efforts risk eviscerating
Article III itself. The Fifth Circuit’s decision demands
this Court’s review.
STATEMENT OF THE CASE
I.	 Background
Respondent DeJoria is the billionaire co-founder of
the Paul Mitchell line of hair care products and Patron
Tequila and is a recurring guest on television’s “Shark
Tank.” In 1999, DeJoria co-founded a Moroccan company
called Lone Star Energy Corporation. C.A.Rec.1900-38;
C.A.Rec.2196. DeJoria signed Lone Star’s Articles of
Association as a director and as a shareholder and agreed
in writing that “any disputes that may arise during the
course of the Company…are subject to the competent
courts” of Morocco. C.A.Rec.1916. DeJoria, his business
partner, and their 50/50-owned company Skidmore
Energy, Inc. held 90% of Lone Star’s shares. C.A.Rec.1958;
C.A.Rec.2196; C.A.Rec.2334-36; C.A.Rec.4914.
DeJoria fraudulently induced Petitioner MFM to
invest millions in Lone Star by misrepresenting Lone

7
Star’s value as $175 million and by falsely claiming that
he and his company Skidmore had invested $27.5 million.
C.A.Rec.2197. Accounting firm KPMG audited Lone Star,
identified DeJoria’s fraud, and reported that DeJoria and
Skidmore invested only $3.7 million. C.A.Rec.2200-02.
Lone Star removed DeJoria from its board and changed
its name to Respondent MPE. Id.
In 2002, Petitioners filed the underlying Moroccan
lawsuit against DeJoria, Skidmore, and five other U.S.
defendants. C.A.Rec.2185-2203, C.A.Rec.2195-99. DeJoria
elected not to participate in the Moroccan proceedings.1
Instead, he retaliated by having his company Skidmore
sue MPE, MFM, KPMG, and 18 others in the Northern
District of Texas in 2003, seeking $3 billion in damages
and an anti-suit injunction to halt the Moroccan lawsuit.
Skidmore Energy, Inc. v. KPMG, 455 F.3d 564, 566 (5th
Cir. 2006), cert. denied, 549 U.S. 996 (2006). 2
In December 2009, the Moroccan court issued a
$122.9 million judgment against DeJoria and his partner,
absolving the five other U.S. defendants of liability.
C.A.Rec.4717-34 (English translation). In March 2013,
DeJoria personally was served with the Moroccan
judgment and informed in writing that he had 45 days
to appeal in Morocco before the judgment became final
1. DeJoria admitted that he “Absolutely” knew about
the Moroccan proceedings but “made a decision to…challenge
the judgment when it was brought to Texas for recognition.”
C.A.Rec.4912-13.
2. The district court dismissed Skidmore’s lawsuit and
sanctioned it and its lawyers over $500,000 for bringing a
“factually groundless lawsuit.” Skidmore, 455 F.3d at 568.

8
under Moroccan law. C.A.Rec.4781-4860, 4859-60. DeJoria
again declined to participate in the proceedings abroad
and chose not to exercise his right under Moroccan law
to a de novo appeal of the judgment. C.A.Rec.4862;
C.A.Rec.4912-13.
II.	 Proceedings Below
A.	 The 2013 district court proceedings
In June 2013, DeJoria filed this lawsuit in Texas state
court seeking non-recognition of the Moroccan judgment
under the original version of Texas’s Foreign Country
Money Judgments Recognition Act (“Original Act”),
promulgated in 1962 by the Uniform Law Commission
as the Foreign Money Judgments Recognition Act.
C.A.Rec.29-40; C.A.Rec.451-57. The action was removed
to the U.S. District Court for the Western District of
Texas and ultimately assigned to now-retired Judge
James Nowlin.
DeJoria challenged the Moroccan judgment arguing
that Moroccan judicial system lacked impartial tribunals
and procedures compatible with due process, that the
Moroccan court lacked personal jurisdiction, that Morocco
would not enforce a Texas judgment reciprocally, that the
Moroccan judgment was repugnant to public policy, and
that Morocco was an inconvenient forum to litigate the
dispute. C.A.Rec.472-515. In 2013, DeJoria retained two
Moroccan lawyers to provide affidavits supporting his
reciprocity and personal-jurisdiction challenges—he had
no support for his due process challenge. C.A.Rec.923-28;
C.A.Rec.930 - 36; C.A.Rec. 2729 - 31; C.A.Rec. 2912;
C.A.Rec.4906-08; C.A.Rec.5122-27; C.A.Rec.5129-30;
C.A.Rec.5144-46.

9
In 2014, Judge Nowlin refused to recognize the
Moroccan judgment, ruling that Morocco’s judicial system
could not provide DeJoria with due process and impartial
tribunals. C.A.Rec.3257-85. He incorrectly viewed the
Moroccan royal family as having “a political and economic
interest in the outcome of the Moroccan lawsuit,” which, he
thought, “impacted the judicial oversight.” C.A.Rec.3283.
B.	 The Fifth Circuit’s 2015 opinion in DeJoria I
Petitioners appealed Judge Nowlin’s decision, and in
September 2015, the Fifth Circuit reversed and remanded.
App., infra, 116a. The court rejected DeJoria’s systemwide and case-specific due-process arguments, rejected
his argument that the Moroccan courts lacked personal
jurisdiction, and rejected his argument that Morocco
would not reciprocally enforce a Texas judgment. App.,
infra, 105a, 110a, 116a. The Fifth Circuit also rejected any
argument based on speculative notions about the King’s
supposed influence in the proceedings abroad:
Although our inquiry focuses on Morocco’s
judicial system, we also observe that the record
does not establish that the King actually
exerted any improper inf luence on the
Moroccan court in this case. For example, the
Moroccan court (1) appointed experts, (2) took
seven years to reach a decision, (3) awarded a
lesser judgment than the expert recommended,
and (4) absolved five defendants—including
DeJoria’s company Skidmore—of liability.
App., infra, 102a (italics in original).

10
The DeJoria-I Court acknowledged that DeJoria
“claims that his life would have been endangered,” App.,
infra, 92a, but still rejected his personal-jurisdiction
challenge because:
While litigation in Morocco would have imposed
a burden on DeJoria, that burden would not be
so heavy as to render jurisdiction unreasonable.
Moroccan courts do not require that the
defendant appear personally, and DeJoria
could have litigated entirely through counsel
without returning to Morocco.
App., infra, 116a.
DeJoria sought rehearing and rehearing en banc. The
Fifth Circuit denied those petitions in November 2015,
App., infra, 88a-89a, and in June 2016, this Court denied
DeJoria’s petition for a writ of certiorari. App., infra, 87a.
C.	 Proceedings After Remand
On remand, Judge Nowlin referred the case to
Magistrate Judge Andrew Austin, who indulged DeJoria’s
requests for delay, allowed DeJoria to re-raise “public
policy” and “inconvenient forum” challenges that the
DeJoria-I Court had held he waived, App., infra, 105a,
and allowed DeJoria to challenge recognition under the
14th Amendment’s Due Process Clause. C.A.Rec.3828-46;
C.A.Rec.3900-01; C.A.Rec.4184-94; C.A.Rec.4250-52.
Meanwhile, without disclosure to the district court,
Magistrate Judge Austin, or Petitioners, DeJoria and his
lawyers of record used the litigation delay to lobby the

11
Texas Legislature to change the governing substantive law
and apply it retroactively to this pending case. In June 2017,
at DeJoria’s urging, the Texas Legislature replaced the
Original Act with a new version (“2017 Texas Act”) based
on the 2005 Uniform Foreign County Money Judgment
Recognition Act (“2005 Uniform Act”). C.A.Rec.4993-5018.
The 2017 Texas Act included two new challenges to a
foreign judgment that were not enumerated in the Original
Act, allowing non-recognition (one) if “the judgment was
rendered in circumstances that raise substantial doubt
about the integrity of the rendering court with respect
to the judgment” under §36A.004(c)(7), or (two) if “the
specific proceeding in the foreign court leading to the
judgment was not compatible with the requirements
of due process of law” under §36A.004(c)(8). See Tex.
Civ. Prac. & Rem. Code §36A et seq.; C.A.Rec.5020-26.
While the 2005 Uniform Act applies prospectively only,
DeJoria persuaded the Texas Legislature to apply the
2017 Texas Act retroactively to “a pending suit in which
the issue of recognition of a foreign country judgment is
or has been raised without regard to whether the suit was
commenced before, on, or after the effective date of this
Act.” C.A.Rec.5025-26 (Senate Bill 944 §3, Act of May 22,
2017, 85th Leg.) (emphasis added). 3
D.	 T h e M a g i s t r a t e Ju d g e ’s r e p o r t a n d
recommendation
In July 2017, DeJoria moved for non-recognition under
his new, lobbied-for 2017 Texas Act, primarily focusing
3. Two dozen other states have adopted the 2005 Uniform
Act, but Texas is the only one to apply it retroactively to pending
cases. C.A.Rec.5018; C.A.Rec.5025-26.

12
on the §36A.004(c)(8) specific-proceeding challenge.
C.A.Rec.4472-4513. DeJoria did not cite any new evidence.
He expressly disavowed the need for any additional
evidence, relying on the same record, same speculation,
and same improper inferences about partial tribunals,
inability to retain counsel, and biased court-appointed
experts that the Fifth Circuit rejected in DeJoria-I in
2015.
On February 26, 2018, without oral argument or a
hearing, Magistrate Judge Austin issued his Report and
Recommendation recommending non-recognition under
the retroactive 2017 Texas Act’s §36A.004(c)(8) “due
process” ground. App., infra, 31a-86a. The Magistrate
Judge exhumed several of Judge Nowlin’s reversed
findings based on the latter’s view that the King had his
thumb on the scale, even going so far as staying that it
would be “inappropriate for this judge to reweigh the
very same evidence that Judge Nowlin already weighed.”
App., infra, 64a.4
The Magistrate Judge then made three unsupported
“additional findings.” First, the Magistrate Judge
found that “DeJoria was unable to personally appear to
defend himself and offer testimony to rebut the claims
4. This Court held in Butler v. Eaton, 141 U.S. 240, 244
(1891) that a judgment or opinion reversed on appeal is “without
any validity, force, or effect, and out to never have existed.” See
also 5 C.J.S. Appeal and Error §1106 (2018) (“The effect of a general
and unqualified reversal of a judgment, order, or decree is to nullify it
completely and to leave the cause standing as if such judgment, order,
or decree had never been rendered….”); 36 C.J.S. Federal Courts
§739 (2018) (same). The Magistrate Judge’s view that it would be
inappropriate to reweigh evidence overlooks the Butler rule.

13
made against him in the Moroccan lawsuit” because of a
supposed hearsay “death threat” and “fear” that rendered
him “unable to personally appear at any of the court
proceedings.” App., infra, 73a. Second, the Magistrate
Judge embraced DeJoria’s counter-factual assertion that
he was “unable to retain counsel” because, he says, “he was
a defendant in a case that was of great political interest to
the King.” App., infra, 74a. Finally, the Magistrate Judge
credited a groundless, 100% made-up theory about the
Moroccan Court cycling through experts until it landed
on one that would provide a large enough damages figure.
App., infra, 80a-83a.
Just two days after DeJoria responded to Petitioners’
60+ pages’ worth of objections to the recommendation,
the newly-assigned district court (Judge Pitman) issued
a 1 ½ page order adopting it. App., infra, 28a-30a.
E.	 The Fifth Circuit’s 2019 opinion in DeJoria-II
The Fifth Circuit affirmed. The DeJoria-II Court first
determined that retroactive application of the 2017 Act
to pending cases did not violate the Texas Constitution’s
prohibition against retroactive laws. App., infra, 8a-12a.
The Texas Constitution provides in Article I §16 that
“No bill of attainder, ex post facto law, retroactive law,
or any law impairing the obligation of contracts, shall be
made.” Despite this clear text, the panel found “limited
interference” with Petitioners’ legitimate rights and held
that “[Petitioners’] expectation that [they] would prevail
was, in other words, not yet settled.” App., infra, 10a-11a.
The panel did not address any of the U.S. Constitutional
underpinnings of the anti-retroactivity principles
incorporated in the Texas Constitution’s Article I §16.

14
The Fifth Circuit compounded its constitutional
error by holding that contrary to DeJoria-I and other
Fifth Circuit decisions, the appropriate standard of
review was “clear error.” App., infra, 14a. The DeJoria-II
Court acknowledged that “the appeal’s outcome largely
turns on” and “ends up being resolved on” its decision to
review for clear error what it acknowledges are factual
findings “subject to vigorous debate.” App., infra, 13a,
23a, 27a. Even though dispositive, the panel deviated from
established law and applied a new standard of review.
On t he mer it s, t he F i f t h Ci rcu it not ed t he
Magistrate Judge’s “three major findings to support
nonrecognition”—a hearsay death-threat story, DeJoria’s
purported inability to retain counsel, and an utterly
baseless conspiracy theory about court-appointed experts.
App., infra, 19a. These “findings” are based on the false but
persistent narrative about the King’s supposed “political
and other interests,” C.A.Rec.5648-49. The DeJoria-I
Court, however, expressly rejected such innuendo and
speculation. But the court, citing a new standard of review
for these cases, shrugged its shoulders saying that the
“problem is that there is evidence on both sides” and even
if Petitioners’ evidence is stronger, “that is not enough to
establish that the district court’s crediting of DeJoria’s
evidence is implausible.” App., infra, 20a. 5
5. The Magistrate Judge’s additional findings should never
have been measured against some “implausibility” benchmark
because they ran afoul of the law of the case. When a court decides an
issue of law or fact, “that decision should continue to govern the same
issues in subsequent stages in the same case.” Christianson v. Colt
Indus. Operating Corp., 486 U.S. 800, 815-16, 108 S. Ct. 2166, 2177
(1988). The DeJoria-II Court, however, incorrectly said that “the
prior panel’s opinion did not preclude the findings the district court

15
Petitioners sought rehearing en banc, arguing that
the DeJoria-II Court applied the incorrect standard of
review, effectively overruling (improperly) an express
decision reached in DeJoria-I, and that the panel
improperly allowed DeJoria’s unconstitutional legislative
gamesmanship. The court denied rehearing on September
17, 2019. App., infra, 143a-144a.
REASONS FOR GRANTING THE PETITION
I.	 The Fifth Circuit permitted wanton abuse of power
by allowing retroactive application of a new law
lobbied for by a party in this case

The Fifth Circuit ignored Petitioners’ well-settled
expectations and destroyed the existing social and legal
arrangements in effect for most of this case. The Fifth
Circuit wrongly held that the retroactive application of the
changed law—lobbied for by DeJoria and his counsel of
record to undo DeJoria-I—did not violate the prohibition
against retroactive application because of its “limited
interference with [Petitioners’] legitimate rights.” App.,
infra, 10a. In Lynce, this Court rightly noted that the
Constitution’s “limits on the sovereign’s ability to use its
lawmaking power to modify bargains it has made with its
subjects” is “a basic principle that protects not only the
rich and the powerful.” 519 U.S. at 440.
made on remand.” App., infra, 24a. The court pointed to the 2017
Texas Act as a “new playing field” and dismissed the prior panel’s
findings as “general statements about usual Moroccan practices” and
“admittedly” dicta. App., infra, 25a. The prior panel’s conclusions,
for example, about royal influence and counsel availability, govern
as law of the case regardless of the new legal framework.

16
In this case, the courts below sanctioned the
rich and powerful’s efforts to unravel unfairly and
unconstitutionally the “essential thread in the mantle
of protection that the law affords the individual citizen.”
Id. at 439. A billionaire committed fraud in a business
transaction overseas, and when called to account for his
misconduct, changed the governing law in this U.S. suit
in the middle of the proceedings, and neither the district
court nor the Fifth Circuit found anything wrong with
that. The lower courts’ lack of constitutional concern
and oversight on this exact conduct screams out for the
exercise of this Court’s supervisory power.
A.	 Retroactivity offends constitutional protections
In Lan d graf, th is Cou r t ex pla i ned that the
“antiretroactivity principle finds expression in several
provisions of our Constitution.” 511 U.S. at 266. This Court
pointed to the Ex Post Facto Clause, the Contracts Clause,
the Fifth Amendment’s Takings Clause, the prohibitions
against Bills of Attainder, and the Due Process clause,
which “protects the interests in fair notice and repose
that may be compromised by retroactive legislation.” Id.;
see also id. at 272 (“Because it accords with widely held
institutions about how statutes should ordinarily operate,
a presumption against retroactivity will generally coincide
with legislative and public expectation.”); Sveen, 138 S. Ct.
at 1826 (Gorsuch, J., dissenting) (noting that prospective
application “prevents majoritarian legislatures from
condemning disfavored minorities for past conduct they
are powerless to change” (citing Landgraf )).
Article I §16 of the Texas Constitution echoes those
protections even more ardently, stating that “No bill of

17
attainder, ex post facto law, retroactive law, or any law
impairing the obligation of contracts, shall be made.” In
Robinson v. Crown Cork & Seal Co., Inc., 335 S.W.3d 126,
139 (Tex. 2010), the Texas Supreme Court—repeatedly
citing Landgraf—recognized that provisions limiting
retroactive legislation, like Article I §16, must “be applied
to achieve their intended objectives—protecting settled
expectations and preventing abuse of legislative power.”
Well before Robinson and cases like it, this Court
warned against abuse of legislative power, at least
through the lens of separation of powers, that arises
when new legislation affects pending lawsuits. See Plaut
v. Spendthrift Farm, Inc., 514 U.S. 211, 222 115 S. Ct.
1447, 1455 (1995) (“A legislature without exceeding its
province cannot reverse a determination once made, in
a particular case though it may prescribe a new rule for
future cases.” (quoting The Federalist No. 81, p. 545 (J.
Cooke ed. 1961))); see also Patchak v. Zinke, 138 S. Ct.
897, 916 (2018) (Roberts, C.J., dissenting) (noting that
“changing the rules of decision for the determination of a
pending case would impermissibly interfere with judicial
independence” (quoting Pope v. United States, 323 U.S.
1, 9, 65 S. Ct. 16 (1944))). The legislature cannot, as it did
here, affect the judicial powers of the United States “in a
manner repugnant to the text, structure, and traditions
of Article III.” Plaut, 514 U.S. at 218, 115 S. Ct. at 1452.
B. DeJoria-II marginalized constitutional
protections and condoned legislative abuse of
power
DeJoria-II throws these constitutional protections
by the wayside and openly invites other litigants to undo

18
judicial decisions in their cases by secretly lobbying
legislatures and mischaracterizing what courts have
said and done. The Fifth Circuit expressly recognized
that it was DeJoria’s lobbying “that changed the rules
of the game midway through the proceedings” but found
no infirmity when Petitioners’ rights were compared to
the “immediate protection to the due process rights of its
citizens.” App., infra, 12a.
The court found that retroactive application of the
law resulted in “limited interference” with Petitioners’
rights because, according to the court, it was “not even
certain that the law as it stood before the adoption of the
updated act would have led to recognition of the Moroccan
judgment.” App., infra, 10a. But this case was all-but-over
after DeJoria-I. DeJoria had asserted five nonrecognition
challenges under the prior version of the statute, and the
Fifth Circuit had squarely rejected DeJoria’s strongest
three grounds (due-process, jurisdiction, reciprocity). As
to the other two, the court held he “waived” his public
policy and inconvenient forum grounds, App., infra, 105a,
but even on the merits, those grounds were so weak that
DeJoria did not raise them as alternative grounds for
affirmance. DeJoria’s policy challenge was founded on
the laughable notion that “joint and several liability” was
repugnant to Texas law, C.A.Rec.4509, and he later fully
abandoned his challenge that Morocco was a “seriously
inconvenient forum” for this Morocco-based dispute—a
sure loser considering DeJoria’s signed, written consent
to litigate “any disputes” in Morocco. C.A.Rec.4511,
C.A.Rec.1916. Petitioners rightly had a strong and settled
right to recognition of the Moroccan judgment after
remand. Indeed, Petitioners’ rights and expectations—
along with DeJoria’s miserable prospects—are the very
reason DeJoria engaged in his extra-judicial lobbying.

19
In finding this gamesmanship unobjectionable, the
court stated that retroactive application of the 2017
Texas Act did not “strip” Petitioners of the ability to seek
recognition of the Moroccan judgment” and that “the only
right that has been impinged is the right to automatic
recognition of a judgment obtained in proceedings that
denied the judgment debtor fundamental fairness.” App.,
infra, 11a. As a threshold point, Petitioners never sought
“automatic recognition”—they litigated for years and
demonstrated that Morocco generally and in this case
provided impartial tribunals, due-process protections, and
had personal jurisdiction. Petitioners proved these facts
even though DeJoria bore the burden of proof under the
statute to prove a ground of non-recognition.
The Fifth Circuit misplaced its focus on Petitioners’
right to seek recognition. Rather, under either version of
the statute, DeJoria as the debtor/challenger exclusively
and always bears the burden of proving a ground of
non-recognition. Section 36A.004(a) states: “Except as
otherwise provided in Subsections (b) and (c), a court of
this state shall recognize a foreign-country judgment to
which this chapter applies.” Tex. Civ. Prac. Rem. Code
§36A.004(a) (emphasis added). Section 36.004(d) adds
that a “party resisting recognition of a foreign-country
judgment has the burden of establishing that a ground for
nonrecognition stated in Subsection (b) or (c) exists.” Id. at
§36A.004(d). In other words, recognition of the judgment
is the default outcome unless the challenger can meet its
burden to prove a statutory ground of non-recognition.
The Original Act included the same presumption of
recognition and likewise placed the burden on the debtor
to prove a non-recognition ground. App., infra, 97a. That
DeJoria bears the burden of proof underscores the flaw

20
in the Fifth Circuit’s reasoning. Retroactive application
of the 2017 Texas Act gave DeJoria two new challenges
that he did not have when this case was filed, effectively
undid Texas law’s default rule of recognition, and wrongly
relieved DeJoria of his burden.
C.	 Retroactive application of the 2017 Texas Act
is unconstitutional
The Fifth Circuit’s holding is precisely the type of
disruption of existing arrangements by the legislature
that the Constitution must prevent. In INS v. St. Cyr, 533
U.S. 289, 326, 121 S. Ct. 2271 (2001), this Court addressed
§212(c) of the Immigration and Nationality Act of 1952,
which granted the Attorney General discretionary
authority to admit aliens who would otherwise be excluded
or deportable. Section 212(c), for example, permitted the
Attorney General authority to admit permanent residents
who had been convicted of or plead guilty to aggravated
felonies. 533 U.S. at 294-295. According to this Court,
“the class of aliens whose continued residence in this
country has depended on their eligibility for §212(c) relief
is extremely large, and not surprisingly, a substantial
percentage of their applications for 212(c) relief have been
granted.” Id. at 295-296.
In 1996, Congress repealed §212(c) and replaced it
with a statute that gives the Attorney General authority
to cancel removal for a much narrower class of aliens.
Id. at 297 (citing 8 U.S.C. §1229b). Nevertheless, this
Court held that the broader relief afforded by §212(c)
must remain available, on the same terms as before, to
an alien whose removal is based on a guilty plea entered
before §212(c)’s repeal. Id. at 321. This Court reiterated

21
that retroactive application of a statute “takes away or
impairs vested rights acquired under existing laws, or
creates a new obligation, imposes a new duty, or attaches a
new disability in respect to transactions or considerations
already past.” Id. at 321 (quoting Landgraf, 511 U.S. at
269). This Court held that ““IIRIRA’s elimination of any
possibility of §212(c) relief for people who entered into
plea agreements with the expectation that they would be
eligible for such relief clearly attaches a new disability, in
respect to transactions or considerations already past.”
Id. (quotations omitted). Because aliens had entered
pleas with possibility of discretionary relief in mind, this
Court held that eliminating that prospect would not have
comported with familiar considerations of fair notice and
reasonable reliance. Id.
Similarly, in Lynce, Florida passed a statute canceling
certain prisoners’ early release credits, which were
awarded to alleviate prison overcrowding. 519 U.S. at 435436. Lynce filed a habeas petition alleging that retroactive
cancellation of his credits violated the Ex Post Facto
Clause. The courts below found no violation, denied the
petition, and denied a certificate of probable cause. Id. at
436. This Court reversed, holding that the Florida statute
violated the Ex Post Facto Clause because it retroactively
increased the prisoner’s punishment. According to this
Court, the statute “made ineligible for early release a
class of prisoners who were previously eligible.” Id. at 447.
In this case, at the time Petitioners sought recognition
of the Moroccan judgment, the challenges to recognition
were finite, and did not include the two challenges DeJoria
lobbied for and received with the 2017 Texas Act. The
parties briefed the issues in the district and circuit courts

22
in 2013-2015, and the Fifth Circuit issued its decision in
DeJoria-I in September 2015. On remand the district
court considered multiple matters and issued rulings
in 2016 and 2017. All of this transpired before DeJoria’s
undisclosed efforts led to passage of the 2017 Texas Act
in June 2017.
A fter remand, DeJor ia disclaimed additional
discovery, C.A.Rec.5818, meaning that the record would
be same as the one before the DeJoria-I Court. Petitioners
had already rebutted, thoroughly and conclusively,
DeJoria’s remaining public policy and inconvenient forum
challenges. Just as St. Cyr relied on the availability of
discretionary relief under §212(c) and Lynce relied on his
early credits, Petitioners relied on default presumption
that the Moroccan judgment would be recognized. While
DeJoria could not meet his burden under any ground for
non-recognition, old or new, retroactive application of the
2017 Texas Act “attach[ed] a new disability in respect to
transactions or considerations already past” and deprived
Petitioners of “fair warning of the law’s demands.” Sveen,
138 S. Ct. at 1826 (Gorsuch, J., dissenting).
These new disabilities were imposed through
legislation sought by DeJoria. The DeJoria-II Court noted
that “it was [DeJoria’s] lobbying efforts that changed
the rules of the game midway through the proceedings,”
App., infra, 12a (emphasis added), and recognized the
“whiff of home cooking” and “deep irony,” id., but still
allowed retroactive application of the new law because,
it said, “‘unfair does not always equal unconstitutional.’”
Id. Retroactive application of governing law midway
through a case demands painstaking scrutiny. Courts
cannot blindly defer to the sovereign and must closely

23
examine the reasons, justifications, and circumstances
behind subverting the presumption against retroactivity.
At every level, courts must serve as bulwarks against
sovereign’s ability to “modify the bargains it has made
with its subjects.” Lynce, 519 U.S. at 440. The Fifth Circuit
abdicated this duty and blessed a statute that directly
impaired the rights and expectations of parties in active
litigation and concluded that the impairment did rise to
an unconstitutional level.
In addition to violating the bargain between the
sovereign and its subjects, retroactive application of the
statute—specifically designed to undo DeJoria-I—runs
afoul of the separation of powers. Abuse of power is near
its zenith when a party runs to the legislature seeking a
change in the law governing a pending case. Retroactive
application of the 2017 Texas Act might not have reopened
a judgment or robbed a party of a forum, but it did
disingenuously target and abrogate a federal appellate
court decision in the same case. These actions harken
back to the “ruins of a system of intermingled legislative
and judicial powers” that Judge Scalia described in Plaut,
514 U.S. at 219, and cross the constitutional line drawn by
the separation of powers.
There is little daylight between the circumstances
behind the 2017 Texas Act and those undergirding
the Texas Supreme Court’s decision in Robinson. In
Robinson, the Texas Legislature passed a law, Chapter
149, that capped successor liability for asbestos claims.
335 S.W.3d at 130. The legislature made Chapter 149, like
the 2017 Texas Act here, applicable actions pending at the
time, not just those commenced on or after the statute’s
effective date. Id. at 131. The Texas Supreme Court found

24
retroactive application of Chapter 149 violative of the
Texas Constitution’s prohibition against retroactive laws
because “Chapter 149 was enacted to help only Crown
and no one else,” “Crown itself has been unable to identify
to us any other company affected,” and “the Legislature
made no findings to justify Chapter 149” retroactivity.
Id. at 149-50. It held that “the public interest served by
Chapter 149 is slight.”
As in Robinson, retroactivity here benefited only
DeJoria, and as the DeJoria-II panel itself recognized,
the “only pending case the legislators were told about was
this one.” App., infra, 7a. Further, the Texas Legislature
did not make any findings to justify retroactivity of the
2017 Texas Act. The “Sponsor’s Statement of Intent”
for the 2017 Texas Act refers to a “recent federal
court decision”—DeJoria-I—that purportedly “called
into question whether the Texas Act protects Texans’
individual due process rights by foreign court systems.”
C.A.Rec.5028. The Statement does not say how or
whether retroactivity affords judgment debtors more
individual due-process protections than they had under
the old Act, not to mention that the law, especially its
retroactive application, was promoted with substantial
involvement from DeJoria and his lawyers and lobbyists.
The Robinson Court relied on this Court’s jurisprudence
and highlighted that one of the intended objectives of
prohibiting retroactive applications was to prevent abuse
of power. 335 S.W.3d at 139. The same abuse of power that
supported finding Chapter 149 unconstitutional warrants
the same finding as to the 2017 Texas Act.
A s this Cour t recog nized in Landgraf, some
“retroactivity provisions often serve entirely benign and

25
legitimate purposes, whether to respond to emergencies,
to correct mistakes, to prevent circumvention of a new
statute in the interval immediately preceding its passage,
or simply to give comprehensive effect to a new law
Congress considers salutary.” 511 U.S. at 268. That was
not the case here. The only emergency was that DeJoria
was about to lose his case and reckon with his misconduct
abroad and his choice to ignore the Moroccan lawsuit. Faced
with that, DeJoria leveraged his considerable resources
to change the rules of decision for the determination of
a pending case. DeJoria’s underhandedness might not be
actionable under the Constitution, but Texas’s decision
to depart from 2005 Uniform Act and make the new
law applicable to this case (to benefit DeJoria and only
DeJoria) represents a gross abuse of power and a rank
violation of the Due Process Clause and the separation of
powers. This decision demands this Court’s review.
II.	 The Fifth Circuit disregarded Erie and crafted a
new standard of review

The DeJoria-II Court’s outcome-determinative
“clear-error” review directly conflicts with DeJoria-I’s
application of de novo review. DeJoria-II caused an intracase rift and also causes a dangerous rift between state
and federal outcomes in recognition cases in contravention
of Erie’s rule that “[e]xcept in matters governed by the
Federal Constitution or by Acts of Congress, the law to
be applied in any case is the law of the State.” Erie R. Co.
v. Tompkins, 304 U.S. 64, 78, 58 S. Ct. 817, 822 (1938).
DeJoria-II’s unapologetic refusal to follow Erie likewise
constitutes a departure from the usual course of judicial
proceedings worthy of this Court’s review.

26
In Derr v. Swarek, 766 F.3d 430, 436 n.2 (5th Cir.
2014), the Fifth Circuit highlighted its prior panels’
disagreements about the standard of review in foreign
country money judgment recognition cases, held that
state law controls, and applied Mississippi’s abuse-ofdiscretion standard (because Mississippi law governed).
In accordance with Derr, the DeJoria-I Court “similarly
look[ed] to Texas law to determine the applicable standard
of review here” and cited five Texas recognition cases
applying de novo review, including to fact-findings. App.,
infra, 94a-95a.
DeJoria-II ignored Derr and its alignment of state
and federal review standards in diversity-jurisdiction
recognition cases, and instead concluded that “our appellate
standard of review is governed by federal law, even in this
diversity case.” App., infra, 14a. DeJoria-II’s only support
is a citation to a rote phrase in an automobile design-defect
case, Goodner v. Hyundai Motor Co., 650 F.3d 1034, 1040
(5th Cir. 2011), that predates Derr and DeJoria-I. Id.
The DeJoria-II Court said that it looked at Texas
recognition law, but somehow found “Nothing” that
“counsels in a different direction” from clear-error review.
App., infra, 16a. The panel failed even to mention the first
two Texas recognition cases cited in DeJoria-I for de
novo review—Reading & Bates Construction Company
v. Baker Energy Resources Corporation, 976 S.W.2d 702
(Tex. App.—Houston [1st Dist.] 1998, pet. denied) and
Presley v. N.V. Masureel Verdeling, 370 S.W.3d 425 (Tex.
App.—Houston [1st Dist.] 2012, no pet.). The panel also
overlooked that in The Courage Corp. v. Chemshare Corp.,
93 S.W.3d 323, 331 (Tex. App.—Houston [14th Dist.] 2002,
pet. denied), the Texas appeals court reviewed “findings
and conclusions” de novo.

27
The DeJoria-II Court wrongly noted that the prior
panel did not “determine the proper standard of review for
the factual findings that underpin the district court’s legal
decision.” App., infra, 14a. DeJoria himself specifically
argued in DeJoria-I that “the bulk of the district court’s
judgment is factual findings and those should be reviewed
under the clear error standard.” C.A.Rec.4910-12. He
likewise complained in his rehearing and certiorari
petitions in 2015 and 2016 that “de novo review allowed
the Fifth Circuit to weigh the facts in the first instance,”
C.A.Rec.4018 (emphasis added), complained that DeJoria-I
“reweighed” evidence and was not “deferential…to the
district court’s findings,” C.A.Rec.3374; C.A.Rec.4015,
and said “reweighing of disputed evidence and inferences
is illustrated by [DeJoria-I’s] treatment of the availability
of counsel in the Moroccan proceedings,” C.A.Rec.4957.
DeJoria’s own filings and judicial admissions show that the
DeJoria-II Court used a demonstrably false justification
for substituting its outcome-determinative “clear error”
review in place of the DeJoria-I Court’s (and Texas law’s)
de novo review—the DeJoria-I Court absolutely did
review the evidence and the district court’s fact-findings
de novo.
In Guaranty Trust Co. v. New York, 326 U.S. 99, 109,
65 S. Ct. 1464, 1470 (1945), this Court made clear that
“where a federal court is exercising jurisdiction solely
because of diversity of citizenship of the parties, the
outcome of the litigation in the federal court should be
substantially the same, so far as legal rules determine
the outcome of a litigation, as it would be if tried in a
State court.” In Hanna v. Plumer, 380 U.S. 460, 468, 85
S. Ct. 1136, 1142 (1965), this Court advised that Guaranty
Trust’s “outcome-determination” test must be guided by

28
“the twin aims of the Erie rule: discouragement of forumshopping and avoidance of inequitable administration of
the laws.” And in Gasperini v. Center for Humanities,
Inc., 518 U.S. 415, 116 S. Ct. 2211 (1996), this Court applied
Guaranty Trust in light of Erie’s twin aims and held
that New York law supplied the standard for reviewing a
verdict’s excessiveness.
Under this Court’s precedent, state law supplies the
standard of review in foreign recognition cases. If this
case had stayed in state court where it was originally
brought, the state appellate court very likely, if not most
certainly, would have applied a de novo standard of
review. The Fifth Circuit conceded that the standard of
review in this case was dispositive, admitting that “the
appeal’s outcome largely turns on” the question of the
appropriate standard of review. App., infra, 13a. The
resulting disconnect between federal and state standards
and outcomes implicates Erie’s twin aims. In cases like
this, parties will try to keep cases in state court or remove
them to federal in order to affect the result. That forum
shopping is precisely what the Erie/Hanna rule seeks to
avoid.
In Gasperini, this Court said, “Classification of a
law as ‘substantive’ or ‘procedural’ for Erie purposes is
sometimes a challenging endeavor.” 518 U.S. at 427, 116
S. Ct. at 2219. In this case, it should have been easy. The
standard of review is clear under Texas law and would
have led to a different result had the Court applied it
rather than clear error. The Fifth Circuit’s flouting of the
Erie rule justifies this Court’s supervisory power as well.

29
III.	These issues must not evade review
The questions before this Court are important and
recurring and this case presents an appropriate vehicle
for addressing them.
A.	 The Fif th Circuit’s decision sanctions
retroactive application of a new law in the
most egregious circumstances
The Fifth Circuit said that “immediate protection to
the due process rights of its citizens” justified (or excused)
retractive application of the new law. App., infra, 12a. But
the Original Act already provided due process and other
protections as it required systemwide fairness and due
process, personal jurisdiction, sufficient notice and time
to defend, a convenient forum, and more. C.A.Rec.3964,
C.A.Rec.4173; see also Cedric C. Chao & Christine S.
Neuhoff, Enforcement and Recognition of Foreign
Judgments in U.S. Courts: A Practical Perspective, 29
Pepp. L. Rev. 147, 163-164 (2001) (correlating the Uniform
Act’s due process ground to Guyot’s “opportunity for a
full and fair trial,” “a trial upon regular proceedings,”
and “proceedings under a system likely to secure an
impartial administration of justice with respect to citizens
of other countries”). The purported desire for “immediate
protection” was solely for DeJoria’s benefit to try to undo
his 2015 loss in the Fifth Circuit in DeJoria-I, which is
exactly why he lobbied for retroactive application. The only
affected case known at the time DeJoria was lobbying the
legislature was this one. App., infra, 7a.
DeJoria’s prospects were bleak after the first Fifth
Circuit panel rejected his arguments. He went to the

30
Texas Legislature for assistance in his case, and he
got it. DeJoria-II dangerously countenances—indeed,
encourages—other litigants to try and affect the outcome
of pending lawsuits by lobbying for retroactive changes
in the law. DeJoria’s tactics will be followed by other
(especially well-heeled) litigants faced with adverse
prospects. During the Texas House Committee hearing
on this statute, the Committee Chairman himself warned
that “we have to be very careful when somebody comes
in here and says, ‘I’m in the middle of litigation. Will
you change the rules to help me out in this litigation?’
Otherwise, we’re going to have everybody – every big
entity that is capable of hiring lobbyists coming in here and
wanting us to change the law to affect their litigation. That
is a matter of concern.” C.A.Rec.5101. The Fifth Circuit’s
DeJoria-II opinion invites others to follow DeJoria’s extrajudicial playbook.
B.	 The Fifth Circuit’s opinion encourages forum
shopping
The DeJoria-II Court’s refusal to honor and apply
the DeJoria-I Court’s (and Texas law’s) de novo standard
of review was dispositive. App., infra, 13a. The Fifth
Circuit’s opinion in DeJoria-II thus violates Erie’s “twin
aims” and leads to divergent results by providing different
standards of review depending on whether the same
case is in state or federal court. Erie, 304 U.S. at 78, 58
S. Ct. at 822; Hanna, 380 U.S. at 468, 85 S. Ct. at 1142.
Texas law is clear. Decisions regarding recognition of
foreign judgments are reviewed de novo. See Reading &
Bates, 976 S.W.2d at 708; Presley, 370 S.W.3d at 432; The
Courage Corp., 93 S.W.3d at 331. Until DeJoria-II undid
it, the federal courts were in accord. A different standard

31
of review between state and federal forums invites the
kind of forum shopping that Erie and its progeny were
designed to prevent.
C.	 This case presents an appropriate vehicle
This case presents a clean and appropriate vehicle for
deciding these issues. The Fifth Circuit’s willingness to
permit retroactive application despite “the whiff of home
cooking” and the “deep irony” in the arguments given
DeJoria’s tactics dictated the outcome. Had the Fifth
Circuit given appropriate weight, indeed any meaningful
weight, to the legal doctrine “centuries older than our
Republic,” 511 U.S. at 265, it would have swiftly reversed
the lower court’s decision. Likewise, had the Fifth Circuit
adhered to its own precedent, it would have reversed, as
the prior panel did. DeJoria’s speculation and innuendo
are not enough to meet his burden under any standard,
but certainly not under the de novo standard that should
have been applied.
The consequences of the Fifth Circuit’s deviation
from the standard of review applied before its opinion
are not limited to Texas. In Derr, the Fifth Circuit looked
to Mississippi law and applied an abuse of discretion
standard of review. 766 F.3d at 436 n.2 Under DeJoriaII, the next foreign judgment recognition decision from
Mississippi will be reviewed under a different standard,
presumably clear error. The same is true for Louisiana
cases, and cases in other circuits. Other appellate courts
will view DeJoria-II as justification to depart from state
law.
The predictability required in appellate-court
proceedings, especially after a remand, warrants

32
review by this Court. More critically, this Court
must necessarily review these proceedings to uphold
elementary considerations of fairness and to protect
a party’s settled expectations from disruption at the
hands of the sovereign—this time at the request and
encouragement of one of the parties.
CONCLUSION
The petition for writ of certiorari should be granted.
Respectfully submitted.
Roger D. Townsend
Cokinos | Young
Four Houston Center
1221 Lamar, 16th Floor
Houston, Texas 77010
(713) 535-5500

Geoffrey L. Harrison
Counsel of Record
Kenneth Mcneil
John P. Lahad
Susman Godfrey LLP
1000 Louisiana, Suite 5100
Houston, Texas 77002
(713) 651-9366
gharrison@susmangodfrey.com

Counsel for Petitioners

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals for the
fifth circuit, filed august 15, 2019
IN THE United States Court of Appeals
for the Fifth Circuit
No. 18-50348
JOHN PAUL DEJORIA,
Plaintiff - Appellee
v.
MAGHREB PETROLEUM EXPLORATION, S.A.;
MIDEAST FUND FOR MOROCCO, LIMITED,
Defendants - Appellants
August 15, 2019, Filed
Appeal from the United States District Court
for the Western District of Texas
Before JOLLY, COSTA, and ENGELHARDT, Circuit
Judges.
GREGG COSTA, Circuit Judge:
In 1999, philanthropist, environmental activist,
and haircare and liquor tycoon John Paul DeJoria was
attempting to achieve yet another title: oil magnate. It

2a
Appendix A
did not go well. What started as a project that promised
to provide Morocco with decades of energy independence
ended with a Moroccan court’s levying a judgment north
of $100 million against DeJoria and his business partner.
Whether Texas should recognize that foreign judgment
is now the centerpiece of this decades-long dispute. In
fact, proving that it is often harder to collect a judgment
than win one, this is the second time the question of
the judgment’s validity has come before us. This time
around we decide whether an interim change in the Texas
recognition law violates the state’s constitutional ban on
retroactive laws. If not, we must determine whether the
district court properly followed this court’s 2015 mandate
and whether it properly applied the new law.
I.
The facts of this case are littered across the pages of
the Federal Reporter. See DeJoria v. Maghreb Petroleum
Expl., S.A., 804 F.3d 373 (5th Cir. 2015); Skidmore Energy,
Inc. v. Maghreb Petroleum Expl., S.A., 337 F. App’x 706
(9th Cir. 2009); Skidmore Energy, Inc. v. KPMG, 455
F.3d 564 (5th Cir. 2006). Because this court has already
described the background of this corner of the dispute, we
will do our best not to spill unnecessary ink. See DeJoria,
804 F.3d at 377-78. The winding path the case followed
after our court’s 2015 remand will spill enough as it is.
For now, suffice it to say that in 1999 DeJoria and his
business partners started Lone Star Energy Corporation
in Morocco with the help of King Mohammed VI’s first
cousin. The enterprise hoped to discover oil reserves in
Northeastern Morocco. The prospects looked good—so

3a
Appendix A
good that the King took to Moroccan airwaves to announce
that the country would soon be in possession of “copious
and high-quality” oil that would allow Morocco to be selfsufficient for 30 years. The King’s announcement made
the Moroccan stock market jump more than five percent
in anticipation of the expected riches.
But when the promised reserves did not materialize,
the project quickly soured. DeJoria and his business
partner were forced off Lone Star’s board, and, fearing
for their lives because of an alleged death threat, fled
Morocco, never to return.
Not long after their ouster, DeJoria and his associates
were sued in Moroccan commercial court by Lone Star’s
new management (now called Maghreb Petroleum
Exploration, S.A.) and its major investor, Mideast Fund
for Morocco. Maghreb, the term we will use to collectively
refer to those two entities, alleged that DeJoria and his
partners mismanaged Lone Star and fraudulently induced
investment in the doomed oil project. Seven years later, the
Moroccan court returned a large judgment for Maghreb.
It dismissed claims against five of the seven defendants,
placing the blame—and the bill for 969,832,062.22
Moroccan dirhams1—squarely on DeJoria and his partner.
Before going further, a little bit about the legal
backdrop is helpful. In order to collect its winnings from
DeJoria’s assets in the United States, Maghreb must
1. Because Maghreb has yet to secure recognition of its
judgment, the district court has not calculated how much it is worth
in U.S. dollars. But the parties put the value at around $123 million.

4a
Appendix A
convince an American court to recognize and enforce the
Moroccan judgement. 2 Recognition of foreign-country
judgments is a matter of state law and was once mostly
governed by principles of comity. See Hilton v. Guyot,
159 U.S. 113, 163-64, 180-81, 16 S. Ct. 139, 40 L. Ed. 95
(1895). In some jurisdictions, comity is still the rule. See,
e.g., Kwongyuen Hangkee Co., Ltd. v. Starr Fireworks,
Inc., 2001 SD 113, 634 N.W.2d 95, 96 (S.D. 2001). But
most states have codified their recognition standards and
procedures by enacting the 1962 Uniform Foreign Money
Judgments Recognition Act 3 or its 2005 successor, the
Uniform Foreign-Country Money Judgments Recognition
Act.4 Both acts make foreign judgments that are final and
conclusive where rendered “enforceable” in the relevant
state court just like another state’s judgment would be.
2. Recognition is different from enforcement, but the former
is necessary for the latter. See Yuliya Zeynalova, The Law on
Recognition and Enforcement of Foreign Judgments: Is It Broken
and How Do We Fix It?, 31 Berkeley J. Int ’l L. 150, 155 (2013)
(describing recognition as akin to domesticating the judgement and
enforcement as enlisting the courts and law enforcement to aid in
collection). Only recognition is at issue in this case.
3. For a list of the 34 jurisdictions that have enacted the
1962 version, see Foreign Money Judgments Act, Uniform Law
Commission, https://www.uniformlaws.org/ committees/communityhome?CommunityKey=9c11b007-83b2-4bf2-a08e-74f642c840bc (last
visited August 6, 2019).
4. For a list of the 25 jurisdictions that have enacted the 2005
version (for some, repealing the 1962 version in the process), see
Foreign-Country Money Judgments Recognition Act, Uniform Law
Commission, https://www.uniformlaws.org/committees/communityhome?CommunityKey=ae280c30-094a-4d8f-b722-8dcd614a8f3e
(last visited August 6, 2019).

5a
Appendix A
Unif. Foreign-Country Money Judgments Recognition
Act § 7(2), U.L.A. (2005) (West); Unif. Foreign Money
Judgment Act § 3, U.L.A. (1962) (West). Although these
acts presumptively treat properly filed foreign judgments
as enforceable, exceptional circumstances can rebut that
presumption. Some of those exceptions are mandatory,
others discretionary. If the rendering court did not
have personal jurisdiction over the judgment debtor,
for instance, the state court (or federal court sitting
in diversity) cannot recognize the foreign judgment.
2005 Unif. Act § 4(b)(2); 1962 Unif. Act § 4(a)(2). Other
grounds for nonrecognition, like fraud in obtaining the
judgment, instead give the American court the option of
not recognizing the foreign judgment. 2005 Unif. Act § 4(c)
(2); 1962 Unif. Act § 4(b)(2).
So, in 2013, Maghreb came to the United States
seeking recognition of the Moroccan judgment. 5 DeJoria
resisted in several ways. At the time, Texas had adopted
(with slight modification) the 1962 Uniform Recognition
Act. See Tex. Civ. Prac. & Rem. Code § 36.001-08 (Vernon’s
2015). That law included ten nonrecognition grounds.
DeJoria pressed seven of them. The district court focused
on only one avenue to nonrecognition. It determined that
5. The procedural history is a bit more complicated. DeJoria,
perhaps believing the best defense is a good offense, went to Texas
court first, seeking preemptive nonrecognition of the Moroccan
judgment and an antisuit injunction. Maghreb removed to federal
court and counterclaimed for recognition. But DeJoria eventually
dismissed his affirmative claims, conforming this action to the more
typical posture—judgment creditor seeking recognition, judgment
debtor resisting.

6a
Appendix A
the Moroccan judgment was “rendered under a system
that does not provide impartial tribunals or procedures
compatible with the requirements of due process of
law.” Id. § 36.005(a)(1). Because this was a mandatory
nonrecognition ground, the district court refused to
recognize the Moroccan judgment and dismissed the case.
We reversed. DeJoria, 804 F.3d at 389. The panel
held that, under Texas’s version of the 1962 Uniform
Recognition Act, DeJoria could not obtain nonrecognition
by showing he was denied due process or impartial
tribunals in his case, but instead had the much greater
burden of showing that Morocco’s legal “system as a
whole” was so deficient that no Texas court should ever
recognize a Moroccan judgment. Id. at 381.6 And although
the prior panel’s inquiry focused on whether the Moroccan
judicial system could provide Americans fair proceedings,
it remarked that “the record does not establish that the
King actually exerted any improper influence on the
Moroccan court in this case.” Id. at 382 n.9. The case was
remanded.
Back before the district court, and in front of the
magistrate judge to whom the matter was referred, the
parties immediately began to squabble over the scope
of that court’s power on remand.7 DeJoria was adamant
6. That panel also rejected another two of DeJoria’s arguments
for nonrecognition—that Morocco would not reciprocally recognize a
Texas judgment and that the Moroccan court did not have personal
jurisdiction over DeJoria. DeJoria, 804 F.3d at 384-89.
7. Because the district court adopted the magistrate’s
recommendations in all relevant respects, we will describe the
postremand rulings as district court rulings.

7a
Appendix A
that he should still be allowed to push for nonrecognition
on grounds not addressed by the Fifth Circuit. Maghreb
disagreed and moved for entry of judgment. The district
court denied Maghreb’s motion, agreeing with DeJoria
that he could still attempt to establish other grounds for
nonrecognition.
While the sound and fury continued apace in the
trial court, a second front in this dispute opened, this
time in the Texas legislature. With the testimonial aid of
one of DeJoria’s lawyers, the 2017 legislative session was
considering updating the Recognition Act to the 2005
uniform act. Among other changes, the new law would
add two discretionary grounds for nonrecognition: a court
would be able to deny recognition if “the judgment was
rendered in circumstances that raise substantial doubt
about the integrity of the rendering court with respect to
the judgment” or, more importantly in this case, if “the
specific proceeding in the foreign court leading to the
judgment was not compatible with the requirements of
due process of law.” 2005 Unif. Act § 4(c)(7)-(8).
These substantive differences between the old and
new law were not the focus of hearings on the bill. Instead,
a change not found in the new Uniform Law nor in the
versions of that law passed by other states drew the most
attention. The drafters had made the law retroactive to
pending cases. The only pending case the legislators were
told about was this one. Despite the concern of at least one
legislator that the law was going to change the outcome
of this case midstream, the law was adopted with the
retroactivity provision. 2017 Tex. Sess. Law Serv. Ch. 390

8a
Appendix A
(S.B. 944) (Vernon’s), codified at Tex. Civ. Prac. & Rem.
Code § 36A.001-11.
With his legislative victory in hand, DeJoria returned
to the district court to inform it of the change in Texas law.
Although he argued that nonrecognition was warranted on
multiple grounds, the district court again focused on only
one. Finding the new law did not run afoul of the Texas
Constitution’s prohibition of retroactive laws, this time
the court granted DeJoria’s motion for nonrecognition
after determining that the specific proceedings leading
to the judgment against him were incompatible with the
requirements of due process. 8 To reach that decision, the
district court readopted many of the case-specific findings
underlying the order this court had reversed. But it also
made new findings: that DeJoria was unable to attend
the Moroccan proceedings, that he was unable to obtain
counsel to represent him in those proceedings, and that,
although the Moroccan court relied on an expert’s opinion
to determine damages, that expert lacked independence.
The court again dismissed the case. Maghreb again
appealed.
II.
We have jurisdiction over this case owing to the
diversity of the parties, so we apply Texas substantive
8. The court declined to reach DeJoria’s other arguments for
nonrecognition: that 1) the Moroccan judgment was rendered under
circumstances that raise substantial doubt about the integrity of the
rendering court, 2) the Moroccan judgment was repugnant to Texas
public policy, and 3) recognition of the judgment would violate the
Due Process Clause of the Fourteenth Amendment.

9a
Appendix A
law. Erie R. Co. v. Tompkins, 304 U.S. 64, 78, 58 S. Ct.
817, 82 L. Ed. 1188 (1938). In doing so, we are bound by
the decisions of the Supreme Court of Texas. Comm’r v.
Bosch’s Estate, 387 U.S. 456, 465, 87 S. Ct. 1776, 18 L. Ed.
2d 886 (1967). But when no decision of that court directly
addresses the case before us, we are forced to make an
Erie guess, doing our best to write the opinion the Texas
high court would if it had the chance.9 Meador v. Apple,
Inc., 911 F.3d 260, 264 (5th Cir. 2018).
We must make such a guess to determine which of the
Uniform Recognition Acts applies. The Texas Constitution
provides that “[n]o bill of attainder, ex post facto law,
retroactive law, or any law impairing the obligation of
contracts, shall be made.” Tex. Const. art. I, § 16. Although
phrased as an absolute prohibition, “[m]ere retroactivity is
not sufficient to invalidate a statute.” Robinson v. Crown
9. Although neither party asks us to certify this question
to the state court, in an amicus brief the State of Texas suggests
we should consider it, especially if we are inclined to overturn the
statute. We decline to do so because we do not think application of
the Supreme Court of Texas’s many retroactivity precedents to this
statute leaves us with a close call. Williamson v. Elf Aquitaine, Inc.,
138 F.3d 546, 549 (5th Cir. 1998) (noting that the “closeness of the
question” and “the existence of sufficient sources of state law” are
the most important factors in deciding to certify (quotation omitted)).
Moreover, a case in which a foreign corporation is attempting to
argue that a state legislature has passed a law as a favor to one
of its wealthiest citizens seems like the quintessential case for the
exercise of diversity jurisdiction. Cf. 13E Charles Alan Wright et.
al, Fed. Prac. & Proc. § 3601 (3d ed. 2019) (describing the most
common justification for federal diversity jurisdiction as “the fear
that state courts would be prejudiced against out-of-state litigants,
particularly when opposed by an in-stater”).

10a
Appendix A
Cork & Seal Co., Inc., 335 S.W.3d 126, 139 (Tex. 2010)
(quotation omitted). Texas courts have tailored the scope
of the prohibition to “protect[] settled expectations and
prevent[] abuse of legislative power.” Id. Three factors
determinine whether a law runs afoul of those objectives:
“the nature and strength of the public interest served
by the statute as evidenced by the Legislature’s factual
findings; the nature of the prior right impaired by the
statute; and the extent of the impairment.” Id. at 145. The
nature and extent of the interference with a party’s rights
loom particularly large. For that reason, “changes in the
law that merely affect remedies or procedure, or that
otherwise have little impact on prior rights, are usually not
unconstitutionally retroactive.” Id. at 146; see also Univ.
of Tex. Sw. Med. Ctr. at Dallas v. Estate of Arancibia,
324 S.W.3d 544, 548 (Tex. 2010) (“Statutes . . . that do
not deprive the parties of a substantive right . . . may be
applied to cases pending at the time of enactment.”).
The new law’s limited interference with Maghreb’s
legitimate rights resolves the question before us. Unlike
Robinson—the seminal Texas case on retroactivity—this
is not a case in which a law that allowed a party’s recovery
was changed to “abrogate their claim.” Robinson, 335
S.W.3d at 148. It is not even certain that the law as it stood
before the adoption of the updated act would have led to
recognition of the Moroccan judgment. As we mentioned,
the district court agreed to allow DeJoria to press several
arguments for nonrecognition after this court returned
the case to its hands.10 Because the passage of the new
10. In particular, prior to the update of the law, DeJoria
retained the ability to argue that two additional nonrecognition

11a
Appendix A
act made it unnecessary to address those claims, we do
not know how likely they were to succeed. Maghreb’s
expectation that it would prevail was, in other words, not
yet settled. See Union Carbide Corp. v. Synatzske, 438
S.W.3d 39, 58 (Tex. 2014) (upholding retroactive application
of a law because the plaintiff’s “recovery was not yet
predictable” at the time the law went into effect).
The bigger point, though, is that the retroactive law
does not abrogate Maghreb’s claim. It does not strip
Maghreb of the ability to seek recognition of the Moroccan
judgment. It just gives a district court the ability to
deny recognition if it finds the judgment was obtained in
proceedings that were incompatible with the requirements
of due process. So the only right that has been impinged is
the right to automatic recognition of a judgment obtained in
proceedings that denied the judgment debtor fundamental
fairness. To state that “right” is to show why we cannot
recognize it, let alone allow its protection to sink a state
statute. Robinson, 335 S.W.3d at 146 (“[C]ourts must be
mindful that statutes are not to be set aside lightly.”).
Indeed, the absurdity of lending a court’s power to the
vindication of fundamentally unfair proceedings is why the
2005 Uniform Act recognizes an absence of due process as
one of the rare situations when an American court may not
recognize a foreign judgment. It is also noteworthy that
factors applied: that the “cause of action on which the judgment is
based is repugnant to the public policy” of Texas and that Morocco
was a “seriously inconvenient forum.” Tex. Civ. Prac. & Rem. Code
§§ 36.005(b)(3) and (6) (Vernon’s 2015). Beyond the Recognition Act›s
domain, DeJoria was also raising a federal due process challenge to
recognition of the Moroccan judgment.

12a
Appendix A
the Supreme Court of Texas has only upheld challenges
to the retroactive application of a law on four occasions,
all of which dealt with laws that revived expired claims or
fully extinguished vested rights. Tenet Hospitals Ltd. v.
Rivera, 445 S.W.3d 698, 708 (Tex. 2014) (collecting cases).
The updated recognition act does neither.
We are mindful that the whiff of home cooking also
pervades the Texas side of this case. There is a deep irony
in allowing DeJoria to contend he was denied due process
in Morocco when it was his lobbying efforts that changed
the rules of the game midway through the proceedings in
the United States. Indeed, the Supreme Court of Texas
has been suspicious of retroactive laws that inure to the
benefit of only one company or individual.11 Robinson,
335 S.W.3d at 149. But in the retroactivity context as in
others, “unfair does not always equal unconstitutional.”
Id. at 160 (Willett, J. concurring). And it cannot be said
that a state’s desire to provide immediate protection to
the due process rights of its citizens is not compelling.
When balanced against the slight imposition on a right of
dubious provenance, retroactive application of the updated
Recognition Act does not violate the Texas Constitution.

11. DeJoria points to one other recognition case that was
pending at the time the law was passed, In re Carmona, 580 B.R.
690 (Bankr. S.D. Tex. 2018). But the Texas legislature was only
made aware of one case that would be affected by the retroactivity
provision—this one.

13a
Appendix A
III.
A.
Having decided that Texas’s choice to apply its new
Recognition Act to pending cases was proper, we now
must review the district court’s application of that law.
And to do that we must determine how closely we should
scrutinize that court’s work.
Reciting the standard of review in an appellate
opinion is often a rote exercise. Not here. Recognizing
that the appeal’s outcome largely turns on this question,
the parties have spent considerable energy contesting
whether we owe deference to certain district court rulings.
Maghreb insists that we should review all aspects of the
district court’s denial of recognition de novo, likening the
inquiry to a review for legal sufficiency. DeJoria counters
that we should review the court’s factual findings only for
clear error.
Much of the confusion surrounding the standard of
review arises from this case’s odd posture. The district
court did not rule on a motion for summary judgment or
conduct a bench trial, but instead resolved a “motion for
nonrecognition.” That motion is a creature of state law.12
12. It is not clear, then, how this type of motion found its way to
federal court. In federal court, the Federal Rules of Civil Procedure
should govern how the parties seek and resist recognition of the
judgment. See, e.g., Sw. Livestock and Trucking Co., Inc. v. Ramon,
169 F.3d 317, 321 & n.3 (5th Cir. 1999) (disposing of the recognition
issue on a federal motion for summary judgment). Neither party,

14a
Appendix A
Regardless of the styling of the motion on which the
district court ruled, however, our appellate standard of
review is governed by federal law, even in this diversity
case. See Goodner v. Hyundai Motor Co., Ltd., 650 F.3d
1034, 1040 (5th Cir. 2011); Tax Track Sys. Corp. v. New
Investor World, Inc., 478 F.3d 783, 789 (7th Cir. 2007);
Hershon v. Gibraltar Bldg. & Loan Ass’n, Inc., 864 F.2d
848, 852, 275 U.S. App. D.C. 26 (D.C. Cir. 1989).13
The prior panel explained that “[w]hether the
judgment debtor established that [a] non-recognition
provision[] applies is a question of law reviewed de novo.”
DeJoria, 804 F.3d at 379. We agree. But the panel had no
cause to determine the proper standard of review for the
factual findings that underpin the district court’s legal
decision. After all, the issues in that appeal—whether
the Moroccan system provides procedures compatible
with due process, whether Moroccan law provides a
mechanism to reciprocate recognition of Texas judgments,
and whether the Moroccan court had personal jurisdiction
over DeJoria—were all legal determinations. See Fed. R.
Civ. P. 44.1 (“The court’s determination [of foreign law]
must be treated as a ruling on a question of law.”); In re
DePuy Orthopaedics, Inc., Pinnacle Hip Implant Product
however, has objected to the use of state procedure in this federal
action, leaving this panel in somewhat uncharted territory.

13. If the Recognition Act demanded a particular standard of
review for “manifestly substantive” ends, that might be a different
story. See Gasperini v. Ctr. for Humanities, Inc., 518 U.S. 415, 429,
116 S. Ct. 2211, 135 L. Ed. 2d 659 (1996) (holding that state law
governs the trial court standard for determining whether a verdict
is excessive). It does not.

15a
Appendix A
Liability Litig., 888 F.3d 753, 778 (5th Cir. 2018) (“This
court reviews [the] district court’s exercise of personal
jurisdiction de novo.” (quotation omitted)).
But it is a venerable principle that a district court’s
factual findings are reversed only if clearly erroneous.
Fed. R. Civ. P. 52(a)(6) (standard for bench trials); see also
Steven Alan Childress & Martha S. Davis, 1 Federal
Standards of Review § 2.03[8] 2-32-33 (4th ed. 2010)
(explaining that “[m]any courts . . . have assumed that
[the] clearly erroneous rule applies to findings made on
motions in addition to trial findings”). Even when an
appellate court considers a legal question de novo, that
plenary power of review does not extend to subsidiary
factual findings. See Allstate Ins. Co. v. Abbott, 495 F.3d
151, 160 (5th Cir. 2007) (“[S]ubsidiary facts are reviewed
for clear error.”) (citing Maine v. Taylor, 477 U.S. 131,
144-45, 106 S. Ct. 2440, 91 L. Ed. 2d 110 (1986)). To take
just one example, jurisdiction is a legal question. But the
facts that underlie a jurisdictional determination are
still reviewed only for clear error. See, e.g., id.; DePuy
Orthopaedics, 888 F.3d at 778 (applying clear error review
to “underlying jurisdictional findings of fact” and de novo
review to ultimate personal jurisdiction holding (quotation
omitted)); Pederson v. La. State Univ., 213 F.3d 858, 869
(5th Cir. 2000) (“If the district court resolves any factual
disputes in making its jurisdictional findings,” those
resolutions are overturned only if “clearly erroneous.”
(quotation omitted)). The same must be true for factfinding
that underpins the legal conclusion of nonrecognition.

16a
Appendix A
Appellate court deference to district court factfinding
is grounded in concerns of both expertise and efficiency.
Maghreb points out that one of the strongest justifications
for deference—the trial court’s ability to assess the
credibility of live testimony, Anderson v. City of Bessemer
City, 470 U.S. 564, 575, 105 S. Ct. 1504, 84 L. Ed. 2d 518
(1985)—is not present because the testimony of the foreign
witnesses was presented on paper. But we defer even
when the trial court’s findings are “based . . . on physical
or documentary evidence or inferences from other facts.”
Id. at 574. That is because “[t]he trial judge’s major role is
the determination of fact, and with experience in fulfilling
that role comes expertise.” Id. Clear error review also
promotes judicial efficiency. Id. at 574-75 (“Duplication
of the trial judge’s efforts in the court of appeals would
very likely contribute only negligibly to the accuracy of
fact determination at a huge cost in diversion of judicial
resources.”). District court judges, who do the lion’s share
of the work in our federal system, do not dig through
voluminous records only to have courts like this one
restart the factfinding from scratch. Instead of redoing
their work, we defer to their findings so long as they take
a permissible view of the evidence. Id. at 574.
Although the standard of review is a federal issue,
like the prior panel we “look to Texas law” governing
recognition to see if anything counsels in a different
direction.14 DeJoria, 804 F.3d at 379. Nothing does. We see
14. As we have explained, the proper standard of appellate
review is a question of federal law. We do not read this court’s 2015
opinion as out of step with that conclusion. It may be that the prior
panel looked to Texas law only to ascertain whether recognition was

17a
Appendix A
no Texas recognition case that conflicts with the principles
of federal appellate review outlined above. When a trial
court is presented with conflicting evidence in recognition
proceedings, Texas courts “defer to the trial court’s
. . . resolution of those conflicts.” Mariles v. Hector, No.
05-16-00814-CV, 2018 Tex. App. LEXIS 6106, 2018 WL
3723104 *6 (Tex. App.—Dallas Aug. 6, 2018, pet. denied).
Maghreb cites some Texas cases that explain what we have
acknowledged: that review of the district court’s ultimate
determination of the application of a nonrecognition
factor should be de novo. See, e.g., Sanchez v. Palau, 317
S.W.3d 780, 785 (Tex. App.—Houston [1st Dist.] 2010,
pet. denied) (“[W]e review de novo a trial court’s ruling
on recognition of a foreign country judgment.”); The
Courage Co., L.L.C. v. The Chemshare Corp., 93 S.W.3d
323, 331 (Tex. App.—Houston [14th Dist.] 2002, no pet.)

a legal or factual question. See Childress & Davis, supra § 2.03[7]
2-32 n.158 (noting that, despite application of federal standards of
review in diversity cases, “[u]se of state law-fact characterization
may be more defensible” as that question borders on the substantive).
But to the extent the prior panel’s opinion could be read to suggest
that state law controls the applicable standard of review in federal
court, it announced principles with respect to “the district court’s
recognition decision.” DeJoria, 804 F.3d at 379. Again, we answer
a different question—what level of scrutiny should we apply to the
findings of fact subsidiary to that ultimate legal conclusion? That
question, at least, is controlled by federal law.

In any event, we have perused Texas caselaw only out of an
abundance of caution. It is less useful this time around—no Texas
case has yet analyzed the new factbound nonrecognition factors
added by the updated act.

18a
Appendix A
(same).15 But they have pointed to no case that instructs a
court of appeals to start on a blank slate in determining
the facts. That is not surprising. Consistent with the
standard practice, Texas courts also generally defer to
trial court factfinding. In re I.I.G.T., 412 S.W.3d 803, 806
(Tex. App.—Dallas 2013, no pet.) (explaining that an
appellate court should not normally “disturb the [trial]
court’s resolution of evidentiary conflicts that turn on
. . . the weight of the evidence”). We thus can disturb the
district court’s findings only if they are not “plausible in
light of the record viewed in its entirety.” Anderson, 470
U.S. at 574.
B.
Maghreb’s primary argument on appeal—that
DeJoria lost his opportunity to complain about the
Moroccan proceedings because he failed to participate
in them—must overcome this deference to the district
15. Vary ing procedural postures and a lack of clarity
with respect to whether the standard of review depends on the
nonrecognition factor at issue further frustrate the search for
coherence on this question. See Ramon, 169 F.3d at 318 (analyzing
recognition decision on summary judgment, which is always reviewed
de novo); Banque Libanaise Pour Le Commerce v. Khreich, 915 F.2d
1000, 1004 (5th Cir. 1990) (reviewing for abuse of discretion a trial
court’s choice to apply a discretionary nonrecognition ground, like
the ground at issue in this case); Dart v. Balaam, 953 S.W.2d 478,
482-83 (Tex. App.—Fort Worth 1997, no pet.) (reviewing for abuse
of discretion the trial court’s determination whether Australia was
an inconvenient forum). The important point for this appeal is that
we have seen no appellate court in a recognition dispute engage in
de novo factfinding.

19a
Appendix A
court’s factfinding. Maghreb notes that we have “flatly
reject[ed]” the due process objections of judgment debtors
who were “given, and waived, the opportunity of making
[an] adequate presentation” in the foreign tribunal.
Society of Lloyd’s v. Turner, 303 F.3d 325, 331 n.20 (5th
Cir. 2002) (quotation omitted); see also Dart, 953 S.W.2d
at 480 (“Grounds for nonrecognition may be waived if a
party had the right to assert that ground as an objection
or defense in the foreign country but failed to do so.”).
But our limited authority when it comes to facts
makes short work of that argument. The district court
made three major findings to support nonrecognition: 1)
DeJoria’s fear for his safety should he return to Morocco
to litigate was credible and arose directly from his
involvement in the Moroccan lawsuit, 2) because DeJoria’s
position in the Moroccan lawsuit was directly adverse to
the interests of the royal family he was unable to retain
a lawyer to appear for him in the initial proceedings or
to bring an appeal, and 3) although the determination
of damages was based on expert opinion, the Moroccan
court manipulated that process when it went through
four experts before finding one that would deliver its
preferred recommendation. Taken together, the first
and second findings mean that DeJoria was never “given
. . . the opportunity of making [an] adequate presentation”
in Moroccan court and the third means his case did not
otherwise receive fair treatment. Turner, 303 F.3d at 331
n.20. So unless those findings were clearly erroneous,
Maghreb’s “waiver” argument fails.

20a
Appendix A
To be sure, Maghreb points to substantial evidence
that could support contrary findings. Its problem is that
there is evidence on both sides of these disputes. Even if
Maghreb can convince us that its evidence is stronger, that
is not enough to establish that the district court’s crediting
of DeJoria’s evidence is implausible. Theriot v. Par. of
Jefferson, 185 F.3d 477, 490 (5th Cir. 1999) (“Where the
evidence can support findings either way, a choice by the
trial judge between two permissible views of the weight
of the evidence is not clearly erroneous.”)
Take for instance the finding that DeJoria credibly
feared for his life and so was unable to attend the
Moroccan proceedings in person. Michael Gustin,
DeJoria’s business partner, described receiving a death
threat and explained that it was directed at both him
and DeJoria. DeJoria himself declared that Gustin
communicated that threat to him and that he believed it
was credible. And the record contains evidence that their
unsuccessful attempts to obtain representation in Morocco
may have only heightened their fear. A French attorney
with some Moroccan experience told them that it was not
only unsafe for DeJoria and Gustin to return to Morocco,
but it would be “unsafe and unwise for any lawyer” or
“any sane person,” for that matter, to participate in a
case that so closely touched the royal family’s interests.
Nearly a decade later, that attorney repeated his concerns.
The general counsel for Skidmore, DeJoria’s company
that spearheaded the Moroccan project, also says he was
told to stay out of the country by a Moroccan attorney
who had been hired to handle various clerical tasks as
the Moroccan lawsuit proceeded. She warned that “any

21a
Appendix A
appearance by Skidmore or any personal representative
of Skidmore in the Moroccan lawsuit would be dangerous.”
Of course, these assertions all come from individuals
who may have an axe to grind in this case. And we are
not told much about the circumstances or content of the
death threat because Gustin maintains that he “cannot
reveal [the] details . . . without compromising the safety
of innocent people still in Morocco.” Bias and lack of detail
are classic impeachment evidence. But impeachment
usually goes to the weight of the evidence. Arguing about
the weight of the evidence is not the terrain an appellant
wants to be on. See La Day v. Catalyst Tech., Inc., 302
F.3d 474, 480 (5th Cir. 2002) (noting that it is the factfinder
who “ultimately . . . decide[s] which side has the greater
weight of the evidence”).
Nor does Maghreb get over the clearly-erroneous
hurdle because it presented testimony that DeJoria could
have appeared and obtained counsel in the Moroccan
litigation. Choosing between conflicting testimony is the
province of the factfinder. See Anderson, 470 U.S. at 575
(concluding it “can virtually never be clear error” when a
trial court “credit[s] the testimony of one of two or more
witnesses, each of whom has told a coherent and facially
plausible story that is not contradicted by extrinsic
evidence”). And while Maghreb emphasizes the testimony
of its expert on Moroccan law, expert testimony does not
automatically trump lay testimony. Breland v. United
States, 372 F.2d 629, 633 (5th Cir. 1967) (“[L]ay testimony
can be sufficient to satisfy [a party’s] burden even though
there is expert testimony to the contrary.”); see also Fifth

22a
Appendix A
Circuit Pattern Jury Instructions 3.5 (Civil) (2014)
(explaining that, for expert witness testimony, “[a]s with
any other witness, it is up to [the factfinder] to decide
whether to rely on it”).
To undo factual determinations on appeal, Maghreb
must convince us not that it has the more compelling
evidence, but that the other side’s testimony is not
“plausible.” Anderson, 470 U.S. at 574. Maghreb’s
expert witness, a Moroccan attorney, contends that
DeJoria’s worries were “baseless and reflect[] his poor
understanding of Morocco.” And they also point to several
instances in which Moroccan courts have ruled against
royal interests. But that a trier of fact could plausibly
infer that the death threat was fabricated does not mean
it is implausible to find that the threat was real. Id. at 574.
The same may be said for the other two key findings.
For instance, although DeJoria was able to retain Moroccan
attorneys as experts in proceedings stateside after the
Moroccan trial court handed down its judgment, there was
evidence that two of his attempts to obtain representation
in the Moroccan proceedings were rebuffed. And though
there was no smoking gun, it was not clear error for the
district court to conclude that the Moroccan court went
fishing for an expert who would determine DeJoria and
his partner had caused Maghreb substantial damages.
After all, the expert who found those damages was the
fifth appointed by the Moroccan court—the first three
“concluded that they could not provide any firm opinion
on the matter” and the fourth was replaced for reasons
that remain unclear.

23a
Appendix A
Although the district court’s assessment of the
evidence may be subject to vigorous debate, it is the
district court’s job to resolve evidentiary disputes, not
ours. Guzman v. Hacienda Records & Recording Studio,
Inc., 808 F.3d 1031, 1036 (5th Cir. 2015) (explaining
that, even when “there are two permissible views of
the evidence,” the trial court’s choice between them is
typically owed “great deference”). Maghreb has not shown
clear error.16
C.
Perhaps realizing that its argument founders on
the district court’s difficult-to-undo findings, Maghreb’s
primary challenge to those findings is that they should not
have been made in the first place. Each of the pertinent
findings, it argues, was precluded by the prior panel’s
opinion.
Under the law-of-the-case doctrine—and its corollary,
the mandate rule—when a district court receives a case
on remand, it may not reexamine the legal or factual
determinations of this court or otherwise disobey our
16. It is worth noting that the three trial judges who handled
aspects of this case all generally found DeJoria’s evidence about
what happened in Morocco more persuasive than Maghreb’s. Three
trial judges have reviewed the case because this appeal comes from
findings of a magistrate judge, adopted by the district judge, and
the earlier appeal came from findings of a different district judge.
Although some of the findings in this phase of the case are new, they
rely on much of the same testimony the district court relied on the
first time around.

24a
Appendix A
mandate. See Tollett v. City of Kemah, 285 F.3d 357, 36364 (5th Cir. 2002). The reach of those related doctrines
extends only to matters decided expressly or by necessary
implication. In re Felt, 255 F.3d 220, 225 (5th Cir. 2001).
And an issue is tacitly decided only when its disposition
is a “necessary predicate[] to the ability to address the
issue or issues specifically discussed” in the appellate
court’s opinion. Id.
The prior panel’s opinion did not preclude the findings
the district court made on remand. First and foremost,
the prior appeal was decided under a different law. United
States v. Matthews, 312 F.3d 652, 657 (5th Cir. 2002)
(describing an exception to the law-of-the-case doctrine
when “there has been an intervening change of law by
a controlling authority”). That law did not require the
prior panel to determine whether DeJoria’s “specific
proceeding[s]” were “compatible with the requirements
of due process of law.” T ex . Civ. P rac. & Rem. Code
§ 36A.004(c)(8). So that panel had no cause to determine
whether DeJoria could in fact safely return to Morocco
or whether DeJoria could in fact retain representation.
In determining whether the Moroccan legal system made
fair proceedings impossible, whether Moroccan courts
would reciprocate recognition, and whether the Moroccan
commercial court had personal jurisdiction over DeJoria,
the prior panel’s analysis was focused on legal questions.
The fact-intensive inquiry demanded by Texas’s updated
Recognition Act put the case on a new playing field.
But even if the district court were operating in the
same legal landscape, nothing in the prior panel’s opinion

25a
Appendix A
forecloses the district court’s findings. The panel held
that the Moroccan court’s exercise of jurisdiction over
DeJoria did not violate traditional notions of “fair play and
substantial justice” because, despite any burden litigating
in Morocco might place on DeJoria, “Moroccan courts do
not require that the defendant appear personally, and
DeJoria could have litigated entirely through counsel
without returning to Morocco.” DeJoria, 804 F.3d at 389.
And, relying on testimony from a Moroccan attorney
acting as Maghreb’s expert, the court pointed out that
“it is ‘not at all uncommon’ for Moroccan attorneys to
represent unpopular figures in Moroccan courts.” Id. at
383. But these general statements about usual Moroccan
practices did not address whether DeJoria could have
found a willing attorney in Morocco in his high-profile
case.17 Nor does it avail Maghreb to draw our attention
to the previous panel’s aside that, “[a]lthough our inquiry
focuses on Morocco’s judicial system, we also observe
that the record does not establish that the King actually
exerted any improper influence on the Moroccan court in
this case.” Id. at 382 n.9 (emphasis in original). For one, the
comment is admittedly dicta—the footnote could have been
erased from the opinion without disrupting its systemwide
holding in the slightest. Pegues v. Morehouse Parish Sch.
Bd., 706 F.2d 735, 738 (5th Cir. 1983) (explaining that
law of the case does not apply to dicta). And in any case,
the question under the Texas statute is not whether the
King actively undermined the proceedings, but whether
17. And nothing in the prior panel’s opinion foreclosed the
district court’s finding that DeJoria could not safely return to
Morocco. Indeed, the prior panel did not even mention the alleged
threat on DeJoria’s life, let alone determine its credibility.

26a
Appendix A
DeJoria was afforded a fundamentally fair hearing. The
prior panel’s general observations did not foreclose the
more searching factual inquiry now required under Texas
law.18
D.
Our holding that the district court did not clearly
err in its factfinding nor adopt those findings in the face
of a contrary mandate from this court leaves us little
left to do. Maghreb does not dispute the nonrecognition
conclusion if we uphold the findings that DeJoria could
neither appear personally nor find a lawyer to appear for
him. That is a sensible stance. Recognition of a foreigncountry judgment does not require the foreign court
to “comply with the traditional rigors of American due
process.” Turner, 303 F.3d at 330. But the opportunity to
present one’s case is no minor twist or turn of modern due
process jurisprudence: “The fundamental requirement of
due process is the opportunity to be heard at a meaningful
18. Maghreb also argues at some length about the propriety of
a host of other findings that the magistrate made by readopting the
findings made before the first appeal. For reasons similar to those
discussed above, we doubt there is much to Maghreb’s argument that
those readopted findings were barred by the law of the case. Nor do
we believe its argument that this court’s 2015 reversal rendered those
factual findings “null and void” holds much water. In many other
contexts, a district court will readopt its findings without fanfare
when an appeals court returns the case after locating a legal error.
See, e.g., Chemtech Royalty Assocs., L.P. v. United States, 823 F.3d
282, 287-88 (5th Cir. 2016); United States v. Ellis, 201 F. App’x 170
(4th Cir. 2006) (per curiam). But because we believe the new findings
made by the district court are sufficient to justify its nonrecognition
decision, we see no need to explore this issue further.

27a
Appendix A
time and in a meaningful manner.” Mathews v. Eldridge,
424 U.S. 319, 333, 96 S. Ct. 893, 47 L. Ed. 2d 18 (1976)
(quotation omitted). In light of the facts as found by the
district court, it properly determined that DeJoria was
denied due process in Morocco. The district court thus had
and properly exercised discretion to deny recognition to
the Moroccan judgment.19
***
So despite the seeming complexity of this case—royal
intrigue, a foreign proceeding, almost a billion dirhams at
stake—it ends up being resolved on one of the most basic
principles of appellate law: deference to the factfinder.
The judgment is AFFIRMED.

19. The parties also contest whether recognition should be
denied because the Moroccan judgment is repugnant to public
policy or because failing to do so would violate the Fourteenth
Amendment’s due process guarantee. Because we affirm the district
court’s nonrecognition decision on another ground, there is no need
to discuss those disputes.

28a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE WESTERN
DISTRICT OF TEXAS, AUSTIN DIVISION,
FILED MARCH 28, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
1:13-CV-654-RP
JOHN PAUL DEJORIA,
Plaintiff, Counterclaim Defendant,
v.
MAGHREB PETROLEUM EXPLORATION, S.A.,
and MIDEAST FUND FOR MOROCCO LIMITED,
Defendants, Counterclaim Plaintiffs.
ORDER ON REPORT AND RECOMMENDATION
Before the Court is John Paul DeJoria’s Motion for
Non-Recognition, (Dkt. 128). The motion was referred to
United States Magistrate Judge Andrew W. Austin for
findings and recommendations pursuant to 28 U.S.C. §
636(b), Federal Rule of Civil Procedure 72, and Rule 1(d)
of Appendix C of the Local Rules of the United States
District Court for the Western District of Texas. The
Magistrate Judge entered his report and recommendation
on February 26, 2018, (Dkt. 136), recommending that

29a
Appendix B
this Court grant DeJoria’s motion. Maghreb Petroleum
Exploration, S.A. (“MPE”) and Mideast Fund for Morocco
Limited (“MFM”) (together, “MPE/MFM”) timely filed
objections to the report and recommendation. MPE/MFM
are therefore entitled to de novo review of the portions
of the report and recommendation to which they have
objected. See 28 U.S.C. § 636(b)(1)(C) (“A judge of the court
shall make a de novo determination of those portions of
the report or specified findings or recommendations to
which objection is made.”).
In light of the objections, the Court has undertaken a
de novo review of the briefs filed concerning the motion.
MPE/MFM’s objections raise only one any additional
argument that has not already been considered by Judge
Austin in his report and recommendation: that Judge
Austin erred in finding that the parties had agreed to
make their arguments based on the record as it stood,
declining to consider MPE/MFM’s attempt to supplement
the record without seeking leave to do so, and finding
that consideration of that additional material would
not have changed the outcome anyway. (Obj., Dkt. 138,
at 27). Having reviewed the portion of the report and
recommendation related to the finding and the transcript
of the hearing upon which this finding was based, the
Court agrees with Judge Austin’s conclusion.
The Court, having thoroughly reviewed the rest
of the Magistrate Judge’s comprehensive findings and
conclusions and finding no error, will accept and adopt the
report and recommendation for the reasons stated therein.

30a
Appendix B
IT IS THEREFORE ORDERED that MPE/
MFM’s Objections to the Report and Recommendation
of the United States Magistrate Judge, (Dkt. 137), are
OVERRURLED.
IT IS FURTHER ORDERED that the Report and
Recommendation of the United States Magistrate Judge,
(Dkt. 136), is hereby ACCEPTED AND ADOPTED by the
Court. John Paul DeJoria’s Motion for Non-Recognition
under § 36A.004(c)(8) of the Texas Uniform ForeignCountry Money Judgments Recognition Act, (Dkt. 128),
is GRANTED.
SIGNED on March 28, 2018.
/s/ Robert Pitman
ROBERT PITMAN
UNITED STATES DISTRICT
JUDGE

31a
Appendix
C
Appendix
c — report
and
recommendation of the united states
district court for the western
district of texas, austin division,
filed february 26, 2018

IN THE United States District Court
for the Western District of Texas
Austin Division
A-13-CV-654-RP-AWA
JOHN PAUL DEJORIA
v.
MAGHREB PETROLEUM EXPLORATION, S.A.
and MIDEAST FUND FOR MOROCCO LIMITED
February 26, 2018, Decided
February 26, 2018, Filed
REPORT AND RECOMMENDATION OF THE
UNITED STATES MAGISTRATE JUDGE
TO:

T H E HONORA BL E ROBERT PI T M A N
UNITED STATES DISTRICT JUDGE

Before the Court are: John Paul DeJoria’s Motion
For Non-Recognition (Dkt. No. 128); MPE’s and MFM’s
Response to DeJoria’s Motion for Non-Recognition (Dkt.
No. 129); Reply in Support of John Paul DeJoria’s Motion

32a
Appendix C
for Non-Recognition (Dkt. No. 130); MPE/MFM’s Surreply (Dkt. No. 133);1 and Brief of the State of Texas as
Amicus Curiae in Support of Counterclaim Defendant
John Paul DeJoria (Dkt. No. 135).
The District Court referred the above-matter to
the undersigned Magistrate Judge for a report and
recommendation pursuant to 28 U.S.C. § 636(b) and Rule
1(c) of Appendix C of the Local Rules.
I. FACTUAL BACKGROUND
As summarized by the Court of Appeals for the Fifth
Circuit, the factual background of this case is as follows:
John Paul DeJoria (“DeJoria”) was a major
investor in an A merican company called
Skidmore Energy, Inc. (“Skidmore”), which
was engaged in oil exploration and technology
projects in Morocco. In pursuit of its goals,
Skidmore formed and capitalized a Moroccan
corporation, Lone Star Energy Corporation
(“Lone Star”) (now Maghreb Petroleum
Exploration, S.A., or “MPE”). Corporations
established under Moroccan law are required
to have a “local” shareholder. For Lone Star,
that local shareholder was Mediholding, S.A.,
owned by Prince Moulay Abdallah Alaoui,
1. The Court has reconsidered its previous ruling denying
MPE/MFM leave to file a sur-reply and now GRANTS the Motion
for Leave to File a Sur-Reply (Dkt. No. 133). Thus, the Court has
considered the arguments contained in the Sur-Reply.

33a
Appendix C
a first cousin of the Moroccan King, King
Mohammed VI.
In March 2000, Lone Star entered into an
“Investment Agreement” obligating it to invest
in hydrocarbon exploration in Morocco. King
Mohammed assured DeJoria that he would
line up additional investors for the project to
ensure adequate funding. Armadillo Holdings
(“Armadillo”) (now Mideast Fund for Morocco,
or “MFM”), a Liechtenstein-based company,
agreed to make significant investments in Lone
Star. In the negotiations leading up to this
agreement, Skidmore represented to Armadillo
that Skidmore previously invested $27.5 million
in Lone Star and that Lone Star’s market value
was roughly $175.75 million.
On August 20, 2000, King Mohammed gave
a nationally televised speech to announce the
discovery of “copious and high-quality oil” in
Morocco. Three days later, then-Moroccan
Minister of Energy Youssef Tahiri, accompanied
by DeJoria and DeJoria’s business partner
Michael Gustin, traveled to the site and held a
press conference claiming that the discovered
oil reserves would fulfill Morocco’s energy
needs for decades. Moroccans celebrated this
significant news, as the King’s announcement
was the only stimulus likely to revive Morocco’s
sluggish economy. The Moroccan stock market
soared.

34a
Appendix C
There was one major problem: the oil reserves
were not as plentiful as announced. The “rosy
picture” of Moroccan energy independence did
not materialize, damaging both the Moroccan
government’s credibility and Lone Star’s
viability. As a result, the business relationship
between MFM and Skidmore/DeJoria suffered.
Lone Star replaced DeJoria and Gustin on Lone
Star’s Board of Directors. DeJoria has not been
to Morocco since 2000 and claims that his life
would have been endangered had he returned.
Unhappy with the return on its initial investment
in Lone Star, MFM sued Skidmore, DeJoria,
Gustin, and a number of other Skidmore officers
in their individual capacities in Moroccan court.
MFM asserted that Skidmore fraudulently
induced its investment by misrepresenting
Skidmore’s actual investment in Lone Star.
MPE later joined as a plaintiff in the suit
and claimed that Skidmore’s fraudulent
misrepresentations deprived Lone Star of
necessary capital. In response, Skidmore filed
two quickly-dismissed lawsuits against MPE,
MFM, and other parties in the United States.
After nearly seven years of considering MPE
and MFM’s suit, the Moroccan court ruled
against DeJoria and Gustin but absolved five of
their co-defendants—including Skidmore—of
liability. The court entered judgment in favor
of MPE and MFM for approximately $122.9
million.

35a
Appendix C
Dejoria v. Maghreb Petroleum Exploration, S.A., 804
F.3d 373, 384 (5th Cir. 2015), cert. denied, 136 S.Ct. 2486,
195 L. Ed. 2d 822 (2016).
II. PROCEDURAL BACKGROUND
A. 	Original District Court Proceedings
After the Moroccan court entered the $122.9 million
judgment against DeJoria, he sued MPE and MFM in
Texas state court, challenging recognition of the judgment
under the previous version of Texas’s Uniform Foreign
Country Money-Judgment Recognition Act (hereinafter
the “1981 Texas Recognition Act”). 2 MPE/MFM removed
the action to federal district court based on diversity of
citizenship and the case was assigned to United States
District Judge James R. Nowlin. Dejoria then filed a
“Motion for Nonrecognition of Foreign Judgment” in the
District Court arguing that the Moroccan judgment should
not be recognized under the 1981 Texas Recognition Act
because: (1) the judgment was rendered under a system
that does not provide impartial tribunals or procedures
compatible with the requirements of due process of law;
(2) the Moroccan court lacked personal jurisdiction over
DeJoria; (3) the cause of action on which the judgment is
based is repugnant to the public policy of Texas; (4) the
court rendering the judgment is a seriously inconvenient
forum for the trial of the action; (5) Moroccan courts do not
recognize Texas judgments; (6) the judgment was not final
and conclusive; and (7) the judgment was not authenticated.
2. Act of May 15, 1981, 67th Leg., R.S., ch. 808, § 1 (codified
at Tex. Civ. Prac. & Rem. Code §§ 36.001, et seq.) (amended 2017;
current version at Tex. Civ. Prac. & Rem. Code § 36A.001, et seq.).

36a
Appendix C
The District Court began and ended its analysis
with DeJoria’s first argument, finding that the Moroccan
Judgment should not be recognized under § 36.005(a)(1)
of the 1981 Texas Recognition Act (“the judgment was
rendered under a system that does not provide impartial
tribunals or procedures compatible with the requirements
of due process of law”). DeJoria v. Maghreb Petroleum
Exploration, S.A., 38 F. Supp.3d 805 (W.D. Tex. 2014),
rev’d and remanded, 804 F.3d 373 (5th Cir. 2015). The
District Court found that Moroccan judges are not
independent and are susceptible to being pressured by
members of the Moroccan royal family, finding that
the Moroccan royal family’s commitment to
the sort of independent judiciary necessary to
uphold the rule of law has and continues to be
lacking in ways that raise serious questions
about whether any party that finds itself
involved in a legal dispute in which the royal
family has an apparent interest—be it economic
or political—in the outcome of the case could
ever receive a fair trial.
Id. at 812. Based on the evidence before it, the District
Court held that “DeJoria or some similarly situated party”
could not have received adequately fair procedures to
warrant enforcement of the Moroccan judgment. Id. at
818. The District Court concluded, “[a]bsent an act of
tremendous bravery by the judge, there is no conceivable
set of facts or circumstances in which DeJoria could have
prevailed in the underlying case. Such a proceeding is not,
was not, and can never be ‘fundamentally fair.’” Id.

37a
Appendix C
B. 	The Fifth Circuit’s Opinion
MPE/MFM appealed the District Court’s ruling to
the Court of Appeals for the Fifth Circuit, arguing that
the judgment should be reversed because DeJoria had
failed to meet his burden to prove that the entire Moroccan
judicial system does not meet due process standards as
required under § 36.005(a)(1) of the 1981 Texas Recognition
Act. The Fifth Circuit agreed and held that DeJoria had
failed to meet his heavy burden under § 36.005(a)(1) to
demonstrate that the Moroccan judicial system “as a
whole is so lacking in impartial tribunals or procedures
compatible with due process so as to justify routine nonrecognition of the foreign judgments.” Dejoria, 804 F.3d at
382. The Court found that ‘[t]he Moroccan judicial system
does not present an exceptional case of ‘serious injustice’
that renders the entire system fundamentally unfair and
incompatible with due process.”Id at 384. The Fifth Circuit
also rejected DeJoria’s alternative arguments that the
Moroccan court lacked personal jurisdiction over him, and
that Moroccan courts do not recognize Texas judgments.
Id. at 384-387. The Court did not address DeJoria’s public
policy and inconvenient forum claims, however, stating in a
footnote that those “arguments were not raised on appeal
and are thus waived.” Id. at 384 n.12. The Fifth Circuit
concluded its Opinion with the boilerplate directive: “For
the foregoing reasons the judgment of the district court is
REVERSED and this matter is REMANDED for further
proceedings consistent with this opinion.” Id. at 389. 3 On
3. The Fifth Circuit denied DeJoria’s Petition for Rehearing
and request to clarify its use of the word “waived” in footnote 12
regarding the public policy and inconvenient forum arguments.
Dkt. No. 63.

38a
Appendix C
June 20, 2016, the Supreme Court denied the petition for
writ of certiorari. Dkt. No. 84.
C. 	Proceedings after Remand
After remand, the case was referred to the undersigned.
The parties disagreed on the scope of the Court’s
authority on remand to consider DeJoria’s alternative
arguments for non-recognition. After a delay to await the
Supreme Court’s decision on DeJoria’s petition for writ of
certiorari, the undersigned concluded that DeJoria was
entitled to raise two alternative arguments that were not
addressed on the merits in either the trial court or the
Circuit, and on September 7, 2016, Judge Nowlin adopted
the undersigned’s recommendation on this issue. On
September 19, 2016, Judge Nowlin transferred the case
to United States District Judge Robert Pitman.
The Court then set a status conference to address the
logistics of disposing of the remaining issues, at which
DeJoria informed the Court that he wished to seek leave
to amend his complaint to add two new claims: (1) a defense
to enforcement of the Moroccan judgment based on the
Due Process Clause of the United States Constitution, and
(2) a counterclaim to enjoin recognition and enforcement
of the Moroccan judgment based on fraud. On November
30, 2016, the undersigned recommended that the District
Court grant the motion to leave to add a defense to
enforcement of the Moroccan judgment based on the Due
Process Clause, but deny the motion for leave to add a
counterclaim to enjoin recognition and enforcement of
the Moroccan judgment based on fraud. On February

39a
Appendix C
14, 2017, the District Court adopted the Report and
Recommendation. Dkt. No. 114.
On April 23, 2017, the undersigned ordered the Parties
to file briefing on DeJoria’s Motion for Non-Recognition
by July 31, 2017. Dkt. No. 121. 4 However, on June 1,
2017, the Texas Legislature repealed the 1981 Texas
Recognition Act and enacted an updated version of the
Act. See Uniform Foreign-Country Money Judgments
Recognition Act, Act of May 22, 2017, 85th Leg., R.S., ch.
390 (codified at Tex. Civ. Prac. & Rem. Code § 36A.001,
et seq.). Because the statute had a direct impact on issues
before the Court and the legislature made the statute
retroactive to pending cases, the Court extended the
Parties’ briefing deadlines in the case.
DeJoria argues in his Motion for Non-Recognition that
the Moroccan judgment should not be recognized because:
(1) the Moroccan judgment falls squarely within the
Amended Act’s provisions allowing non-recognition where
the particular foreign proceedings lacked due process or
where there is substantial doubt about the integrity of the
rendering court with respect to the judgment; (2) the Due
Process Clause of the United States Constitution prohibits
4. At this time, the issues were whether the Moroccan judgment
should not be recognized because: (1) the cause of action on which the
judgment is based is repugnant to the public policy of Texas under
§ 36.005(b)(3) of the 1981 Texas Recognition Act; (2) the Moroccan
court which rendered the judgment was a seriously inconvenient
forum for the trial of the case under § 36.005(b)(6) of the 1981 Texas
Recognition Act, or (3) recognition of the judgment would violate
DeJoria’s right to due process under the Fourteenth Amendment.

40a
Appendix C
enforcing the Moroccan judgment; and (3) the Moroccan
judgment is repugnant to Texas public policy.
In response, MPE/MFM argue that the Court should
recognize the Moroccan judgment against DeJoria
because (1) Judge Nowlin’s opinion is “null and void”
after the Fifth Circuit reversed it and DeJoria, therefore,
cannot satisfy his burden of proof by relying on it; (2)
DeJoria’s “integrity of the rendering court” and “specific
proceeding” challenges under §§ 36A.004(c)(7) & (c)(8)
fail as a matter of fact and law; (3) DeJoria’s failure to
participate in Morocco defeats his §§ 36A.004(c)(7) and (c)
(8) challenges; (4) DeJoria’s Due Process Clause challenge
duplicates his statutory challenges and fails as a matter of
fact and law; (5) the Moroccan judgment is consistent with
Texas and U.S. public policy and is based on substantial
evidence of DeJoria’s personal involvement, fraud, and
misconduct; and (6) retroactively applying the Amended
Act violates the Texas Constitution.
III. ANALYSIS
As noted, after the remand of this case by the
Fifth Circuit, the Texas Legislature repealed the 1981
Texas Recognition Act and replaced it with the updated
model statute produced by the National Conference
of Commissioners on Uniform State Laws. The bill’s
sponsor stated that the bill “updates the Act based on
the 2005 Uniform Foreign-Country Money Judgments
Recognition Act, ensuring that Texans enjoy due process
protection when defending against foreign country
judgments in Texas courts.” Bill Analysis, S.B. 944, 85th

41a
Appendix C
Leg., R.S. (March 21, 2017). The Amended Act retained
the prior statute’s grounds for non-recognition, including
the mandatory due process requirement, but adds the
following case-specific bases for non-recognition:
(7) the judgment was rendered in circumstances
that raise substantial doubt about the
integrity of the rendering court with respect
to the judgment;
(8) the specific proceeding in the foreign court
leading to the judgment was not compatible
with the requirements of due process of law.
Id. at §§ 36A.004(c)(7) & (8). In addition, the Amended
Act now permits non-recognition when “the judgment
or the cause of action on which the judgment is based is
repugnant to the public policy of this state or the United
States.” Id. at § 36A.004(c)(3). Each of these new grounds
for non-recognition are discretionary grounds. The new
amendments apply to all pending lawsuits, such as the
instant case, without regard to whether the suit was
commenced before or after the effective date of the Act
(June 1, 2017). Tex. Civ. Prac. & Rem. Code § 36A.004
historical note (West 2017 Supp.) [Act of May 22, 2017,
85th Leg., § 3 (S.B. 944)].
As was the case under the previous version, the party
resisting recognition of the foreign judgment—here
DeJoria—has the burden of establishing a ground for
nonrecognition exists. Amended Act at § 36A.004(d);
Diamond Offshore (Bermuda), Ltd. v. Haaksman, 355

42a
Appendix C
S.W.3d 842, 845 (Tex. App.—Houston [14th Dist.] 2011,
pet. denied) (“Unless the judgment debtor satisfies its
burden of proof by establishing one or more of the specific
grounds for nonrecognition, the court is required to
recognize the foreign judgment.”).
A. 	Does the Amended Act’s Retroactivity Clause
Violate the Texas Constitution?
Section 3 of the Amended Act provides: “This Act
applies to a pending suit in which the issue of recognition
of a foreign-country money judgment is or has been raised
without regard to whether the suit was commenced before,
on, or after the effective date [June 1, 2017] of this Act.”
Amended Act § 36A.004 historical note (West 2017 Supp.)
[Act of May 22, 2017, 85th Leg., § 3 (S.B. 944)]. MPE/MFM
argue that this section of the Amended Act violates the
Texas Constitution’s prohibition on retroactive laws.
1. 	Standard of Review
“ Texas cour ts afford state statutes a strong
presumption of constitutionality under the Texas
Constitution.” Miller v. Raytheon Co., 716 F.3d 138, 148
(5th Cir. 2013) (citing Walker v. Gutierrez, 111 S.W.3d
56, 66 (Tex. 2003)); see also, Robinson v. Crown Cork &
Seal Col., Inc., 335 S.W.3d 126, 146 (Tex. 2010). Therefore,
in addressing the constitutionality of a statute, courts
must “begin with a presumption that it is constitutional.”
Enron Corp. v. Spring Indep. Sch. Dist., 922 S.W.2d 931,
934 (Tex. 1996). “Courts presume that the Legislature
‘understands and correctly appreciates the needs of its

43a
Appendix C
own people, that its laws are directed to problems made
manifest by experience, and that its discriminations
are based upon adequate grounds.’” Id. (quoting Smith
v. Davis, 426 S.W.2d 827, 831 (Tex.1968)). The party
challenging the constitutionality of a statute bears the
burden of demonstrating that the enactment fails to meet
constitutional requirements. Enron Corp., 922 S.W.2d at
934 (Tex. 1996). Because of this strong presumption of
constitutionality, the Texas Supreme Court has invalidated
statues as prohibitively retroactive in only four cases —
all of which involved extensions of statutes of limitations.
See Robinson, 335 S.W.3d at 146 (citing cases).
2.

Article I, Section 16 of the Texas Constitution

The Texas Constitution provides that: “No bill of
attainder, ex post facto law, retroactive law, or any law
impairing the obligation of contracts, shall be made.”
Tex. Const. Art. I, § 16. The constitutional prohibition
on retroactive laws “protects the peoples’s reasonable,
settled expectations” and “protects against abuses of
legislative power.” Robinson, 335 S.W.3d at 139. The Texas
Supreme Court has defined a retroactive law as “a law
that acts on things which are past.” Subaru of Am., Inc.
v. David McDavid Nissan, Inc., 84 S.W.3d 212, 219 (Tex.
2002). “Mere retroactivity is not sufficient to invalidate
a statute. . . . Most statutes operate to change existing
conditions, and it is not every retroactive law that is
unconstitutional.” Robinson, 335 S.W.3d at 139 (quoting
Texas Water Rights Comm’n v. Wright, 464 S.W.2d
642, 648 (Tex. 1971)); see also, Union Carbide Corp. v.
Synatzske, 438 S.W.3d 39, 55 (Tex. 2014). While there is

44a
Appendix C
“[n]o bright-line test” for determining whether a statute is
unconstitutionally retroactive, the Texas Supreme Court
has directed courts to look at three factors: (1) the nature
and strength of the public interest served by the statute
as evidenced by the Legislature’s factual findings; (2) the
nature of the prior right impaired by the statute; and (3)
the extent of the impairment. Robinson, 335 S.W.3d at 145.
a. 	Public Interest Served by the Statute
In Robinson, the Texas Supreme Court stated that
“[t]here must be a compelling public interest to overcome
the heavy presumption against retroactive laws.”
Robinson, 335 S.W.3d at 146. The legislative record in this
case indicates that the Legislature enacted the Amended
Act after the Fifth Circuit’s decision in this case in order
to protect the due process protections for Texas citizens
involved in international business. The bill’s sponsor in
the Texas Senate explained the intent of the legislation:
A recent federal court decision called into
question whether the Texas Act protects
Texans’ individual due process rights by foreign
court systems. S.B. 944 updates the Act based
on the 2005 Uniform Foreign-Country Money
Judgments Recognition Act, ensuring that
Texans enjoy due process protection when
defending against foreign country judgments
in Texas courts.
According to the Uniform Law Commission, the
increase in international trade in the United

45a
Appendix C
States has also meant more litigation in foreign
judicial systems. This means more judgments to
be enforced from country to country. There is
strong need for uniformity between states with
respect to the law governing foreign country
money-judgments. There is also a strong public
policy need to make sure basic individual
protections and rights are recognized in any
foreign court system that attempts to use our
Texas courts to enforce their judgments on our
citizens and businesses.
Unfortunately, not all foreign court systems
honor basic individual and system due process
protections recognized by U.S. state courts
(such as the Texas state court system). The
provisions of S.B. 944 ensure that Texans’
individual due process rights continue to be
recognized by foreign judicial systems before
those foreign judgments are enforced by Texas
courts.
Bill Analysis, S.B. 944, 85th Leg., R.S. (March 21, 2017).
The stated purpose of the Amended Act is thus to greater
protect the due process rights of Texas citizens. Obviously,
protecting the due process rights of its citizens is a
compelling public interest. See Carey v. Piphus, 435 U.S.
247, 266, 98 S. Ct. 1042, 55 L. Ed. 2d 252 (1978) (“[T]he
right to procedural due process is “absolute.”); Boddie v.
Connecticut, 401 U.S. 371, 374, 91 S. Ct. 780, 28 L. Ed. 2d
113 (1971) (“At its core, the right to due process reflects
a fundamental value in our American constitutional
system.”).

46a
Appendix C
While MPE/MFM cannot dispute that the Amended
Act serves a compelling public interest, they argue that as
was the case in Robinson, the Amended Act was enacted
only to benefit DeJoria and no one else and thus it was
not in the public interest. But the facts in this case are
easily distinguishable from Robinson. There, Barbara and
John Robinson sued Crown Cork & Seal, the successor
to John’s former employer, alleging that John contracted
mesothelioma due to asbestos exposure. 335 S.W.3d 126.
After the lawsuit had proceeded to the discovery stage,
the Legislature enacted Chapter 149 of the Texas Civil
Practice and Remedies Code, which altered the choice of
law rules in successor-liability asbestos cases. Id. at 130.
The statute functioned to absolve Crown Cork & Seal of
liability for John’s mesothelioma and barred the Robinsons’
claims. Id. at 132-33. The trial court granted summary
judgment to Crown Cork & Seal based on Chapter
149’s limitation of liability. Id. at 133. The Robinsons
appealed, arguing that Chapter 149 was a retroactive
law in violation of the Texas Constitution. Id. Looking to
whether Chapter 149 served the public interest, the Texas
Supreme Court found that “the legislative record is fairly
clear that chapter149 was enacted to help only Crown and
no one else.” Id. at 149. The Court emphasized that “[t]he
Legislature made no findings to justify Chapter 149.” Id.
“The only public benefit achieved by the statute was the
reduction of Crown Cork & Seal’s liability due to asbestos
litigation—a benefit we declined to find sufficiently
compelling to overcome the presumption that retroactive
laws are unconstitutional.” Union Carbide, 438 S.W.3d 39
at 57. Under the second and third factors, the Court found
that the legislation significantly impacted a substantial

47a
Appendix C
interest the Robinsons had in a well-recognized common
law cause of action. Robinson, 335 S.W.3d at 149. Given
the minimal public interest served and the grave impact
on the Robinsons’ right to recover, the Court held that
Chapter 149 was unconstitutionally retroactive. Id. at 150.
In contrast to Robinson, the Legislature’s stated
purpose for adopting the Amended Act (as explained
above) was to better protect Texans’ due process rights
with regard to the enforcement of foreign judgments.
Unlike the case in Robinson, the Legislature did not
enact the legislation to abrogate a plaintiff’s common law
cause of action in order to benefit one corporate party. In
addition, the fact that DeJoria lobbied for the passage of
the Amended Act and may have directly benefitted from
that legislation does not mean that the Amended Act is
not in the public interest. By the express terms of the
statute, its application is not limited just to DeJoria and
instead provides due process protection to all similarly
situated parties.
b. 	Nature of the Rights and Extent of Their
Impairment by the Statute
Even if MPE/MFM could demonstrate that the
Amended Act was not in the public interest, the other two
Robinson factors clearly demonstrate that the Amended
Act does not violate the Texas Constitution. The second
and third prongs of the Robinson test consider “the nature
of the prior right impaired by the statute,” and “the extent
of the impairment.” Robinson, 335 S.W.3d at 145.

48a
Appendix C
MPE/MFM have failed to identify what prior right
was impaired by the Amended Act. Instead, MPE/MFM
argue that the “new Act changed the controlling law and
provided DeJoria with two new non-recognition grounds
in §§ (c)(7) and (c)(8) and altered the § (c)(3) policy ground.”
Dkt. No. 129 at 50. Unlike the case in Robinson where
the statute entirely extinguished the plaintiff’s common
law causes of action against the corporate defendant, the
Amended Act does not eliminate any of MPE/MFM’s
grounds for recognition of the foreign judgment in this
case. Instead, it simply provides additional grounds for
non-recognition. Statutes “that do not deprive the parties
of a substantive right . . . may be applied to cases pending
at the time of enactment.” Univ. of Texas Sw. Med. Ctr. at
Dallas v. Estate of Arancibia ex rel. Vasquez-Arancibia,
324 S.W.3d 544, 548 (Tex. 2010); see also, Robinson, 335
S.W.3d at 146. MPE/MFM have failed to demonstrate that
the Amended Act impaired any of their rights whatsoever.
Accordingly, the Court rejects MPE/MFM’s contention
that the Amended Act cannot be applied retroactively to
this case.
B. Amended Act
DeJoria devotes the majority of his briefing to
argue that the Court should not recognize the Moroccan
judgment based on § 36A.004(c)(8) of the Amended
Act, and the Court will do the same. That section is a
discretionary provision which provides that a court is not
required to recognize a foreign judgment if “the specific
proceeding in the foreign court leading to the judgment

49a
Appendix C
was not compatible with the requirements of due process
of law.” Amended Act at § 36A.004(c)(8). The Amended
Act does not define “due process of law.” However, the
Comments to the 2005 Uniform Act, which the Amended
Act was modeled on, explain that this subsection “allows
the forum court to deny recognition to the foreign-country
judgment if the court finds that the specific proceeding in
the foreign court was not compatible with the requirements
of fundamental fairness.” Unif. Foreign-Country Money
Judgments Recognition Act § 4 at comment 12 (emphasis
added). 5 In looking at the meaning of due process of law
as used in § 36.005(a)(1) of the 1981 Texas Recognition
Act, the Fifth Circuit stated “the statute requires only
the use of procedures compatible with the requirements
of due process” and that “the foreign proceedings need
not comply with the traditional rigors of American due
process to meet the requirements of enforceability under
the statute.” DeJoria, 804 F.3d at 380 (quoting Soc’y of
Lloyd’s v. Turner, 303 F.3d 325, 330 (5th Cir. 2002)). “That
5. As the comments to the 2005 Uniform Act explain: “While
the focus of subsection 4(b)(1) is on the foreign country’s judicial
system as a whole, the focus of subsection 4(c)(8) is on the particular
proceeding that resulted in the specific foreign-country judgment
under consideration. Thus, the difference is that between showing,
for example, that there has been such a breakdown of law and order
in the particular foreign country that judgments are rendered
on the basis of political decisions rather than the rule of law
throughout the judicial system versus a showing that for political
reasons the particular party against whom the foreign-country
judgment was entered was denied fundamental fairness in the
particular proceedings leading to the foreign-country judgment.”
Unif. Foreign-Country Money Judgments Recognition Act § 4 at
comment 12.

50a
Appendix C
is, the foreign judicial system must only be ‘fundamentally
fair’ and ‘not offend against basic fairness.’” Id. The
United States Supreme Court has repeatedly held that “[a]
fair trial in a fair tribunal is a basic requirement of due
process.” Caperton v. A.T. Massey Coal Co., 556 U.S. 868,
876, 129 S. Ct. 2252, 173 L. Ed. 2d 1208 (2009) (quoting
In re Murchison, 349 U.S. 133, 136, 75 S. Ct. 623, 99 L.
Ed. 942 (1955)). In the context of foreign judgments, the
Supreme Court has also noted that “[i]t must, however,
always be kept in mind that it is the paramount duty of
the court before which any suit is brought to see to it that
the parties have had a fair and impartial trial.” Guyot,
159 U.S. 113, 205, 16 S. Ct. 139, 40 L. Ed. 95 (1895); see
also, Bank Melli Iran v. Pahlavi, 58 F.3d 1406, 1410 (9th
Cir.) cert. denied, 516 U.S. 989, 116 S. Ct. 519, 133 L. Ed.
2d 42 (1995).6
1. 	The Record
DeJoria contends that, under the new statute, the facts
found by Judge Nowlin in the original proceedings make
it a foregone conclusion that DeJoria has demonstrated
the requirements of non-recognition under § 36A.004(c)
(8) of the Amended Act. In response, MPE/MFM open
their post-remand briefing by contending that “Judge
Nowlin’s opinion is null and void after the Fifth Circuit
reversed it, and DeJoria cannot satisfy his burden of proof
6. Although MPE/MFM emphasize that the foreign procedures
need not comply with “the traditional rigors of American due
process,” they do not dispute that due process of law under the
Amended Act would also require the right to a fair tribunal in the
individual case itself.

51a
Appendix C
by relying on it.” Dkt. No. 129 at 1. They further contend
that the Circuit already made the relevant findings, and
these findings are the law of the case and bind this Court
on remand.
The problem with MPE/MFM’s argument on this
issue is what they do not say. If the findings Judge Nowlin
originally made are “null and void,” are they suggesting
that completely new findings need to be made on remand?
If so, they do not say this directly. Or, are they contending
that no new findings are needed, because the Circuit’s
opinion already considered the record and made all of the
relevant findings? Though at times their brief reads as if
this is their position, the fact that MPE/MFM devote over
half of their briefing to a discussion of the facts seems to
belie this. At the end of the day, it is not at all clear what
MPE/MFM are arguing with regard to the factual record.
Given this state of affairs, it is important for the Court
to state precisely what its conclusions are on this point.
First, with regard to what the universe of evidence
before the court is, the parties agreed that the record
for this Court on remand would be the record that was
created before Judge Nowlin. At the status conference to
address the briefing and process on remand, the Court
specifically inquired whether there would be need for any
additional evidence, or whether the record created during
the proceedings before Judge Nowlin would remain the
record on remand:
THE COURT:

The—so do I take that, then, that
you don’t think there’s any need for

52a
Appendix C
any additional—anything to add to
the factual record. We’re fine with
the factual record that the Court
has.
MR. ENOCH:

Your Honor, we believe we are.
[for DeJoria]

Dkt. No. 105 at 6. For his part, Mr. Harrison (on behalf
of MPE/MFM) was less direct, id. at 7-10, but when
considered in full, his response also indicates that he
believed the record that existed would remain the record
on which the Court would make its findings on remand.
First, he suggested that there should be no more briefing,
as the two issues that originally remained to be decided
(before the change in the law) had already been briefed
prior to the appeal, and the Court could simply make its
decision on those briefs. (Those briefs, of course, were
based on the record created before Judge Nowlin.) Second,
when he summed up his position, he commented that, “On
remand, the Court looks at the record and decides.” Id.
at 8.
Despite this, and though they did not seek leave to
submit any additional evidence on remand, MPE/MFM
included a number of new exhibits with their briefing.
Some of the new material is simply legislative history
related to the Texas Legislature’s adoption of the
Amended Act. Dkt. Nos. 129-31 to 129-38. Some are filings
or transcripts from the Fifth Circuit proceedings in this
case. Dkt. Nos. 129-25 to 129-28; 129-54. These are all
things the Court can take judicial notice of, and are thus

53a
Appendix C
unremarkable. But some of the exhibits are news articles
and website information intended to demonstrate that
certain entities are owned by the Moroccan royal family,
as well as four judgments entered against those entities
in Moroccan courts. Dkt. Nos. 129-39 to 129-52; 129-55;
129-56; and 129-58. MPE/MFM did not seek leave of court
to supplement the record with these items, and do not
even acknowledge in their briefing that these materials
are not part of the record. As a result, the Court will not
consider them.7
2. 	The Impact of the Reversal
Though MPE/MFM are correct that the reversal of
a judgment nullifies that judgment, and makes it as if
that judgment had never been rendered, that point was
never in doubt. Rather the question is, when a trial court’s
judgment is reversed, and the case is remanded for further
proceedings, may the trial court re-adopt findings of fact
made in the judgment, and if so, in what circumstances?
And to state the precise question presented here, when the
reason the judgment was reversed is that the trial court
applied the wrong legal standard, what is the status of
7. Consideration of the material would not have changed the
outcome. These evidence merely shows is that in the years after the
judgment against DeJoria, Moroccan courts entered judgments
in four cases against entities in which the Moroccan royal family
owned an interest. As DeJoria notes, unlike his case, these were
run-of-the-mill commercial cases, with no political overtones, and
no issue of the King needing to “save face.” And the largest of the
judgments was approximately $750,000, while the judgment here
was for over $120 million.

54a
Appendix C
the previously-made fact findings? On direct appeal, the
Supreme Court has relied on findings of fact made by a
district court, despite finding that the court applied the
wrong legal standard, suggesting that such fact findings
maintain validity even when the trial court gets the law
wrong. See, e.g., Ford Motor Co. v. EEOC, 458 U.S. 219,
224 n.7, 102 S. Ct. 3057, 73 L. Ed. 2d 721 (1982); Goldfarb
v. Virginia State Bar, 421 U.S. 773, 783 n.10, 95 S. Ct.
2004, 44 L. Ed. 2d 572 (1975). This conclusion is consistent
with common sense, and, more importantly, with the law
of the case doctrine. That doctrine provides that “an issue
of law or fact decided on appeal may not be reexamined
either by the district court on remand or by the appellate
court on a subsequent appeal.” Tollett v. City of Kemah,
285 F.3d 357, 364 (5th Cir.), cert. denied, 537 U.S. 883,
123 S. Ct. 105, 154 L. Ed. 2d 141 (2002). When a case is
reversed because the wrong legal standard was applied,
in most instances the fact findings are “untouched” by
that ruling, because “the law of the case doctrine applies
only to issues that were actually decided, rather than all
questions in the case that might have been decided, but
were not.” Alpha/Omega Ins. Servs., Inc. v. Prudential
Ins. Co. of Am., 272 F.3d 276, 279 (5th Cir. 2001) (citation
omitted) (emphasis added). So “when a judgment has come
before us for review, and certain findings of fact were not
examined in, relied on, or otherwise necessary to our
decision in that appeal, law of the case does not prevent
the trial court on remand from reexamining those findings
. . . .” See Exxon Corp. v. United States, 931 F.2d 874, 878
(Fed. Cir. 1991).

55a
Appendix C
Notwithstanding MPE/MFM’s valiant attempts to
characterize the decision otherwise, in reversing Judge
Nowlin, the Fifth Circuit expressly concluded that he
applied the wrong legal standard, and, on that basis,
reversed his ruling. A simple review of both opinions
makes this clear. In his order, Judge Nowlin only
addressed one of DeJoria’s non-recognition arguments—
DeJoria’s argument under § 36.005(a)(1) of the 1981 Texas
Recognition Act. He began and ended his analysis with
this issue, and found that the Moroccan proceedings in
DeJoria’s case did not provide DeJoria with adequate due
process to warrant recognition of the judgment against
him under § 36.005(a)(1). DeJoria, 38 F. Supp.3d at 811.
Although Judge Nowlin at times discussed the lack of due
process in the Moroccan system as a whole, his focus was
on the political and economic bias that impacted DeJoria’s
specific case:
As a general matter, MPE/MFM’s suggestion
that the circumstances surrounding the case
do not warrant real concerns that the King or
royal family corrupted the judicial proceedings
is simply not credible. Id. at 815
***
[T]he likelihood that DeJoria could have or did
receive a fair hearing in which the outcome was
not pre-ordained is too minimal to permit the
Court to overlook the serious issues with both
the system and the application present in this
case. Id. at 817

56a
Appendix C
***
Additionally, the evidence plainly shows that
members of the royal family had a political
and economic interest in the outcome of the
underlying case. Id.
***
[T]here is no conceivable set of facts or
circumstances in which DeJoria could have
prevailed in the underlying case. Such a
proceeding is not, was not, and can never be
“fundamentally fair.” Id. at 818
***
On appeal, MPE/MFM argued that Judge Nowlin
“incorrectly evaluated the particular Morocco Court
judgment at issue rather than properly evaluating
whether ‘the judgment was rendered under a system
that does not provide impartial tribunals or procedures
compatible with the requirements of due process of law,’
as required under the [1981] Texas Recognition Act.’”
Dkt. No. 72-1 at 2 (emphasis original). MPE/MFM
further argued that Judge Nowlin ignored Fifth Circuit
precedent requiring courts to focus on whether the entire
country’s judicial system as a whole was incompatible with
due process and “erroneously applied a ‘retail approach’
to evaluate the ‘particular judgment’ at issue instead
of evaluating Morocco’s judicial ‘system’ in which the
judgment was rendered.” Id. at p. 20. The Fifth Circuit

57a
Appendix C
agreed and reversed Judge Nowlin. 8 In doing so, the
Circuit emphasized that a court’s focus under § 36.005(a)
(1) is on “the system as a whole:”
The court’s inquiry under Section 36.005(a)(1)
focuses on the fairness of the foreign judicial
system as a whole . . . . The plain language of
the Texas Recognition Act requires that the
foreign judgment be “rendered [only] under a
system that provides impartial tribunals and
procedures compatible with due process.”
DeJoria, 804 F.3d at 381 (emphasis original). The
Circuit concluded that, based on the record before it,
“we cannot agree that the Moroccan judicial system
lacks sufficient independence such that fair litigation in
Morocco is impossible” and that “any judgment rendered
by a Moroccan court is to be disregarded as a matter
of course.” Id. All throughout its opinion, the Circuit
emphasized the distinction between a system lacking
fundamental fairness and a single instance of a litigant
being denied fundamental fairness. Indeed, in the eight
pages of opinion discussing § 36.005(a)(1), the Circuit used
the word “system” no less than 36 times. Id. at 377-84.
And because its focus was “on the fairness of the foreign
judicial system as a whole,” the Circuit specifically noted
it would not “parse the particular judgment challenged.”
Id. at 381.
8. The Fifth Circuit also rejected two of DeJoria’s alternative
arguments (that the Moroccan court lacked personal jurisdiction over
him and that Moroccan courts do not recognize Texas judgments),
which had not been reached by Judge Nowlin, and which are not at
issue here.

58a
Appendix C
The Circuit has noted that “[w]hile we recognize
that ‘the law of the case’ doctrine comprehends things
decided by necessary implication as well as those decided
explicitly, it nevertheless applies only to issues that were
decided and does not include determination of all questions
which were within the issues of the case and which,
therefore, might have been decided.” Conkling v. Turner,
138 F.3d 577, 587 (5th Cir. 1998) (internal quotations and
citations omitted). It does not apply to dicta. 18 Charles
A lan Wright, A rthur R. Miller & Edward H. Cooper,
Federal Practice and Procedure § 4478 (2d ed. 2002).
The Fifth Circuit clearly stated that its inquiry under
§ 36.005(a)(1) focused only on “the fairness of the judicial
system as a whole.” DeJoria, 804 F.3d at 382. Any
discussion of whether the facts demonstrated something
more or less than this, therefore, was dicta. In Re Hearn,
376 F.3d 447, 453 (5th Cir. 2004) (relying on the Black’s
Law Dictionary ’s definition of dicta: “judicial comment
made during the course of delivering a judicial opinion,
but one that is unnecessary to the decision in the case
and therefore not precedential”). Thus, the Fifth Circuit’s
opinion contains no “law of the case” on whether “the
specific proceeding in the foreign court leading to the
judgment was not compatible with the requirements of
due process of law.” Indeed, because § 36A.004(c)(8) of the
Amended Act had yet to be enacted, and because the Fifth
Circuit expressly found that 1981 Texas Recognition Act
did not address due process at the case-specific level, the
Circuit never addressed the question the Amended Act
presents here. So unless the Circuit either expressly or
implicitly rejected Judge Nowlin’s findings, those findings
are alive and well, and may be re-adopted on remand.

59a
Appendix C
In apparent recognition of this, MPE/MFM also
contend that “the Fifth Circuit weighed the evidence and
disagreed with Judge Nowlin.” Dkt. No. 129 at 4. In doing
so, however, they grossly overstate the Circuit’s findings;
indeed, DeJoria’s characterization of the briefing is apt:
“MPE/MFM’s Response takes place in an alternate
reality.” Dkt. No. 130 at 1. Nowhere did the Circuit state
that Judge Nowlin’s factual findings were erroneous
or unsupported by the record; instead, they focused on
the legal standard applied, stated the correct standard,
and then found the facts were insufficient to meet that
standard. Regardless, to hear MPE/MFM tell it, the
Circuit rejected each and every one of Judge Nowlin’s
findings. A good example of MPE/MFM’s twisting of the
Circuit opinion is this statement:
• [The Circuit] [f ]ound unpersuasive DeJoria’s
“claim[] that his life would have been endangered
had he returned,” and held that “DeJoria could have
litigated entirely through counsel without returning
to Morocco.” Id. at 389.
Dkt. No. 129 at 6. Though only one page of the opinion is
cited here, the two quoted statements come from totally
different parts of the opinion. The first—that DeJoria
“claimed that his life would have been endangered had
he returned”—is in the very first pages of the opinion
where the Circuit is reciting the facts, and there is nothing
there suggesting that the Circuit found DeJoria’s claim
“unpersuasive.” 804 F.3d at 378. The second quotation—
that “DeJoria could have litigated entirely through counsel
without returning to Morocco”—is found 11 pages later,

60a
Appendix C
in the personal jurisdiction discussion, and is merely a
statement of law—that is, under Moroccan law a person
is not required to be personally present to defend a case,
and may appear solely through counsel. Again, there is
nothing in this portion of the opinion where the Circuit
challenges DeJoria’s claim that he would be endangered
if he traveled to Morocco. Thus, the cobbled-together
quotation disingenuously makes it appear as if the Circuit
reached a factual conclusion that it plainly did not. And,
to make matters worse, when the entire factual record on
this issue is reviewed, the evidence suggests the opposite
of what MPE/MFM claim.
MPE/MFM get closer on this point when they discuss
the Circuit’s statements in footnote nine of its opinion.
After its statement that “we cannot agree that the
Moroccan judicial system lacks sufficient independence
such that fair litigation in Morocco is impossible,” the
Circuit dropped the following footnote:
Although our inquiry focuses on Morocco’s
judicial system, we also observe that the record
does not establish that the King actually exerted
any improper influence on the Moroccan court
in this case. For example, the Moroccan court
(1) appointed experts, (2) took seven years to
reach a decision, (3) awarded a lesser judgment
than the expert recommended, and (4) absolved
five defendants—including DeJoria’s company
Skidmore—of liability.

61a
Appendix C
DeJoria, 804 F.3d at 382 n. 9.9 But even this statement
is plainly dicta and as discussed above, dicta is not the
law of the case. 18 Wright, Miller & Cooper at § 4478.
“The law of the case doctrine applies to an issue that
has actually been decided, not to statements made by
the court in passing, or stated as possible alternatives,
or dictum.” United States v. O’Keefe, 169 F.3d 281, 283
(5th Cir. 1999). The Fifth Circuit’s “observations” about
whether the King actually exerted improper influence
on the Moroccan court in this case were not pertinent to
the issue resolved on appeal—whether the system as a
whole was unfair—which is likely why that observation
was contained in a footnote. Because the Fifth Circuit
“would have arrived at the same conclusion without
the passing observation it made in footnote [9],” which
“could have been deleted without seriously impairing
the analytical foundations of the holding,” the footnote
is dicta and does not bind the Court on remand. Segura,
747 F.3d at 329. And again, because the appeal was not
focused on the matters mentioned in footnote nine, it is
not surprising that, while the four enumerated facts are
indisputably true, there were significant deficiencies in
the proceedings.

9. MPE/MFM also argue that the Fifth Circuit’s comment in
the background section of the opinion (“[a]fter nearly seven years
of considering MPE and MFM’s suit, the Moroccan court ruled
against DeJoria and Gustin but absolved five of their co-defendants—
including Skidmore—of liability”) somehow demonstrates that the
Fifth Circuit ruled that DeJoria’s specific proceedings did not violate
due process. This statement is not even dictum but rather a mere
recitation of the facts of the case.

62a
Appendix C
At the end of the day, the Fifth Circuit did not decide—
either explicitly or by necessary implication—that the
specific proceedings leading up to the Moroccan judgment
against DeJoria were compatible with the requirements of
due process of law. Thus, the law of the case doctrine does
not prevent the Court from reexamining the fact findings
that the Circuit left undisturbed, and, if appropriate,
adopting them again on remand.10
Which brings us to the final question on this point—
since there is not a legal barrier to the findings being readopted, should the Court do so? From a judicial efficiency
standpoint, it of course makes sense not to revisit each
10. The mandate rule—which is a corollary to the law of the
case doctrine—does not change the result. That rule “prohibits a
district court on remand from reexamining an issue of law or fact
previously decided on appeal and not resubmitted to the trial court
on remand.” United States v. Pineiro, 470 F.3d 200, 205 (5th Cir.
2006). “This prohibition covers issues decided both expressly and
by necessary implication, and reflects the jurisprudential policy that
once an issue is litigated and decided, ‘that should be the end of the
matter.’” Id. While a mandate controls “on all matters within its
scope . . . a district court on remand is free to pass upon any issue
which was not expressly or impliedly disposed of on appeal.” Newball
v. Offshore Logistics Int’l, 803 F.2d 821, 826 (5th Cir. 1986). The
Fifth Circuit’s mandate contained the general remand language:
“It is ordered and adjudged that the judgment of the District Court
is reversed, and the cause is remanded to the District Court for
further proceedings in accordance with the opinion of this Court.”
See Dkt. No. 63. “Such general language suggests that the appellate
court did not intend to decide a factual issue that was not within its
province. . . .” Chapman v. Nat’l Aeronautics & Space Admin., 736
F.2d 238, 242 (5th Cir.), cert. denied, 469 U.S. 1038, 105 S. Ct. 517,
83 L. Ed. 2d 406 (1984).

63a
Appendix C
and every factual finding made by Judge Nowlin. This
case has been pending for almost five years. Judge Nowlin
made the factual findings in this case after carefully
considering the evidence submitted by the parties in this
case. It would be a waste of judicial resources to reexamine
all of the evidence in the case yet again. “A trial court
could not operate if it were to yield to every request to
reconsider each of the multitude of rulings that may be
made between filing and judgment. . . . A presumption
against reconsideration makes sense.” 18 Wright, Miller
& Cooper at § 4478.1.
Similarly, the fact that the judge presiding over the
case has changed does not mean the findings should
change. Judge Politz explained the underlying principles
well in an unpublished opinion from 2000:
The “law of the case” doctrine is a common label
used to describe what is really four distinct
rules. Under each of its variations, the doctrine
counsels the courts to refrain from revisiting
issues that have been decided in the same case.
Such is the result of the “sound policy that
when an issue is once litigated and decided, that
should be the end of the matter.” The impact
given to the doctrine, however, depends on the
circumstances: in some cases it is discretionary,
in others it is mandatory.
When applied to decisions by judges on the same
district court without an intervening appeal,
the doctrine represents a rule of comity, not

64a
Appendix C
a limit on judicial power. Generally speaking,
“when a district judge has rendered a decision
in a case, and the case is later transferred
to another judge, the successor should not
ordinarily overrule the earlier decision.” But
unlike the doctrines of stare decisis and res
judicata, the law of the case doctrine does not
demand unwavering observance in this context.
It must give way “to the interests of justice and
economy when those interests are flouted by
rigid adherence to the rule.”
Williams v. Bexar County, 2000 U.S. App. LEXIS 39928,
2000 WL 1029171 (5th Cir. July 14, 2000) (footnotes and
citations omitted). Here, there are no “interests of justice”
or “economy” suggesting that the normal rule—that a
court should “refrain from revisiting issues that have been
decided in the same case”—should not apply here. Thus, it
would, absent good reason, be inappropriate for this judge
to reweigh the very same evidence that Judge Nowlin
already weighed, merely because MPE/MFM believe that
Judge Nowlin should have reached different conclusions,
and credited their evidence rather than DeJoria’s.
Based upon the foregoing, in deciding whether DeJoria
has carried his burden under the Amended Act, the Court
will rely upon facts found by Judge Nowlin, so long as
those were not rejected or questioned by the Circuit.
Further, because the new statute expressly adopted a
new standard, the Court has also reviewed the existing
record and made additional findings from that evidence
that are appropriate. “Absent contrary instructions, a

65a
Appendix C
remand for reconsideration leaves the precise manner of
reconsideration—whether on the existing record or with
additional testimony or other evidence—to the sound
discretion of the trial court.” State Indus., Inc. v. Mor-Flo
Indus., Inc., 948 F.2d 1573, 1577 (Fed. Cir. 1991).
3.

Judge Nowlin’s Findings

Judge Nowlin made the following findings relevant to
whether DeJoria received due process in the Moroccan
proceedings specific to him, and the Court adopts these
findings here:
[T]the Moroccan royal family’s commitment
to the sort of independent judiciary necessary
to uphold the rule of law has and continues to
be lacking in ways that raise serious questions
about whether any party that finds itself
involved in a legal dispute in which the royal
family has an apparent interest—be it economic
or political—in the outcome of the case could
ever receive a fair trial. DeJoria, 38 F. Supp.
3d at 812.
***
Together, the USAID report and the foreign
minister’s comments paint a picture of a
judicial system in which judges feel tremendous
pressure to render judgments that comply with
the wishes of the royal family and those closely
affiliated with it. Id. at 814.

66a
Appendix C
***
As a general matter, MPE/MFM’s suggestion
that the circumstances surrounding the case
do not warrant real concerns that the King or
royal family corrupted the judicial proceedings
is simply not credible. Id. at 815.
***
As for MPE/MFM’s suggestion that there is no
evidence that the King particularly cared about
DeJoria or his role in the Talsint oil project,
the evidence plainly suggests otherwise. On
Monday, January 27, 2007, “Le Journal,” a
Moroccan daily newspaper, ran a feature story
under the headline “The Talsint Oil Lie.” Citing a
letter sent by Skidmore Chairman (and DeJoria
partner) Michael Gustin to the King and other
top officials, the article “accused the King and
some officials of bribery and disinformation”
in regards to Skidmore’s exploration and
attempted production of oil in south eastern
Morocco in 2000. Neither the story nor the
paper would survive for very long. The next
day, Le Journal suddenly retracted the story,
stating (without any meaningful explanation)
that everything they had published was untrue.
The paper also announced—again without any
explanation—that it would voluntarily go out of
circulation for an undisclosed period of time.
Two days later, a sister publication reported

67a
Appendix C
that the author of the “offensive” Le Journal
article (who also served as Le Journal’s editorin-chief) and Le Journal’s publisher were both
compelled to appear at the Justice Center so
that they could be interrogated by criminal
prosecutors about their involvement with the
story. Id. (internal citations omitted)
***
Given the narrative power that [a] verdict
[against them] would undoubtedly have, MPE/
MFM’s suggestion that a man who cared enough
about maintaining his image to intimidate and
prosecute a whole paper into submission had
no interest in the outcome of a case which
could either re-enforce his favored image or,
alternatively, make him appear foolish if not
downright dishonest for having promised so
much oil during his now infamous speech simply
does not add up.
These facts would have been readily apparent
to any judge presiding over this case. Given
the King’s history of retaliation, not only
against judges who displease him but against
anyone who threatens his narrative relating
to his involvement in Talsint, the Court cannot
conceive of any set of circumstances in which
the presiding judge in the underlying case
would not have felt tremendous pressure to side
with MPE/MFM.

68a
Appendix C
***
The K ing ’s behav ior suggests a strong
preference that DeJoria be portrayed as
a fraudster who misled the King (since, if
DeJoria did not, the King appears dishonest,
incompetent, or both in retrospect). Whether
or not the King, Prince, or some other official
picked up the phone and ordered the judge to
find against DeJoria is, in some sense, beside
the point. Even if no such phone call was ever
made, the Court nevertheless cannot, in good
conscience, conclude that Morocco provided Mr.
DeJoria with adequate due process to warrant
enforcement in this country.
***
[T]he likelihood that DeJoria could have or did
receive a fair hearing in which the outcome was
not pre-ordained is too minimal to permit the
Court to overlook the serious issues with both
the system and the application present in this
case. Id. at 816-817.
***
Here, there is extensive evidence suggesting
that Morocco’s judiciary is dominated by the
royal family (through no fault of the judiciary,
which would prefer to be left alone to do its
job). Additionally, the evidence plainly shows

69a
Appendix C
that members of the royal family had a political
and economic interest in the outcome of the
underlying case. This is a deadly combination,
for the confluence of circumstances makes it
highly likely that the royal family impacted the
judicial oversight of a proceeding in which they
themselves had an interest. Id. at 817.
***
“[A] common sense reading of the evidence” in
this case unequivocally supports the conclusion
that John Paul DeJoria could not have expected
to obtain a fair hearing in Morocco had he
attempted to fight the charges against him.
While the evidence plainly suggests that
Morocco’s judges wish to obtain the freedom
from pressure necessary to impartially conduct
the business of the court system, the evidence
also reveals that any judge presiding over
DeJoria’s case would have had to ignore either
an explicit or implicit threat to his career—if
not to his safety and well-being—in order to
find against MPE/MFM. Absent an act of
tremendous bravery by the judge, there is
no conceivable set of facts or circumstances
in which DeJoria could have prevailed in the
underlying case. Such a proceeding is not, was
not, and can never be “fundamentally fair.” Id.
at 817-18.

70a
Appendix C
4.

Additional Factual Findings

In addition to Judge Nowlin’s factual findings, the
record in this case contains the following evidence showing
that DeJoria was denied due process in this case.
a. 	DeJoria’s Ability to Attend the Proceedings
DeJoria contends that he was unable to personally
appear at any of the court proceedings, as he had a
legitimate fear that either his safety or liberty would be at
risk had he traveled to Morocco once the dispute leading
to the lawsuit arose. MPE/MFM contend that DeJoria has
exaggerated the threat, and also suggest that the Fifth
Circuit has effectively rejected this argument. Dkt. No.
129 at 18-19. On the latter point, and as they do throughout
their brief, MPE/MFM have significantly overstated what
the Circuit opinion says. The section of the opinion they
quote from is addressing DeJoria’s personal jurisdiction
argument and DeJoria’s contacts with Morocco, and,
moreover, is looking at those contacts before the dispute
arose. It says nothing about whether the Fifth Circuit
found DeJoria’s concern for his safety credible. The only
record evidence that MPE/MFM offer to controvert
DeJoria’s claim comes from their retained expert’s
affidavit, dated in 2013—a dozen years after the relevant
events—in which he brushes off Gustin and DeJoria’s fear
as a simple “poor understanding of Morocco.” Dkt. No.
37-1 at ¶ 54. But it is clear that DeJoria was not basing
his fear on some sort of misunderstanding, but instead on
a specific death threat delivered to his business partner.
As Mr. Gustin explained:

71a
Appendix C
On May 22, 2001, after having received a death
threat in connection with Lone Star’s activities
in Morocco, at a meeting of Lone Star’s Board of
Directors, I resigned as Lone Star’s President/
CEO and Chairman as a result of the death
threat. I cannot reveal details of this threat
without compromising the safety of innocent
people still in Morocco. . . . I left the Board
meeting in progress in Rabat, Morocco for the
reason that I no longer felt secure as to my
personal safety if I remained in Morocco and/or
in my two executive positions with Lone Star. I
left Morocco on May 23, 2001, and I have never
been back to Morocco since that time.
Dkt. No. 30-19 at ¶ 7. He further explained that “I told
Mr. DeJoria that I understood the threat to be directed
at Mr. DeJoria, as well as at me, and that I believed it was
unsafe for either me or Mr. DeJoria to return to Morocco.”
Id. at ¶ 8. DeJoria testified that immediately following
the board meeting, Gustin informed him of the threat,
“and on many occasions thereafter, he related to me the
facts of the death threat and his concern for our personal
safety should either of us ever return to Morocco.” Dkt.
No. 30-11 at ¶ 6. DeJoria’s own understanding, from this
information, was that it would not be safe for him to attend
the court proceedings in Morocco. Id.
And though MPE/MFM’s paid expert belittled these
fears, third party attorneys who practiced or resided
in Morocco, and who addressed these issues during the
relevant time frame, found the fears credible. A French

72a
Appendix C
attorney, licensed to practice in Morocco, who was
approached in 2005 by Gustin on behalf of Skidmore to
represent them, advised that “[c]learly it is . . . unsafe for
Mr GUSTIN and Mr DEJORJA to go to Morocco in a case
involving his Highness Prince Moulay Abdellah Alaoui,
a first cousin of his Majesty King Mohammed VI, King
of Morocco, and his partners.” Dkt. No. 30-19 at 43. He
described the risks to their welfare as “unacceptable,”
and he did “not think it prudent, safe, or wise for any sane
person to go there for any reason concerning this case.”
Id. Further, a Norwegian attorney, licensed in France
and located in Paris, who had represented Skidmore
in a matter before the ICC Arbitration Court, assisted
Skidmore in 2007 in locating a Moroccan attorney to
review documents in the case. He testified that the
Moroccan attorney “repeatedly advised the defendant
parties not to enter Morocco,” and “pointedly advised and
warned on more than one occasion that any appearance
by Skidmore or any personal representative of Skidmore
in the Moroccan lawsuit would be dangerous.” Dkt. No.
42-10 at 3-4.11
Weighing all of this evidence, the Court concludes that
DeJoria’s fear of traveling to Morocco was credible, and
that the fear arose not from a general danger of traveling
11. This attorney—Amina Ben Brik—is a bit of an enigma, as
the record reflects that she may have actually represented MFM
in this very litigation at one time, though the Norwegian attorney
testified that he hired her on behalf of Skidmore for the limited
purpose of reviewing documents. About the only thing that is clear
about her role in this case is that her role is unclear. She is discussed
in more detail in the next section.

73a
Appendix C
in Morocco, but rather from this specific litigation, and
the political and other interests of the Moroccan royal
family in the litigation. Moreover, Mr. Kabbaj’s vague
after-the-fact discounting of those fears fails to counter
DeJoria’s evidence, and indeed, it does not even attempt
to directly rebut the far more specific evidence DeJoria
offers. Thus, the Court finds that in the circumstances
of this particular case, DeJoria was unable to personally
appear to defend himself and offer testimony to rebut the
claims made against him in the Moroccan lawsuit.
b. 	DeJoria’s Abiliy to Retain Counsel
The parties hotly contest whether the political nature
of DeJoria’s case, and the King’s political interest in the
underlying oil exploration project and in the case itself,
prevented DeJoria from being able to obtain legal counsel
in the Moroccan proceedings. The Circuit did not address
the issue specific to DeJoria, though it noted that one of
DeJoria’s co-defendant’s “did briefly retain Moroccan
attorney Azzedine Kettani until a conflict of interest
forced his withdrawal.” DeJoria, 804 F.3d at 383. It also
noted that MPE/MFM’s expert Mr. Kabbaj “opined that
it is ‘not at all uncommon’ for Moroccan attorneys to
represent unpopular figures in Moroccan courts.” Id. This
was, of course, a general statement, and said nothing about
whether DeJoria himself was able to find an attorney to
represent him in Morocco.12
12. MPE/MFM claim that the Fifth Circuit resolved this
issue completely, because the Circuit noted that under Moroccan
law, “DeJoria could have litigated entirely through counsel without
returning to Morocco.” Dkt. No. 129 at 15. As already noted in the

74a
Appendix C
A review of the record leads the Court to conclude that
DeJoria was in fact unable to retain counsel to represent
him, and again, this was due to the fact that he was a
defendant in a case that was of great political interest to
the King of Morocco, and his interests were adverse to
the King’s. First, the only testimony MPE/MFM offer
to directly address this point (again, from their retained
expert, Moroccan attorney Azeddine Kabbaj) does not
identify any Moroccan attorney that actually was willing
to represent DeJoria in the case. Kabbaj only makes
conclusory statements such as “it is not at all uncommon
for Moroccan attorneys to represent unpopular figures
in Moroccan courts.” And though he claims that “there
are many attorneys in Morocco who would have been
willing to represent DeJoria,” he notably fails to identify
a single one, nor does he even indicate that he would have
represented DeJoria had he been approached. DeJoria’s
evidence was more specific. DeJoria explained that Gustin
contacted Bernard Dessaix, a French attorney licensed
to practice in Morocco, about representing their interests
in the case. Dkt. No. 30-11 at ¶ 13. After “multiple phone
conferences and letters” Dessaix declined representation,
id., and explained the risks an attorney would face if
he or she represented Skidmore, DeJoria or the other
defendants in the case:

text, this comment was made in the section of the opinion discussing
personal jurisdiction, and is merely a statement of law—that is, under
Moroccan law a person is not required to be personally present to
defend a case, and he may appear solely through counsel. The Circuit
quite clearly did not find there were Moroccan attorneys willing to
represent DeJoria in this case.

75a
Appendix C
Clearly it is not only unsafe for Mr GUSTIN
and Mr DEJORJA to go to Morocco in a
case involving his Highness Prince Moulay
Abdellah Alaoui, a first cousin of his Majesty
King Mohammed VI, King of Morocco, and his
partners, but it is also unsafe and unwise for
any lawyer/barrister from any country to go
there and plead against his Highness Prince
Moulay Abdallah Alaoui and his partners to
argue that anyone descending from the Prophet
Mohammed did not keep his word.
The potential risks to one’s welfare are
unacceptable
Dkt. No. 30-19 at 43.
The record also reflects that in the early days of
Skidmore and DeJoria’s involvement in the Moroccan oil
exploration project, Gustin hired the Moroccan attorney
Azzedine Kettani to assist with “reviewing Lone Star’s
documents and forms of agreements.” Dkt. No. 30-19 at
¶ 10. MPE/MFM point to this to argue that Moroccan
attorneys were available to, and willing to work for,
DeJoria in the litigation. First, this work was done before
the dispute arose. And further, by the middle of 2001, after
the dispute arose, but before the lawsuit was filed, Mr.
Kettani withdrew from any future representation of Lone
Star or Skidmore because MFM had attempted to engage
another attorney in the firm—Nadia Kettani—who was
apparently unaware of the firm›s previous representation
of Skidmore. When the potential conflict came to light,

76a
Appendix C
Azzedine Kettani informed MFM that his firm could not
represent it as it already had an ongoing relationship with
Skidmore. Dkt. No. 37-20 at 6. MFM, through counsel,
demanded that Kettani withdraw from representing
Skidmore as well, and Kettani quickly relented. Id. at
4, 5.13 Thus, this firm—which MPE/MFM describe as
“Morocco’s largest independent law firm”—was no longer
available to represent DeJoria.
Next, there is the situation with the mysterious
Amina Ben Brik. MPE/MFM assert that Ms. Ben Brik
represented Skidmore in the Moroccan proceedings,
relying on two letters, written in Arabic, and translated
into English. The first letter purports to be a notice to
the court that she represented Skidmore, and requested
approval to copy documents from the file. Dkt. No. 37-23
at 2-4. The second letter, dated nearly a year later, is
more cryptic, and is addressed to the expert, and also
refers to her “client Skidmore Energy.” There is, however,
no evidence of what, other than send these letters, Ben
Brik did in the case, and, from the record as a whole, it
is less than clear who she was representing in the little
involvement she had. As DeJoria points out, the final
expert refers in his report to her being counsel for MPE.
Dkt. No. 37-22 at 5. And the Moroccan judgment lends
further confusion, suggesting Ben Brik represented both
MPE and Skidmore. Dkt. No. 6-2 at 13. The most clarity
13. DeJoria complains that this was an engineered conflict
of interest, intended to conflict out of the case the one Moroccan
attorney he could find to represent him. Though this may have been
true, there is not enough evidence in the record for the Court to
reach that conclusion.

77a
Appendix C
regarding her role comes from the Norwegian attorney
who appears to have retained her, on behalf of Skidmore
(not DeJoria), who testified that she was hired for the
limited purpose of trying to gain access to the court
file, and to observe proceedings. She was never hired to
represent Skidmore in any other capacity. Dkt. No. 4210 at 3. Further, the Norwegian attorney reported that
Ben Brik specifically warned that “any appearance by
Skidmore or any personal representative of Skidmore in
the Moroccan lawsuit would be dangerous,” which may
explain why the judges and experts in Morocco were never
quite clear on who her client was, as she herself may not
have wanted to make that clear. Id. at 4.
MPE/MFM also point to correspondence in the
file between Skidmore’s general counsel and Moroccan
attorney Hammadi Manni as evidence that Moroccan
attorneys were willing to represent Skidmore and the
defendants. Dkt. No. 129 at 17. But those letters suggest
nothing more than that Skidmore asked Manni to indicate
the terms on which he would represent Skidmore, and then
followed up in another letter indicating that it “look[ed]
forward to your reply.” Dkt. No. 37-23 at 9-14. The record
contains no other evidence regarding any communication
with Manni, and thus no indication that Manni ever
responded to the letters, or if so what he said. And the
record is clear that Manni never made an appearance
for Skidmore, so this evidence actually supports the
inference that Manni ultimately was not willing to appear
on Skidmore’s behalf.

78a
Appendix C
Finally, MPE/MFM note that the American law
firm Baker & McKenzie, which has an office in Morocco,
represented DeJoria in this case, and suggests from the
fact its Moroccan offices are still open and no attorneys
there have suffered reprisals, that the King must not be
too upset about this matter. But as DeJoria notes, this
does not prove that in 2002, when the case against DeJoria
was filed, and shortly after the death threat was delivered,
DeJoria could have retained a Moroccan attorney. Baker
& McKenzie opened its small Casablanca office in late
2012, more than two years after the judgment against
DeJoria was entered, and eleven years after DeJoria
needed Moroccan counsel. At best, the fact that Baker &
McKenzie—a firm with more than 5,000 attorneys in 44
countries, only two of whom are permanently resident in
the Casablanca office—was for a time part of the team
that has represented DeJoria in this proceeding, indicates
only that if any pressure was placed on Baker & McKenzie
to decline the representation here in the U.S., it was not
sufficient to lead to it to do so. Further, it is difficult to
know what to make of MPE/MFM’s new evidence showing
that Baker & McKenzie’s Paris and Casablanca offices
advised Societé Nacionale d’Investissement in a large
M&A transaction in 2016 (MPE/MFM describe SNI as a
multi-billion dollar company controlled by the Moroccan
royal family). While one inference that might be drawn
from this is that, at least in 2016, the King of Morocco was
not inclined to punish a law firm representing DeJoria
in this case, another inference might be that the King
and royal family are pragmatic, and in 2016, more than
15 years after the events underlying the dispute with
Skidmore and DeJoria, they found it worth their while to

79a
Appendix C
have Baker & McKenzie represent one of their companies
in a large international merger from which they stood to
benefit greatly, even though the royal family was upset
that the firm had also represented DeJoria in this case.
Whatever the case, the evidence simply does not show
anything about DeJoria’s ability to find an attorney willing
to represent him in Morocco when it mattered—in 2001
and the few years thereafter.
Again, weighing all the evidence before it, the Court
concludes that DeJoria was in fact unable to retain counsel
to represent him during the time the Moroccan case was
active, and again, this was due to the fact that he was a
defendant in a case that was of great political interest
to the King of Morocco, and his interests were adverse
to the King’s. In reaching this conclusion, the Court has
taken into account not only that which is set out above, but
also that numerous Moroccan attorneys warned DeJoria
or his partners of the personal risks they faced if they
returned to Morocco, and that an attorney could face if he
represented them, that DeJoria had substantial resources
with which to hire an attorney and yet nevertheless no
attorney made an appearance for him, and finally, that
direct evidence of the King’s feelings with regard to those
who took up DeJoria’s side of things was demonstrated
in his shutting down a newspaper that dared to suggest
that perhaps MPE/MFM’s narrative of the events with
Skidmore, et al. was incorrect (as Judge Nowlin detailed
in his findings).14
14. MPE/MFM argue that even if the underlying proceedings
suffered from all of these defects, DeJoria waived any complaint he
might have because he did not file an appeal, which would have led

80a
Appendix C
c. 	The Independence of the Experts
Lastly, the evidence in the record shows that the
Moroccan court was determined to award damages
against DeJoria, even when the very experts the court
retained advised otherwise. Specifically, the Moroccan
court record indicates that over the seven years that the
case remained pending, the court retained five experts
to advise the court on whether any damages had been
suffered as a result of the defendants’ allegedly wrongful
acts. After reciting in detail that experts were engaged
to “determine the value of the damages and losses that
may have been incurred by the Claimants as a result of
the Defendants’ actions,” the judgment notes that reports
were submitted by three experts—Saleh Al-Ghazouli,
Al-Saadiya Fatthi, and Mohamed Al-Karimi. Dkt. No.
6-2 at 11. These three experts, according to the judgment
“concluded that they could not provide any firm opinion on
the matter.” Id. at 13. So, rather than entering judgment
that the claimants take nothing, the court “ordered a
new assessment and assigned the task to expert Saad
Al-Omani.” Id. And what was this expert’s assessment?
We do not know, because the judgment states, without
to a de novo review of the case. The problem with this argument is
that it assumes DeJoria could have retained an attorney to file the
appeal, and participate in the de novo review. As already found,
that was not the case. So this is not like the cases MPE/MFM cite,
where the party who was contesting recognition of a judgment was
not prevented from participating in their appeal, but instead simply
chose to stop fighting in the foreign country, and to bring their fight
back to the U.S. Here, DeJoria was denied the ability to fight the
case in Morocco at trial or on appeal.

81a
Appendix C
explanation, that he was too was replaced, this time by
Ahmed A-Khardal, the fifth expert to be engaged by the
court. Khardal submitted his report on January 22, 2009,
and was the first of the experts to conclude that there were
damages incurred. This time, there was no dismissal of
the expert, and by the end of 2009, the Moroccan court
entered judgment against Gustin and DeJoria for 98% of
the damages Khardal recommended. Id.
MPE/MFM attempt to discount all of this, through
their retained expert Kabbaj, and American lawyer and
adjunct law professor Abed Awad. The majority of the
experts’ testimony on these issues does not address the
precise point before the Court, but instead discusses
non-controversial issues such as it being common for
legal systems like Morocco’s to retain experts for the
purposes for which the experts were retained in DeJoria’s
case. Further, their testimony discusses the procedural
protections parties have in Morocco with regard to
experts, such as the right to nominate or object to
experts. Such procedural protections were of little value
to DeJoria, however, given the Court’s conclusion that
DeJoria could not appear or retain counsel to represent
him in the case; regardless, they say nothing about
whether what happened in this case was fair. Further,
MPE/MFM not very subtly suggest that the first three
experts may have been dismissed because they failed
to do any work in the case, or failed to do it timely. Dkt.
No. 129 at 26 (quoting Kabbaj’s testimony that “[i]f the
expert does not turn in his report within the time frame
set by the commercial court judge or if the expert does not
accept the assignment, then the commercial court judge

82a
Appendix C
usually will appoint another expert and inform the parties
accordingly.”). But there is no need to speculate about why
the experts were dismissed, because the judgment says
what happened—the three experts “concluded that they
could not provide any firm opinion on the matter.” Dkt. No.
6-2 at 13. That is a gentle way of saying the three experts
could not recommend that any damages be awarded. And
MPE/MFM’s claim that the fourth expert was dismissed
because he was ill has no factual basis, other than the bald
statement contained in Awad’s affidavit that “at least one
of [the experts] became ill and was replaced.” Dkt. No.
37-2 at 18 ¶ 48(l). Awad offers no explanation of where
that information comes from. The judgment—which is
far more credible evidence—says only that after the first
three experts were unable to recommend any damages,
“the court ordered a new assessment and assigned the
task to expert Saad Al-Omani, who was subsequently
replaced by expert Ahmed A-Khardal.” Dkt. No. 6-2 at 13.
In isolation, this history may not be troubling. But
when taken in conjunction with the other evidence—the
King’s intense interest in the case, the death threat, the
recommendation of Moroccan attorneys that DeJoria stay
out of Morocco, the unwillingness of attorneys to represent
DeJoria, the closing of the newspaper that reported on the
energy project in a manner unfavorable to the King and
the threatening of the paper’s editor and publisher with
criminal charges—the sequence of events with regard to
the experts takes on far more significance, and is yet one
more piece of evidence leading the Court to conclude that
the specific proceedings in the Moroccan court leading
to the judgment against DeJoria were not compatible

83a
Appendix C
with due process. Thus, while MPE/MFM point to the
existence of experts, the seven-year tenure of the case,
the exoneration of the defunct corporate entities, and
the two percent reduction in the final expert’s damage
calculation as evidence that DeJoria received due process,
this would appear to be more spin than fact. Instead, the
number of experts engaged, and the length of time the
case was pending appears to be evidence of the difficulty
the commercial court judges had in coming up with a
colorable basis on which to impose liability on Gustin and
DeJoria, and the struggle they had finding an expert to
support an award of damages.
5. 	Conclusions
Based upon the findings made by Judge Nowlin, and
those made herein, the Court finds that DeJoria has
presented sufficient evidence to demonstrate that “the
specific proceeding in the foreign court leading to the
judgment was not compatible with the requirements of
due process of law.” Amended Act § 36A.004(c)(8). The
facts demonstrate that DeJoria was denied an impartial
tribunal because the royal family had a clear political
interest in the outcome of the underlying case which “was
not compatible with the requirements of due process of
law.” The Comments to the 2005 Uniform Act provide
that non-recognition will be satisfied by “a showing that
for political reasons the particular party against whom
the foreign-country judgment was entered was denied
fundamental fairness in the particular proceedings
leading to the foreign-country judgment.” § 4 cmt. ¶ 12
(emphasis added.) This is the situation in the case at bar.

84a
Appendix C
The failed oil exploration project was a significant political
embarrassment for the King. This in turn led to a death
threat being lodged against DeJoria and him having to
remain outside of Morocco, to him being unable to find an
attorney willing to represent him in the dispute, and thus
to MPE/MFM being completely unopposed in their suit.
Despite the lack of opposition, the court struggled to find
an expert who would certify the award of any damages,
but the Court doggedly persisted until such an expert
was located, and once located, awarded 98% of what he
recommended. The ability to appear, either in person or
through counsel, is a fundamental requirement of due
process, as is a fair tribunal that acts independently of
political influence. All of that was lacking here. Section (c)
(8) presents a discretionary ground for non-recognition,
and, as Judge Nowlin found in the initial proceedings,
the Court once again believes that the proper exercise of
its discretion in this case is to grant the motion for nonrecognition.15

15. DeJoria also requests non-recognition based on § 36A.004(c)
(7) of the Amended Act, which applies to cases that “raise substantial
doubt about the integrity of the rendering court with respect to the
judgment.” Given the findings regarding the pressures on Moroccan
judges in cases involving political issues impacting the King, as well
as the findings on there being musical chair experts, there may be
sufficient evidence to support a (c)(7) finding. But because the finding
under (c)(8) is stronger, and sufficient in its own right to support this
outcome, the Court will not reach that issue. Likewise, for the same
reason, the Court need not reach the public policy argument under (c)
(3), nor decide whether there is an independent Due Process right to
non-recognition, and if that argument is subsumed within the terms
of subsection (c)(8) of the Amended Act.

85a
Appendix C
IV. RECOMMENDATION
The undersigned RECOMMENDS that the District
Court GRANT John Paul DeJoria’s Motion For NonRecognition under § 36A.004(c)(8) of the Texas Uniform
Foreign-Country Money Judgments Recognition Act
(Dkt. No. 128).
V. WARNINGS
The parties may file objections to this Report
and Recommendation. A party filing objections must
specifically identify those findings or recommendations to
which objections are being made. The District Court need
not consider frivolous, conclusive, or general objections.
See Battle v. United States Parole Comm’n, 834 F.2d 419,
421 (5th Cir. 1987).
A party’s failure to file written objections to the
proposed findings and recommendations contained in this
Report within fourteen (14) days after the party is served
with a copy of the Report shall bar that party from de novo
review by the District Court of the proposed findings and
recommendations in the Report and, except upon grounds
of plain error, shall bar the party from appellate review
of unobjected-to proposed factual findings and legal
conclusions accepted by the District Court. 28 U.S.C.
§ 636(b)(1)(c); Thomas v. Arn, 474 U.S. 140, 150-53, 106
S. Ct. 466, 472-74, 88 L. Ed. 2d 435 (1985); Douglass v.
United Servs. Auto. Ass’n, 79 F.3d 1415, 1428-29 (5th Cir.
1996) (en banc).

86a
Appendix C
SIGNED this 26th day of February, 2018.
/s/ Andrew W. Austin
ANDREW W. AUSTIN
UNITED STATES MAGISTRATE
JUDGE

87a
A OF WRIT OF
Appendix d Appendix
— DENIAL
CERTIORARI of the united states
SUPREME COURT, DATED JUNE 20, 2016
SUPREME COURT OF THE UNITED STATES
Office of the Clerk
Washington, DC 20543-0001
June 20, 2016
Mr. Geoffrey L. Harrison
Susman Godfrey, LLP
1000 Louisiana, Suite 5100
Houston, TX 77002
Re: John Paul DeJoria
v. Maghreb Petroleum Exploration, S.A., et al.
No. 15-1033
Dear Mr. Harrison:
The Court today entered the following order in the
above-entitled case:
The petition for a writ of certiorari is denied.
Sincerely,
/s/				
Scott S. Harris, Clerk

88a
Appendixof
E rehEAring of
Appendix e — denial
the united states court of appeals
for the fifth circuit, filed
november 16, 2015
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 14-51022
JOHN PAUL DEJORIA,
Plaintiff-Appellee,
v.
MAGHREB PETROLEUM EXPLORATION, S.A.;
MIDEAST FUND FOR MOROCCO, LIMITED,
Defendants-Appellants.
Appeal from the United States District Court for the
Western District of Texas, Austin
ON PETITION FOR REHEARING AND
REHEARING EN BANC
(Opinion ___, 5 Cir., ___, ___, F.3d ___)
Before STEWART, Chief Judge, BARKSDALE, and
PRADO, Circuit Judges.
PER CURIAM:

89a
Appendix E
(x) The Petition for Rehearing is DENIED and no
member of this panel nor judge in regular active
service on the court having requested that the court
be polled on Rehearing En Banc, (Fed R. A pp. P. and
5th Cir. R. 35) the Petition for Rehearing En Banc is
also DENIED.
( ) The Petition for Rehearing is DENIED and the
court having been polled at the request of one of the
members of the court and a majority of the judges
who are in regular active service and not disqualified
not having voted in favor, (Fed R. A pp. P. and 5th Cir.
R. 35) the Petition for Rehearing En Banc is also
DENIED.
( ) A member of the court in active service having
requested a poll on the reconsideration of this cause en
banc, and a majority of the judges in active service and
not disqualified not having voted in favor, Rehearing
En Banc is DENIED.
ENTERED FOR THE COURT:
/s/							
UNITED STATES CIRCUIT JUDGE

90a
Appendix F — Appendix
opinionFof the united
states court of appeals FOR THE FIFTH
CIRCUIT, FILED SEPTEMBER 30, 2015
IN THE United States Court of Appeals
for the Fifth Circuit
No. 14-51022
JOHN PAUL DEJORIA,
Plaintiff-Appellee.
v.
MAGHREB PETROLEUM EXPLORATION, S.A.;
MIDEAST FUND FOR MOROCCO, LIMITED,
Defendants-Appellants
September 30, 2015, Filed
Appeal from the United States District Court
for the Western District of Texas
Before STEWART, Chief Judge, and BARKSDALE and
PRADO, Circuit Judges.
CARL E. STEWART, Chief Judge:
This appeal arises from the district court’s grant
of Plaintiff-Appellee’s motion for non-recognition of a
Moroccan judgment under Texas’s Uniform Foreign

91a
Appendix F
Country Money-Judgment Recognition Act (the “Texas
Recognition Act” or “Act”). The district court determined
that Morocco’s judicial system failed to provide impartial
tribunals and procedures compatible with due process
as required by the Texas Recognition Act and that the
Moroccan judgment was thus unenforceable domestically.
Because we conclude Plaintiff-Appellee has not met his
burden under the Act, we REVERSE.
I.
John Paul DeJoria (“DeJoria”) was a major investor
in an American company called Skidmore Energy, Inc.
(“Skidmore”), which was engaged in oil exploration
and technology projects in Morocco. In pursuit of its
goals, Skidmore formed and capitalized a Moroccan
corporation, Lone Star Energy Corporation (“Lone
Star”) (now Maghreb Petroleum Exploration, S.A., or
“MPE”). Corporations established under Moroccan law
are required to have a “local” shareholder. For Lone
Star, that local shareholder was Mediholding, S.A., owned
by Prince Moulay Abdallah Alaoui, a first cousin of the
Moroccan King, King Mohammed VI.
In March 2000, Lone Star entered into an “Investment
Agreement” obligating it to invest in hydrocarbon
exploration in Morocco. King Mohammed assured
DeJoria that he would line up additional investors for the
project to ensure adequate funding. Armadillo Holdings
(“A rmadillo”) (now Mideast Fund for Morocco, or
“MFM”), a Liechtenstein-based company, agreed to make
significant investments in Lone Star. In the negotiations

92a
Appendix F
leading up to this agreement, Skidmore represented
to Armadillo that Skidmore previously invested $27.5
million in Lone Star and that Lone Star’s market value
was roughly $175.75 million.
On August 20, 2000, K ing Mohammed gave a
nationally televised speech to announce the discovery
of “copious and high-quality oil” in Morocco. Three
days later, then-Moroccan Minister of Energy Youssef
Tahiri, accompanied by DeJoria and DeJoria’s business
partner Michael Gustin, traveled to the site and held
a press conference claiming that the discovered oil
reserves would fulfill Morocco’s energy needs for decades.
Moroccans celebrated this significant news, as the King’s
announcement was the only stimulus likely to revive
Morocco’s sluggish economy. The Moroccan stock market
soared.
There was one major problem: the oil reserves were not
as plentiful as announced. The “rosy picture” of Moroccan
energy independence did not materialize, damaging both
the Moroccan government’s credibility and Lone Star’s
viability. As a result, the business relationship between
MFM and Skidmore/DeJoria suffered. Lone Star replaced
DeJoria and Gustin on Lone Star’s Board of Directors.1
DeJoria has not been to Morocco since 2000 and claims
that his life would have been endangered had he returned.

1. DeJoria disputes that he was ever a director and asserts that
he was merely a “passive investor.”

93a
Appendix F
Unhappy with the return on its initial investment
in Lone Star, MFM sued Skidmore, DeJoria, Gustin,
and a number of other Skidmore officers in their
individual capacities in Moroccan court. MFM asserted
that Skidmore fraudulently induced its investment by
misrepresenting Skidmore’s actual investment in Lone
Star. MPE later joined as a plaintiff in the suit and claimed
that Skidmore’s fraudulent misrepresentations deprived
Lone Star of necessary capital. In response, Skidmore
filed two quickly-dismissed lawsuits against MPE, MFM,
and other parties in the United States.
After nearly seven years of considering MPE and
MFM’s suit, the Moroccan court ruled against DeJoria
and Gustin but absolved five of their co-defendants—
including Skidmore—of liability. The court entered
judgment in favor of MPE and MFM for approximately
$122.9 million.
DeJoria sued MPE and MFM in Texas state court,
challenging domestic recognition of the Moroccan
judgment under Sections 36.005(a)(1), (a)(2), (b)(3),
(b)(6), and (b)(7) of the Texas Recognition Act. MPE and
MFM removed the action to federal district court based
on diversity of citizenship. After reviewing the evidence
presented by the parties on the state of the Moroccan
judicial system and the royal interest in this particular
suit, the district court granted DeJoria’s motion for
non-recognition, concluding that DeJoria had not been
provided with procedures compatible with due process
as required under Section 36.005(a)(1) of the Act. The
district court did not address the remaining grounds for

94a
Appendix F
non-recognition that DeJoria asserted. MPE and MFM
timely appealed.
II.
Because federal jurisdiction in this case is based on
diversity of citizenship, we apply Texas law regarding
the recognition and enforcement of foreign judgments.
Banque Libanaise Pour Le Commerce v. Khreich, 915
F.2d 1000, 1003 (5th Cir. 1990) (citing Erie R.R. Co. v.
Tompkins, 304 U.S. 64, 58 S. Ct. 817, 82 L. Ed. 1188
(1938)). The enforcement of foreign judgments in Texas
is governed by the Texas Recognition Act. Tex. Civ. Prac.
& Rem. Code Ann. §§ 36.001-36.008 (West 2012).
A.
We first consider the standard of review applicable
to the district court’s recognition decision. This court
has previously applied both de novo review and abuse
of discretion to evaluate a district court’s recognition
decision. Compare Derr v. Swarek, 766 F.3d 430, 436
(5th Cir. 2014) (recognizing inconsistency but applying
abuse of discretion in Mississippi recognition case), with
Sw. Livestock & Trucking Co. v. Ramon, 169 F.3d 317,
321 (5th Cir. 1999) (applying de novo review under Texas
Recognition Act). In Derr, we looked to Mississippi law
in deciding that abuse of discretion review applied. 766
F.3d at 436 n.2. Thus, we similarly look to Texas law to
determine the applicable standard of review here. 2
2. At oral argument, DeJoria claimed that the district court
proceedings “most closely resembled a bench trial on documentary

95a
Appendix F
The Texas Recognition Act establishes three
mandatory grounds and seven discretionary grounds
for non-recognition of a foreign judgment. See Beluga
Chartering B.V. v. Timber S.A., 294 S.W.3d 300, 304 (Tex.
App.—Houston [14th Dist.] 2009). Whether the judgment
debtor established that one of these non-recognition
provisions applies is a question of law reviewed de novo. 3
Reading & Bates Constr. Co. v. Baker Energy Res.
Corp., 976 S.W.2d 702, 708 (Tex. App.—Houston [1st
Dist.] 1998); see also Presley v. N.V. Masureel Veredeling,
370 S.W.3d 425, 432 (Tex. App.—Houston [1st Dist.]
2012) (“A trial court’s enforcement of a foreign country
judgment presents a question of law, and, thus, we review
de novo a trial court’s recognition of a foreign country
judgment.”); Sanchez v. Palau, 317 S.W.3d 780, 785 (Tex.
evidence” and that the standard of review is thus clear error. We
disagree. The Texas Recognition Act specifically provides that a
“party filing [a] motion for nonrecognition shall include with the
motion all supporting affidavits, briefs, and other documentation”
and the “party opposing the motion must file any response, including
supporting affidavits, briefs, and other documentation.” Tex. Civ.
Prac. & Rem. Code Ann. § 36.0044(b), (c). Texas courts have not
treated this procedure as establishing a bench trial. See Presley
v. N.V. Masureel Veredeling, 370 S.W.3d 425, 431-32 (Tex. App.—
Houston [1st Dist.] 2012) (explaining Texas’s procedure for contesting
recognition of a foreign judgment and applying de novo review to
the trial court’s decision).

3. If the district court finds that one of the seven discretionary
grounds applies, it then makes a “secondary” decision regarding nonrecognition. See Soc’y of Lloyd’s v. Turner, 303 F.3d 325, 331 n.23
(5th Cir. 2002). The district court’s secondary discretionary decision
“can only be set aside upon a clear showing of abuse.” Khreich, 915
F.2d at 1004.

96a
Appendix F
App.—Houston [1st Dist.] 2010). Accordingly, we review
de novo the district court’s decision not to recognize the
foreign judgment.4
B.
In Texas, the recognition of foreign judgments is
governed by the Texas Recognition Act. Tex. Civ. Prac. &
Rem. Code Ann. §§ 36.001-36.008. Under the Act, unless
a ground for non-recognition applies, the judgment of a
foreign country is “conclusive between the parties” and
“enforceable in the same manner as a judgment of a sister
state that is entitled to full faith and credit.” Id. § 36.004.
The ten statutory grounds for non-recognition are the
only defenses available to a judgment debtor. 5 See Beluga
Chartering B.V., 294 S.W.3d at 304.
4. Nevertheless, applying an abuse of discretion standard
would not alter our decision here. As this court and Texas courts
have recognized, a mistake of law may be corrected regardless
of the standard of review applied. See Derr, 766 F.3d at 436 n.2
(“[L]ittle turns on whether we label review of this particular question
abuse of discretion or de novo, for an abuse of discretion standard
does not mean a mistake of law is beyond appellate correction.”
(quoting Ramon, 169 F.3d at 321 n.4)); Reading & Bates Constr.
Co., 976 S.W.2d at 708 (noting that trial court has “no ‘discretion’” to
improperly determine or to misapply law) (citing Walker v. Packer,
827 S.W.2d 833, 840 (Tex. 1992)).
5. Section 36.005(a) provides the mandatory grounds for nonrecognition: “(1) the judgment was rendered under a system that does
not provide impartial tribunals or procedures compatible with the
requirements of due process of law; (2) the foreign country court did
not have personal jurisdiction over the defendant; or (3) the foreign
country court did not have jurisdiction over the subject matter.” Tex.
Civ. Prac. & Rem. Code Ann. § 36.005(a).

97a
Appendix F
The party seeking to avoid recognition of a foreign
judgment has the burden of establishing one of these
statutory grounds for non-recognition. Presley, 370
S.W.3d at 432; see also Diamond Offshore (Bermuda),
Ltd. v. Haaksman, 355 S.W.3d 842, 845 (Tex. App.—
Houston [14th Dist.] 2011) (“Unless the judgment debtor
satisfies its burden of proof by establishing one or more
of the specific grounds for nonrecognition, the court is
required to recognize the foreign judgment.”). DeJoria
asserts, as mandatory grounds for non-recognition of the
Moroccan judgment, that the Moroccan judicial system
does not provide due process and that the Moroccan
court lacked personal jurisdiction. DeJoria also asserts,
as a discretionary ground for non-recognition, that the
Moroccan judgment should not be recognized because
Moroccan courts do not recognize Texas judgments.

Section 36.005(b) provides the discretionary grounds: “(1) the
defendant in the proceedings in the foreign country court did not
receive notice of the proceedings in sufficient time to defend; (2) the
judgment was obtained by fraud; (3) the cause of action on which the
judgment is based is repugnant to the public policy of this state; (4)
the judgment conflicts with another final and conclusive judgment;
(5) the proceeding in the foreign country court was contrary to an
agreement between the parties under which the dispute in question
was to be settled otherwise than by proceedings in that court; (6) in
the case of jurisdiction based only on personal service, the foreign
country court was a seriously inconvenient forum for the trial of the
action; or (7) it is established that the foreign country in which the
judgment was rendered does not recognize judgments rendered in
this state that, but for the fact that they are rendered in this state,
conform to the definition of ‘foreign country judgment.’” Tex. Civ.
Prac. & Rem. Code Ann. § 36.005(b).

98a
Appendix F
C.
DeJoria contends that the Moroccan judgment is
unenforceable because the Moroccan judicial system
does not meet due process standards. Under the Texas
Recognition Act, a foreign judgment is not conclusive
and is thus unenforceable if “the judgment was rendered
under a system that does not provide impartial tribunals
or procedures compatible with the requirements of
due process of law.” Tex. Civ. Prac. & Rem. Code Ann.
§ 36.005(a)(1). “[T]he statute requires only the use of
procedures compatible with the requirements of due
process[. T]he foreign proceedings need not comply with
the traditional rigors of American due process to meet the
requirements of enforceability under the statute.” Soc’y
of Lloyd’s v. Turner, 303 F.3d 325, 330 (5th Cir. 2002)
(internal quotations omitted). That is, the foreign judicial
system must only be “fundamentally fair” and “not offend
against basic fairness.” Id. (internal quotations omitted);
see also Ingersoll Milling Mach. Co. v. Granger, 833 F.2d
680, 688 (7th Cir. 1987) (evaluating a similar provision of
the Illinois Recognition Act and noting that “the issue is
only the basic fairness of the foreign procedures”). This
concept sets a high bar for non-recognition. See Turner,
303 F.3d at 330 n.16 (“A case of serious injustice must be
involved.”) (quoting Uniform Foreign Money-Judgments
Recognition Act § 4 cmt., U.L.A. (1986)).
The court’s inquiry under Section 36.005(a)(1) focuses
on the fairness of the foreign judicial system as a whole,
and we do not parse the particular judgment challenged.
See Turner, 303 F.3d at 330. The plain language of

99a
Appendix F
the Texas Recognition Act requires that the foreign
judgment be “rendered [only] under a system that provides
impartial tribunals and procedures compatible with due
process.” Id. (internal quotations omitted); see also Soc’y
of Lloyd’s v. Ashenden, 233 F.3d 473, 477-78 (7th Cir.
2000) (emphasizing that a similar provision of the Illinois
Recognition Act does not allow the reviewing court to
evaluate “particular judgments”). Accordingly, we now
consider whether Morocco’s judicial system as a whole is
“fundamentally fair” and inoffensive to basic notions of
fairness.
To justify non-recognition of the Moroccan judgment,
DeJoria argues that Morocco’s judiciary is made up
of judges beholden to the King and therefore lacks
independence. Under the Moroccan Constitution, Morocco
is an executive monarchy headed by a King who serves
as the supreme leader. As described in a 2003 World
Bank publication (the “World Bank Report”), the King
has the final authority over the appointment of judges.
A United States Agency for International Development
report (the “USAID Report”)6 observes that the Moroccan
judicial system is “permeable to political influence” and
that judges are “vulnerable to political retribution.”
State Department Country Reports also question the
independence of the Moroccan judiciary. For example,
the 2009 State Department Country Report explains that
6. We note that the USAID Report was prepared by an
independent contractor and contains the following disclaimer: “The
views expressed in this publication do not necessarily reflect the
views of the United States Agency for International Development
or the United States Government.”

100a
Appendix F
“in practice the judiciary . . . was not fully independent
and was subject to influence, particularly in sensitive
cases.” Moroccan courts also battle a public perception
of ineffectiveness. In 2012, nearly 1,000 Moroccan judges
protested for “greater independence for the judiciary.”
Though this evidence led the district court to find that
Morocco’s judicial system was not compatible with the
requirements of due process, we conclude that it does not
present the entire picture.7
Azzedine Kabbaj, a Moroccan attorney who has been
practicing for thirty-five years, testified that Moroccan
judges must pass an admissions test and complete two
years of judge-specific training. Kabbaj noted that the
Moroccan system “places great emphasis” on providing
“actual notice” of lawsuits to defendants, allows for
numerous challenges to the appointments of experts,
and gives defendants a de novo appeal after an initial
judgment. Abed Awad, an adjunct professor at Rutgers
University School of Law, further explained that the
procedures followed in Moroccan commercial courts
resemble those followed in United States courts. 8 The
7. MPE and MFM contend the district court improperly
conducted outside Internet research on this issue. The district court
relied on the Seventh Circuit’s decision in Ashenden, concluding that
whether a foreign judicial system meets due process “is a question
about the law of a foreign nation” and that a court may thus consider
“any relevant material or source.” Ashenden, 233 F.3d at 477 (citing
Fed. R. Civ. P. 44.1). Because the district court’s outside research
does not influence our analysis, we need not decide whether Rule
44.1 actually applies.
8. While DeJoria described the testimony of Kabbaj and Awad
as “unsupported, conclusory opinions,” such expert testimony

101a
Appendix F
law firm of DeJoria’s expert advertised Morocco’s judicial
system as “adher[ing] to international standards.” The
same USAID Report cited by DeJoria notes that the
King’s government “has made judicial reform one of its
key objectives,” explains that the “rule of law” is a “critical
factor” in Morocco’s development, and observes that the
Moroccan government “is making strides” toward building
a state reliant on the rule of law. The USAID Report,
while acknowledging fundamental concerns about judicial
independence, concludes that the “Monarchy’s interest
in reforming the justice sector is a positive sign.” The
World Bank Report describes the advances in Morocco’s
judicial system as “indisputable” and recognizes Morocco’s
“enhanced drive toward an independent judiciary.”
Finally, the State Department has recognized that the
Moroccan government has implemented reforms intended
to increase judicial independence and impartiality.
The Texas Recognition Act does not require that the
foreign judicial system be perfect. Instead, a judgment
debtor must meet the high burden of showing that
the foreign judicial system as a whole is so lacking in
impartial tribunals or procedures compatible with due
process so as to justify routine non-recognition of the
foreign judgments. See Turner, 303 F.3d at 330. DeJoria
has not met this burden. Based on the evidence in the
is relevant in recognition proceedings. See Khreich, 915 F.2d at
1005-06 (using expert testimony to determine reciprocity under
the Texas Recognition Act); see also S.C. Chimexim S.A. v. Velco
Enters., Ltd., 36 F. Supp. 2d 206, 214 (S.D.N.Y. 1999) (relying on
expert testimony to evaluate due process under New York’s statute
governing enforcement of foreign judgments).

102a
Appendix F
record, we cannot agree that the Moroccan judicial system
lacks sufficient independence such that fair litigation in
Morocco is impossible.9 The due process requirement is not
“intended to bar the enforcement of all judgments of any
foreign legal system that does not conform its procedural
doctrines to the latest twist and turn of our courts.”
Ashenden, 233 F.3d at 476. Thus, the record here does
not establish that any judgment rendered by a Moroccan
court is to be disregarded as a matter of course.
Even under DeJoria’s characterization, the Moroccan
judicial system would still contrast sharply with the
judicial systems of foreign countries that have failed to
meet due process standards. For example, in Bank Melli
Iran v. Pahlavi, the Ninth Circuit refused to enforce an
Iranian judgment and concluded that the Iranian judicial
system did not comport with due process standards. 58
F.3d 1406, 1411-13 (9th Cir. 1995). The court relied on
official reports advising Americans against traveling to
Iran during the relevant time period and identifying Iran
as an official state sponsor of terror. Id. at 1411. Further,
the court noted that Iranian trials were private, politicized
proceedings, and recognized that the Iranian government
itself did not “believe in the independence of the judiciary.”
Id. at 1412. Judges were subject to continuing scrutiny
9. Although our inquiry focuses on Morocco’s judicial system,
we also observe that the record does not establish that the King
actually exerted any improper influence on the Moroccan court in
this case. For example, the Moroccan court (1) appointed experts, (2)
took seven years to reach a decision, (3) awarded a lesser judgment
than the expert recommended, and (4) absolved five defendants—
including DeJoria’s company Skidmore—of liability.

103a
Appendix F
and potential sanction and could not be expected to be
impartial to American citizens. Id. Further, “revolutionary
courts” had the power to usurp and overrule decisions of
the Iranian civil courts. Id. Attorneys were also warned
against “representing politically undesirable interests.”
Id. Based on this evidence, the court concluded that the
Iranian judicial system simply could not produce fair
proceedings. Id. at 1412-13; see also Harris Corp. v. Nat’l
Iranian Radio & Television, 691 F.2d 1344, 1357 (11th
Cir. 1982) (“[T]he Islamic regime now governing Iran
has shown a deep hostility toward the United States and
its citizens, thus making effective access to the Iranian
courts unlikely.”).
Similarly, in Bridgeway Corp. v. Citibank, the Second
Circuit declined to recognize a Liberian judgment
rendered during the Liberian Civil War. 201 F.3d 134, 144
(2d Cir. 2000). There, the court observed that, during the
relevant time period, “Liberia’s judicial system was in a
state of disarray and the provisions of the Constitution
concerning the judiciary were no longer followed.” Id.
at 138. Further, official State Department Country
Reports noted that the Liberian judicial system—already
marred by “corruption and incompetent handling of
cases”—completely “collapsed” following the outbreak of
fighting. Id. Because the court concluded that there was
“sufficiently powerful and uncontradicted documentary
evidence describing the chaos within the Liberian judicial
system during the period of interest,” it refused to enforce
the Liberian judgment. Id. at 141-42.

104a
Appendix F
Pahlavi and Bridgeway thus exemplify how a foreign
judicial system can be so fundamentally flawed as to offend
basic notions of fairness.10 Unlike the Iranian system in
Pahlavi, there is simply no indication that it would be
impossible for an American to receive due process or
impartial tribunals in Morocco. In further contrast with
Pahlavi, there is no record evidence of a demonstrable
anti-American sentiment in Morocco; in fact, American
law firms do business in Morocco.11 While the judgment
debtor in Pahlavi could not have retained representation
in Iran, Skidmore—a co-defendant in the Moroccan
case—did briefly retain Moroccan attorney Azzedine
Kettani until a conflict of interest forced his withdrawal.
One expert opined that it is “not at all uncommon” for
Moroccan attorneys to represent unpopular figures in
Moroccan courts. Bridgeway presents an even more stark
contrast. Morocco’s judicial system is not in a state of
complete collapse, and there is no evidence that Moroccan
courts or the Moroccan government routinely disregard
constitutional provisions or the rule of law. Because
Morocco’s judicial system is not in such a dire situation,
it does not present the unusual case of a foreign judicial
system that “offend[s] against basic fairness.” Turner, 303
F.3d at 330 (internal quotations omitted).
10. Though Pahlavi and Bridgeway involved California and
New York law, respectively, those states’ recognition statutes
each provided that a foreign judgment was not enforceable if “the
judgment was rendered under a judicial system that does not provide
impartial tribunals or procedures compatible with due process [of
law].” Pahlavi, 58 F.3d at 1410; Bridgeway, 201 F.3d at 137. These
provisions are nearly identical to the Texas provision at issue here.
11. For example, DeJoria’s law firm in this appeal, Baker &
McKenzie, has an office in Casablanca, Morocco.

105a
Appendix F
The Texas Recognition Act’s due process standard
requires only that the foreign proceedings be fundamentally
fair and inoffensive to “basic fairness.” Presley, 370 S.W.3d
at 434. This standard sets a high bar for non-recognition.
The Moroccan judicial system does not present an
exceptional case of “serious injustice” that renders the
entire system fundamentally unfair and incompatible with
due process. The district court thus erred in concluding
that non-recognition was justif ied under Section
36.005(a)(1) of the Texas Recognition Act.
D.
As alternative grounds for non-recognition, DeJoria
asserts that Morocco does not recognize judgments
rendered by Texas courts and that the Moroccan court
lacked personal jurisdiction.12 Although the district
court did not reach these arguments, its judgment may
be affirmed “on any grounds supported by the record.”
Sobranes Recovery Pool I, LLC v. Todd & Hughes Constr.
Corp., 509 F.3d 216, 221 (5th Cir. 2007) (quoting Sojourner
T v. Edwards, 974 F.2d 27, 30 (5th Cir. 1992)). Therefore,
we address these arguments in turn.

12. In the district court, DeJoria raised “public policy” and
“inconvenient forum” challenges to recognition of the Moroccan
judgment, both of which are discretionary grounds for nonrecognition under Section 36.005(b) of the Texas Recognition Act.
These arguments were not raised on appeal and are thus waived.
See United States v. Whitfield, 590 F.3d 325, 346 (5th Cir. 2009) (“[A]
party waives any argument that it fails to brief on appeal.”).

106a
Appendix F
1.
Under the Texas Recognition Act, a court may refuse
to enforce a foreign judgment if “it is established that
the foreign country in which the judgment was rendered
does not recognize judgments rendered in this state
that, but for the fact that they are rendered in this state,
conform to the definition of ‘foreign country judgment.’”
Tex. Civ. Prac. & Rem. Code Ann. § 36.005(b)(7). This
“reciprocity” ground for non-recognition is discretionary.
Beluga Chartering B.V., 294 S.W.3d at 304 & n.1. Even
if reciprocity is lacking, a reviewing court may still elect
to recognize the foreign judgment. See Royal Bank of
Canada v. Trentham Corp., 665 F.2d 515, 518-19 (5th Cir.
1981) (“Even though . . . the trial court [has] discretion
to recognize the judgment despite nonreciprocity by the
foreign forum, . . . the clear message . . . is that foreign
judgments which would not be reciprocally recognized if
made in Texas are not favored.”). The party seeking nonrecognition has the burden of establishing non-reciprocity.
Khreich, 915 F.2d at 1005; Presley, 370 S.W.3d at 432.
The central question is whether the foreign country
would enforce a Texas judgment “to the same extent”
that it would enforce a judgment rendered within its own
borders. Reading & Bates Constr. Co., 976 S.W.2d at 710.
In Khreich, we affirmed the district court’s refusal to
recognize an Abu Dhabi judgment for lack of reciprocity.
915 F.2d at 1006. There, the party seeking non-recognition
provided the affidavit of an American attorney practicing
in Abu Dhabi. Id. at 1005. This testimony provided that no
Abu Dhabi courts had previously enforced United States
judgments, that there had been no attempts to enforce

107a
Appendix F
United States judgments in Abu Dhabi courts, that Abu
Dhabi courts preferred to resolve disputes under local
law, and that it was doubtful that Abu Dhabi courts would
exercise their discretion to actually enforce an American
judgment. Id. at 1005-06. The only contrary testimony
offered was a translation of Abu Dhabi law relating to
recognition of foreign judgments. Id. We concluded that
this evidence was sufficient to find non-reciprocity. Id. at
1006.
DeJoria contends that his show ing on lack of
reciprocity is “at least as strong” as the showing we
found sufficient in Khreich. This argument, however,
fails to consider MPE and MFM’s rebuttal evidence. In
contrast with the minimal showing in Khreich, MPE and
MFM have identified the relevant statutory provisions
under Moroccan law and offered expert testimony that
Moroccan courts would recognize American judgments
and have routinely recognized other foreign judgments.
Thus, MPE and MFM have done more than merely point
to a “translation of [Moroccan] law” or simply identify
a relevant statutory provision. See Khreich, 915 F.2d at
1005-06; see also Karim v. Finch Shipping Co., 265 F.3d
258, 272 (5th Cir. 2001) (finding that, in the context of
determining foreign law, the party seeking recognition in
Khreich “did not call any expert witnesses” and provided
only “a copy of a statute and general materials”).
Further, Moroccan law specifically allows for the
recognition of foreign judgments.13 Article 430 of the
13. This court’s understanding of the content of the Morocco
Code of Civil Procedure is based on the undisputed evidence
presented to the district court.

108a
Appendix F
Morocco Code of Civil Procedure provides that, in order
to enforce a foreign judgment, a Moroccan court “shall
determine the judgment is genuine and that the foreign
court that issued the judgment had jurisdiction, and shall
verify that no part of the judgment violates Moroccan
public policy.” On its face, Article 430 seems to answer
the reciprocity question; however, DeJoria insists that
it is uncertain whether Article 430 would actually allow
recognition of a United States judgment. DeJoria’s expert,
Kettani, observed “that there is no certainty as to how
. . . the statutory criteria of ‘public order’ . . . would be
used in practice to deny enforcement.” Such speculation
is insufficient to justify non-enforcement. The statutory
criteria for non-enforcement under Article 430, lack of
jurisdiction and violation of public policy, are no different
than three of the grounds for non-recognition under the
Texas Recognition Act. See Tex. Civ. Prac. & Rem. Code
Ann. § 36.005(a)(2), (a)(3), (b)(3).
DeJor ia asser ts that MPE and MFM cannot
demonstrate reciprocity because “Morocco never has
[recognized a Texas judgment], and what it might do in
the future is sheer speculation.” The Texas Recognition
Act, however, gives the court discretion to not recognize
a judgment if “it is established that the foreign country
in which the judgment was rendered does not recognize
judgments rendered in [Texas] that, but for the fact that
they are rendered in [Texas], conform to the definition of
‘foreign country judgment.’” Tex. Civ. Prac. & Rem. Code
Ann. § 36.005(b)(7). The plain language of this provision
requires the judgment debtor to demonstrate that the
foreign country does not recognize Texas judgments

109a
Appendix F
because they were rendered in Texas. Therefore, MPE
and MFM are not required to prove that Morocco has
previously recognized Texas judgments. Instead, the
burden is on DeJoria to show that Morocco would not
recognize an otherwise enforceable foreign judgment
only because the judgment was rendered in Texas. See id.
36.005(b)(7); Khreich, 915 F.2d at 1005. DeJoria provides
no evidence that this is the case. Thus, the mere fact that
a Moroccan court has not previously recognized a Texas
judgment is insufficient to establish non-reciprocity.14
Finally, DeJoria argues that a Moroccan court would
not enforce an American judgment impinging on Moroccan
royal interests without looking into the merits of the case.
Even if a Moroccan court would look to the underlying
merits of a Texas judgment rendered under similar
circumstances, such an inquiry alone is not sufficient to
establish non-reciprocity. For example, though Belgium’s
recognition statute authorizes some inquiry into the
merits of the underlying foreign claim, American courts
14. In fact, courts have rejected non-reciprocity arguments
or chosen to recognize foreign judgments even where there was
no evidence of a foreign court previously recognizing an American
judgment. See, e.g., Tahan v. Hodgson, 662 F.2d 862, 868, 213 U.S.
App. D.C. 306 & n.25 (D.C. Cir. 1981) (noting that the presence of an
Israeli reciprocity statute, cases allowing other foreign judgments,
and economic cooperation between Israel and the United States was
sufficient to find reciprocity); McCord v. Jet Spray Int’l Corp., 874 F.
Supp. 436, 440 (D. Mass. 1994) (finding that Belgium law “officially
recognizes a cause of action based upon an American judgment”);
Reading & Bates Constr. Co., 976 S.W.2d at 710 (considering whether
Canada “would recognize and enforce a (hypothetical) Texas
judgment”).

110a
Appendix F
have still previously enforced Belgian judgments. See
Presley, 370 S.W.3d at 434 (enforcing Belgian judgment
under Texas Recognition Act); McCord v. Jet Spray Int’l
Corp., 874 F. Supp. 436, 439-40 (D. Mass. 1994) (“The
fact that the Belgian courts allow a limited inquiry into
the substance of the action does not erase the fact that
Belgium officially recognizes a cause of action based upon
an American judgment.”).
We conclude that DeJoria has not established, as
required by the Texas Recognition Act, that Morocco
would refuse to recognize an otherwise enforceable
foreign judgment simply because it was rendered in Texas.
2.
Under the Texas Recognition Act, a court cannot
enforce a foreign judgment if the foreign court did not
have personal jurisdiction over the defendant. Tex. Civ.
Prac. & Rem. Code Ann. § 36.005(a)(2); see Haaksman,
355 S.W.3d at 850. The party seeking non-recognition must
prove lack of personal jurisdiction. See The Courage Co.
v. The ChemShare Corp., 93 S.W.3d 323, 331 (Tex. App.—
Houston [14th Dist.] 2002). Personal jurisdiction consists
of two components: service of process and amenability to
jurisdiction. DeMelo v. Toche Marine, Inc., 711 F.2d 1260,
1264 (5th Cir. 1983).
a.
We turn first to service of process, which is “simply
the physical means by which . . . jurisdiction is asserted.”

111a
Appendix F
Id. We apply Moroccan law to determine whether service
of process was proper. See, e.g., Naves v. Nat’l W. Life
Ins. Co., No. 03-08-00525-CV, 2009 Tex. App. LEXIS
7153, 2009 WL 2900755, at *2 (Tex. App.—Austin 2009)
(evaluating service of process under Brazilian law). One
expert explained that service of process under Moroccan
law is proper if it is carried out through “means that
ensure the recipient receives actual notice.” There is no
dispute that DeJoria had actual notice of the Moroccan
lawsuit. DeJoria, however, argues that service could not
be proper under Moroccan law until Morocco became a
signatory to the Hague Convention in 2011. Article 37 of
the Morocco Code of Civil Procedure, which was in effect
at the time of the suit, provides: “If the recipient resides
in a foreign country, [the notification of the suit must be]
transmitted through the hierarchy to be sent through
the diplomatic channel, subject to the provisions of the
diplomatic conventions.” Because there was no convention
or treaty governing service on a foreign defendant,
DeJoria contends there was no statutory means to ensure
actual notice and that this situation “falls squarely” within
the Seventh Circuit’s decision in Koster v. Automark
Industries, Inc., 640 F.2d 77 (7th Cir. 1981).
In Koster, the Seventh Circuit, in dicta, explained
that the Dutch statute governing service of process did
not require that service on a foreign defendant be made
by certified mail or any other reasonable means; instead,
the method of service was left up to the discretion of the
Dutch Department of Foreign Affairs. 640 F.2d at 81 n.3.
The court determined that this method of service violated
due process. Id. Because DeJoria received actual notice,

112a
Appendix F
we conclude that his reliance on Koster is misplaced.
The Koster court noted that the issue of service was of
“particular significance” because the defendant claimed it
never received notice of the foreign lawsuit. Id. In contrast,
DeJoria received a copy of the Moroccan lawsuit, even
though the process server’s access to DeJoria’s property
was allegedly obtained deceptively. DeJoria assumed that
the documents were “related to the Moroccan lawsuit” and
turned them over to his attorneys. In addition, Skidmore
filed an anti-suit injunction against the Moroccan lawsuit
and included an affidavit from DeJoria. Though DeJoria
disputes whether service was technically proper, it is
evident from the record that DeJoria had actual notice
of the Moroccan lawsuit.
Regardless, foreign courts are not required to adopt
“every jot and tittle of American due process.” Ashenden,
233 F.3d at 478. Instead, only “the bare minimum
requirements” of notice must be met. Int’l Transactions,
Ltd. v. Embotelladora Agral Regiomontana, SA de CV,
347 F.3d 589, 594 (5th Cir. 2003). The Supreme Court has
emphasized that a basic requirement of due process is
“notice reasonably calculated, under all the circumstances,
to apprise interested parties of the pendency of the
action and afford them an opportunity to present their
objections.” Mullane v. Cent. Hanover Bank & Tr. Co.,
339 U.S. 306, 314, 70 S. Ct. 652, 94 L. Ed. 865 (1950). Thus,
while due process requires only “reasonably calculated”
notice, DeJoria had actual notice of the Moroccan lawsuit,
which “more than satisfie[s]” his due process rights and
meets the bare minimum requirements of notice sufficient
to enforce a judgment. United Student Aid Funds, Inc. v.

113a
Appendix F
Espinosa, 559 U.S. 260, 272, 130 S. Ct. 1367, 176 L. Ed. 2d
158 (2010); see also Int’l Transactions, Ltd., 347 F.3d at
594; Ma v. Cont’l Bank N.A., 905 F.2d 1073, 1076 (7th Cir.
1990) (“[N]ot all of the technical requirements of service
are sufficient grounds for a collateral attack. Service is
designed to produce knowledge. . . .”).
b.
Finally, DeJoria challenges his amenability to
jurisdiction. “Amenability to jurisdiction means that a
defendant is within the substantive reach of a forum’s
jurisdiction under applicable law.” DeMelo, 711 F.2d
at 1264. Courts generally apply the standards of the
rendering court to determine jurisdiction. See, e.g.,
Naves, 2009 Tex. App. LEXIS 7153, 2009 WL 2900755,
at *2 (applying Brazilian law to determine personal
jurisdiction).
DeJoria argues that the Moroccan court lacked
jurisdiction because no curator was appointed. Under
Article 39 of the Morocco Code of Civil Procedure, “[i]n
all cases where the domicile and residence of a party are
unknown, the judge appoints, in the capacity as curator,
an officer of the court to whom the summons is notified.”
Expert testimony revealed that under Moroccan law,
the failure to appoint a curator where required violates
due process and can result in nullification of a judgment.
However, expert testimony further clarified that a
“Moroccan court would never appoint a curator for a
defendant with a known address.” The Moroccan court
was not required to appoint a curator, because DeJoria’s

114a
Appendix F
domicile and residence were known. In fact, DeJoria was
served with process at his home and was later served
with the judgment in Texas. Accordingly, we conclude
that Article 39 is not applicable to this case.
Under Moroccan law, if the defendant is not domiciled
in Morocco, jurisdiction is proper at the domicile or place
of residence of the plaintiff. Article 27 of the Morocco
Code of Civil Procedure provides: “If the defendant
has no domicile or residence in Morocco, [a suit] may be
brought before the court of the domicile or residence of
the applicant or one of them if there are several.” Thus,
jurisdiction was proper in Morocco, where MPE was
domiciled.
Further, jurisdiction is proper even under the stricter
requirements of American due process. “Texas courts
may exercise personal jurisdiction over a nonresident if
(1) the Texas long-arm statute authorizes the exercise
of jurisdiction, and (2) the exercise of jurisdiction is
consistent with federal and state constitutional dueprocess guarantees.” Moncrief Oil Int’l, Inc. v. OAO
Gazprom, 414 S.W.3d 142, 149 (Tex. 2013) (internal
quotations omitted). “The long-arm statute allows the
exercise of personal jurisdiction over a nonresident
defendant who ‘commits a tort in whole or in part in this
state.’” Id. (quoting Tex. Civ. Prac. & Rem. Code Ann.
§ 17.042(2)). “Asserting personal jurisdiction comports
with due process when (1) the nonresident defendant has
minimum contacts with the forum state, and (2) asserting
jurisdiction complies with traditional notions of fair play
and substantial justice.” Id. at 150.

115a
Appendix F
Applying the Texas standard as if it were the
standard applied by Moroccan courts, we conclude that
Morocco obtained personal jurisdiction over DeJoria.
“[A]llegations that a tort was committed in [the forum]
satisfy [the] long-arm statute. . . .” Id. at 149. Here,
MPE and MFM alleged that DeJoria committed torts
in Morocco related to his investment in Skidmore and its
relationship with Lone Star. Specifically, MFM alleges
that DeJoria made fraudulent misrepresentations
regarding his investment in Lone Star, and MPE alleges
that DeJoria’s misrepresentations deprived it of necessary
capital. These allegations are sufficient to satisfy the longarm statute.
“A defendant establishes minimum contacts with a
state when it ‘purposefully avails itself of the privilege
of conducting activities within the forum state, thus
invoking the benefits and protections of its laws.’” Retamco
Operating, Inc. v. Republic Drilling Co., 278 S.W.3d 333,
338 (Tex. 2009) (quoting Hanson v. Denckla, 357 U.S.
235, 253, 78 S. Ct. 1228, 2 L. Ed. 2d 1283 (1958)). DeJoria
voluntarily started a Moroccan corporation to explore
for oil reserves in Morocco through Lone Star. DeJoria’s
investment activity was in Morocco. DeJoria visited
Morocco in connection with his relationship with Lone
Star, including a visit to a drilling site with Morocco’s
then-Energy Minister. Nearly all of the alleged acts and
omissions in the underlying case occurred in Morocco.
DeJoria thus has sufficient, purposeful contacts with
Morocco to render jurisdiction reasonable.

116a
Appendix F
“In addition to minimum contacts, due process
requires the exercise of personal jurisdiction to comply
with traditional notions of fair play and substantial
justice.” Moncrief Oil, 414 S.W.3d at 154. “If a nonresident
has minimum contacts with the forum, rarely will the
exercise of jurisdiction over the nonresident not comport
with traditional notions of fair play and substantial
justice.” Id. at 154-55. While litigation in Morocco would
have imposed a burden on DeJoria, that burden would
not be so heavy as to render jurisdiction unreasonable.
Moroccan courts do not require that the defendant
appear personally, and DeJoria could have litigated
entirely through counsel without returning to Morocco.
When weighed against Morocco’s substantial interest in
adjudicating a dispute involving a Moroccan corporation
and Moroccan resources, DeJoria’s burden of litigating
in Morocco would not have been unfair in relation to his
contacts with the forum. Because DeJoria voluntarily
engaged in purposeful contacts with Morocco, the exercise
of jurisdiction does not offend “traditional notions of fair
play and substantial justice.” Id. at 154.
DeJoria has not established that the Moroccan court
lacked personal jurisdiction, and non-recognition is thus
not justified under Section 36.005(a)(2) of the Act.
III.
For the foregoing reasons, the judgment of the district
court is REVERSED and this matter is REMANDED for
further proceedings consistent with this opinion.

117a
G THE UNITED
APPENDIX G —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE WESTERN
DISTRICT OF TEXAS, AUSTIN DIVISION,
FILED AUGUST 13, 2014
CIVIL ACTION NO. 1:13-cv-654-JRN
IN THE UNITED STATES DISTRICT
COURT FOR THE WESTERN DISTRICT
OF TEXAS, AUSTIN DIVISION
JOHN PAUL DEJORIA,
Plaintiff-Counterclaim-Defendant,
v.
MAGHREB PETROLEUM EXPLORATION S.A.;
MIDEAST FUND FOR MOROCCO LIMITED,
JOHN DOE #1, and JOHN DOE #2,
Defendant-Counterclaim-Plaintiffs,
August 12, 2014, Decided
August 13, 2014, Filed
ORDER
Before the Court are John Paul DeJoria’s (“DeJoria”)
Motion for Nonrecognition of Foreign Judgment (Dkt.
No. 25); DeJoria’s Memorandum in Support of his Motion
for Non-Recognition (Dkt. No. 30); Maghreb Petroleum
Exploration, S.A., Mideast Fund for Morocco Limited’s
(“MPE/MFM”) Response in Opposition to DeJoria’s

118a
Appendix G
Motion for Non-Recognition (Dkt. No. 37); and MPE/
MFM’s Sur-Reply in Opposition to Motion and in further
support of Recognition and Enforcement of the Morocco
Court Judgment. (Dkt. No. 43).
The parties in this case are former partners in a
Moroccan oil venture. In 2002, MPE/MFM filed suit in
Morocco against seven of its former partners, including
DeJoria, alleging that DeJoria and his fellow defendants
fraudulently represented the value of their company to
induce MPE/MFM to invest in it, as well as alleging that
DeJoria and the other named defendants mismanaged
the company. On December 31, 2009, a court in Morocco
entered judgment in favor of Defendant/Counterclaim
Plaintiffs MPE/MFM and against DeJoria and one
other person for an amount approximately equaling
approximately $122.9 million.
In the instant case, the parties have, in essence,
filed dueling motions for declaratory judgment. DeJoria
argues that Texas law mandates non-enforcement of the
Moroccan court judgment and requests that the Court
therefore grant its motion for non-recognition of the
Moroccan Court’s judgment. MPE/MFM counters that
Texas law supports enforcement of the Moroccan court’s
judgment and correspondingly requests that the Court
enter judgment in favor of MPE/MFM.
For reasons set out in detail below, the Court finds that
the Texas Uniform Foreign Country Money Judgments
Recognition Act proscribes the Court from enforcing
the Moroccan Court’s December 2009 judgment against

119a
Appendix G
DeJoria. As such, the Court GRANTS DeJoria’s Motion
for Non-Recognition. (Dkt. No. 25).
I.

OVERVIEW/ PROCEDURAL HISTORY

Plaintiff and Counterclaim Defendant is John Paul
DeJoria (“DeJoria”). A resident of Austin, DeJoria is an
extremely successful entrepreneur who co-founded John
Paul Mitchell hair products, the Patron Spirit Company,
and the House of Blues nightclub chain. His involvement
in this case, however, stems from his relationship with
a company called Skidmore Energy. Between 1998 and
2001, DeJoria invested in an American company called
Skidmore Energy, Inc. (“Skidmore”) in order to fund an
oil exploration and technology project that Skidmore was
pursuing in Morocco. (Dkt. No. 30, Ex. G).
In order to carry on its business in Morocco, Skidmore
formed and capitalized a Moroccan corporation called
Lone Star Energy Corporation (“Lone Star”) in order to
develop energy resources in Morocco.1 (Dkt. No. 37, Ex.
X-10). The new entity would focus on developing energy
resources in Morocco. Under Moroccan law, Moroccan
corporations require a “local” partner/shareholder. In
Lone Star’s case, the local partner/shareholder was
Mediholding, S.A., which is owned by Prince Moulay
Abdallah Aloaoui of Morocco (King Mohammed VI’s first
cousin). (Dkt. No. 30, Ex. J-A).
1. Lone Star was subsequently renamed “Magrheb Petroleum
Exploration S.A. (“MPE”). MPE is a party in this case seeking
enforcement of the Moroccan court’s judgment.

120a
Appendix G
In March of 2000, Lone Star entered into an
“Investment Agreement” with the Kingdom of Morocco
in which Lone Star agreed to invest in hydrocarbon
exploration in Morocco in return for obtaining mineral
rights concessions and other benefits from Morocco. In
that agreement, Lone Star agreed to drill at least three
exploration wells in Morocco and invest roughly $150
million to explore hydrocarbons in Morocco. (Dkt. No. 6,
Ex. 1).
On June 20, 2000, DeJoria and his business partner,
Michael Gustin, attended a White House dinner honoring
King Mohammed VI. Less than a month later, on July 8,
2000, DeJoria traveled to Morocco and personally met
with King Mohammed VI, Prince Moulay Alaoui, and
Mohammed Benslimane (brother-in-law of Prince Moulay
Hicham). (Dkt. No. 30, Ex. J-A). At the meeting, the men
discussed the need for Lone Star to secure more funding
to support its rapidly expanding drilling projects. (Id., Ex.
G at ¶ 3). At that meeting, DeJoria claims that the King
assured him that he would line up investors for Lone Star
and that funding would not be an issue for the company
going forward. (Id.).
Sure enough, in early August of 2000, a Lichtenstein
based company called Armadillo Holdings2 approached
Lone Star and expressed an interest in investing in the
company. During the negotiations the followed, Skidmore
represented to the potential investors that it had (up until
2. Armadillo Holdings has since been re-named Mideast Fund
for Morocco (“MFM”).

121a
Appendix G
that point) invested roughly $27.5 million in Lone Star.
(Dkt. No. 6, Ex. 1). Skidmore also estimated that Lone
Star’s conservative market value was around $175.75
million. (Id.). Based on these representations, Armadillo/
MFM agreed to invest $13.5 million in Lone Star in
exchange for 50% of Skidmore shares and 50% of “all
assets, including exploration licenses, technology licenses,
SBK#1 well and lease, all inventories and supplies, etc.”
(Id.).
On Aug ust 20, 2000, K ing Mohammed gave a
nationally televised speech during which he announced
the discovery of what he described as “copious and high
quality oil” in Morocco. (Dkt. No. 30, Ex. I.3). Three days
later, on August 23, 2000, the then Moroccan energy
minister, Yousesef Tahiri, traveled to the site of the
“discovery” and—with DeJoria and Gustin at his side—
held a press conference during which he exclaimed that the
oil discovery was such that it was expected to yield enough
oil to supply the Kingdom for roughly 30 years. (Id.).
The King’s announcement was huge news in Morocco.
Located on the northwestern tip of the African continent,
the Kingdom of Morocco sits next to some of Africa’s
largest oil and gas producing nations. Yet while its
neighbors on the African coast have emerged as major
producers of energy, Morocco has not discovered a reliable
domestic source of oil and gas. As a result, the country
imports about 95 percent of its energy needs, leaving the
nation vulnerable to the ebbs and flows of the international
energy markets. The King’s remarks seemed to presage
the end of Morocco’s longstanding energy insecurity,

122a
Appendix G
a prospect that so excited Moroccan traders that the
Moroccan stock market jumped 5% following the King’s
announcement. (Id.).
There was only one problem. There was no oil—or
not very much of it, anyway. In the end, Morocco’s natural
resources proved to be less plentiful than the King
suggested, a reality which adversely affected both the
King’s credibility and Lone Star’s long term business
prospects. (Id., Ex. 1-8). By the summer of 2001, it had
become clear that Lone Star would require an infusion of
additional capital in order to stay afloat.
This turn of events led the partnership between MFM
and Skidmore to break down. MFM and its partners
became convinced that Gustin and DeJoria were culpable
for the problems at Lone Star. Meanwhile, both DeJoria
and Gustin fled Morocco for good. DeJoria claims that
he and Gustin’s lives would have been in danger had
either stayed in or traveled to Morocco. (Id., Ex. G at
¶¶ 6-7). MFM attributes DeJoria and Gustin’s absence
to a conscious decision to flee the jurisdiction in order
to avoid having to answer for Skidmore’s fraudulent
representations.
Whatever actually motivated the men to get out of
Dodge, neither DeJoria nor Gustin attended the May 2001
meeting of Lone Star’s Board of Directors in Morocco. (Id.,
Ex. J). During that meeting, the Board voted to remove
Gustin as its Chairman. (Id., Ex. J-B). Two months later,
during the July 2001 Lone Star Board meeting, Lone
Star’s Board finalized plans to recapitalize the company

123a
Appendix G
with an additional $15.9 million in funds. (Dkt. No. 6, Ex.
1 at 6.). At the same meeting, the Board voted to remove
both DeJoria and Gustin as Directors. 3 (Id.).
Legal fireworks ensued. Displeased that their
investment in Lone Star had not yielded the returns that
it had expected when it entered into the Memorandum of
Understanding (“MOU”) with Skidmore, MFM brought
suit against Skidmore, as well as a number of its officers in
their individual capacities (DeJoria included), in Moroccan
court. The Plaintiffs in that lawsuit made a plethora of
allegations, namely that Dejoria and his partner had
mismanaged the company and lied during negotiations.
Specifically, MFM argued that Skidmore fraudulently
induced it into investing in Skidmore by misrepresenting
the true extent of Skidmore’s investment in Lone Star.4
(Dkt. No. 6, Ex. 1). According to the Plaintiffs in the suit,
Skidmore’s fraudulent representations deprived Lone
Star of the capital the company needed to fund ongoing
business operations, thereby forcing the company to
obtain an additional $15.9 million in emergency funding
from MFM and others to fill the funding void that existed
as a result of Skidmore’s failure to live up to the promises
it made in the MOU. (Id.).
3. Somewhat bizarrely given all of the things DeJoria and
Gustin are alleged to have done to Armadillo, MPE/MFM report
that Skidmore was nevertheless invited to participate in the
recapitalization of the company. (Dkt. No. 6, Ex. 1 at 11).
4. MFM alleged that at the time that Skidmore represented that
it had invested $27.5 million when in fact it had in fact only invested
$3,708,812.49. (Dkt. No. 6, Ex. 1).

124a
Appendix G
Skidmore, for its part, responded to the breakdown in
relations by filing two obviously frivolous lawsuits against
MPE, MFM, and scores of other tangentially related
parties in the United States, each of which was dismissed
in short order. 5
The subject of this Court’s analysis in this case is the
outcome of MPE’s suit against Skidmore in Morocco. On
5. In its first suit, Skidmore Energy, Inc. and Geoscience Int’l,
Inc. v. KPMG et al, Case No. 3:03-cv-02128-B (N.D. TX Sept. 19,
2003), Skidmore and Geoscience sought $3 billion in damages from
MPE, MFM, KPMG, and 18 other individuals and entities for antitrust and RICO violations, breach of contract, fraud, and aiding and
abetting breach of fiduciary duty. US District Judge Boyle found
that the lawsuit against MPE, MFM, and nine other defendants
was “factually and legally groundless” and cited a “puzzling lack of
legal or factual support” for the allegations included in Skidmore’s
pleadings. Skidmore Energy, Inc. and Geoscience Int’l, Inc. v.
KPMG et al, Case No. 3:03-cv-02128-B (N.D. TX Mar. 17, 2005 and
2005 U.S. Dist. LEXIS 49180, May 18, 2005). The district court
subsequently awarded $530,667.32 in sanctions against Skidmore,
Geoscience, and their lawyer Gary Sullivan.
Unfazed by Judge Boyle’s decision, Skidmore filed a virtually
identical action in federal district court in California (only it named
fewer defendants). See Skidmore Energy, Inc. v. Mediholdings
S.A. et al., Case No. 2:05-cv-04742 (CD. Cal. June 29, 2005). Not
surprisingly, the case did not fare any better than Skidmore’s
previous effort (unless one counts not being assessed over a half a
million dollars in court costs and sanctions an improvement, which
the Court supposes it is). On October 24, 2007, the district court
granted MPE and other defendant’s motions to dismiss. Id. The US
Court of Appeals for the Ninth Circuit subsequently affirmed the
district court in Skidmore Energy Inc. v. Maghreb Petroleum S.A.,
337 Fed. Appx. 706, 707 (9th Cir. July 16, 2009).

125a
Appendix G
December 31, 2009, after nearly seven years of considering
the case, a Moroccan court entered judgment in favor
of MPE and MFM and against DeJoria and Gustin in
the amount of 969,832,062.22 Moroccan Dirhams, or
approximately $122.9 million. (Dkt. No. 6, Ex. 1 at p. 18).
The only question before this Court is whether or not
the Moroccan court’s $122.9 judgment against DeJoria is
enforceable in the United States.
II. APPLICABLE LAW
There is no federal statute or common law applicable
to the recognition of foreign judgments. Yahoo! Inc. v. La
Ligue Contre Le Racisme et L’Antisemitisme, 433 F.3d
1199, 1212 (9th Cir. 2006) (en banc). In diversity cases, the
law of the state in which the federal court sits governs
recognition of foreign judgments. Id. at 1213; British
Midland Airways Ltd. v. Int’l Travel, Inc., 497 F.2d 869,
871 n.2 (9th Cir. 1974).
The Uniform Foreign Country Money-Judgment
Recognition Act has been adopted by Texas and governs
whether a judgment entered by a foreign nation will be
recognized in this country. Tex. Civ. Prac. & Rem.Code
Ann. §§ 36.001-36.008 (Vernon 2000).
Under this Act, once a copy of a foreign judgment is
filed with the clerk of the court in the county of residence
of the party against whom recognition is sought, the
party against whom recognition is sought may contest
the judgment’s recognition by filing a motion for nonrecognition. Id. §§ 36.0041, 36.0044.

126a
Appendix G
The Texas Recognition Act provides that a foreign
country judgment is enforceable in the same manner as a
judgment of a sister state that is entitled to full faith and
credit.” Id. § 36.004. Accordingly, the Texas Recognition
Act presumes recognition and mandates enforcement
unless the opposing party proves to the Court that it cannot
or should not enforce the judgment. Dart v. Balaam, 953
S.W.2d 478, 480 (Tex.App.—Fort Worth 1997, no writ)
(noting that “[t]he party seeking to avoid recognition has
the burden of proving a ground for nonrecognition”).
§36.005(a) sets the circumstances under which a court
cannot enforce a foreign money judgment:
(1) the judgment was rendered under a system
that does not provide impartial tribunals or
procedures compatible with the requirements of
due process of law;
(2) the foreign country or court did not have personal
jurisdiction over the defendant; or
(3) the foreign country court did not have jurisdiction
over the subject matter.
Per the dictates of §36.005(b), the Court may also
decide not to enforce a foreign judgment if:
(1) the defendant in the proceedings in the country
did not receive notice of the proceedings in
sufficient time to defend;
(2) the judgment was obtained by fraud;

127a
Appendix G
(3) the cause of action on which the judgment is based
is repugnant to the public policy of the state of
Texas;
(4) the judgment conflicts with another final and
conclusive judgment;
(5) the proceedings in the foreign country court was
contrary to an agreement between the parties
under which the dispute in question was to be
settled otherwise than by proceeding in that
court;
(6) in the case of jurisdiction based only on personal
service, the foreign country court was a seriously
inconvenient forum for the trial of the action; or
(7) it is established that the foreign country in which
the judgment was rendered does not recognize
judgments rendered in this state that, but for the
fact that they are rendered in this state, conform
to the definition of “foreign money judgment.”
Tex. Civ. Prac. & Rem.Code Ann. § 36.005 (West 1998).
Applying the Texas Act is neither purely a question of
law nor purely a question of fact. Instead, “it is a question
about the law of a foreign nation, and in answering such
questions a federal court is not limited to the consideration
of evidence that would be admissible under the Federal
Rules of Evidence; any relevant material or source may
be consulted.” Fed.R.Civ.P. 44.1; Pittway Corp. v. United
States, 88 F.3d 501, 504 (7th Cir.1996); 9 Charles A. Wright

128a
Appendix G
& Arthur R. Miller, Federal Practice and Procedure
§ 2446 (1995).
III. DISCUSSION
In his briefs, DeJoria argues that the Court is barred
from enforcing the judgment since, he claims, the judgment
against DeJoria violates mandatory grounds §36.005(a)
(1) and (a)(2). DeJoria additionally challenges recognition
under discretionary grounds 36.005(b)(3), (b)(6), and (b)
(7). MPE/MFM counter on all points and assert that the
Court should recognize the Moroccan Court’s judgment.
The Court need not address DeJoria’s arguments
for discretionary non-recognition if it finds that DeJoria
has met his burden and proved either that Moroccan
tribunals do not afford sufficient due process or that the
Moroccan trial court never obtained personal jurisdiction
over him. DeJoria’s prevailing on either point suffices to
bind the Court’s hands and forces non-recognition. Thus
the Court will begin (and, as it turns out, end) its analysis
with DeJoria’s argument that the Moroccan court did
not provide him with adequate due process to warrant
recognition under the Texas Act.
A.

The Moroccan Court Judgment Was Not
Rendered Under a System that Provides
I mp a r t i a l T r ib u n a l s a n d P r o c e d u r e s
Compatible with Due Process.

A foreign judgment cannot be recognized in Texas if
it was “rendered under a system which does not provide
... procedures compatible with the requirements of due

129a
Appendix G
process of law.” Tex. Civ. Prac. & Rem.Code § 36.005(a)
(1). The term “due process” in this context does not refer
to the “latest twist and turn of our courts” regarding
procedural due process norms, because it is not “intended
to reflect the idiosyncratic jurisprudence of a particular
state.” Soc’y of Lloyd’s v. Ashenden, 233 F.3d 473, 47677 (7th Cir. 2000) (interpreting an identical provision
of the Uniform Foreign Money-Judgments Recognition
Act under Illinois law). Instead, “this provision has been
interpreted...to mean that the foreign procedures [must
only be] ‘fundamentally fair’ and ... not offend against
‘basic fairness.’” Soc’y of Lloyd’s v. Turner, 303 F.3d 325,
330 (5th Cir. 2002) (quoting Ashenden, 233 F.3d at 477);
18B Charles Alan Wright et al., Federal Practice and
Procedure § 4473 n. 7 (2d ed.2002) (quoting Ashenden,
233 F.3d at 477).
The “international due process standard” first
described by Judge Posner in Ashenden sets a very low
bar for enforcement. Ashenden, 233 F.3d at 477. The virtue
of this construction—and one of the reasons that so many
courts have adopted the standard—is that any country
that has a history of commitment to the rule of law will
pass the test. Given this fact, it is not surprising that the
vast majority of courts faced with claims that a foreign
court system did not provide adequate due process to
warrant enforcement have found that the issuing court in
fact provided sufficient due process to justify recognition.
Yet, from time to time, judgments are rendered against
Americans in countries “whose adherence to the rule of
law and commitment to the norm of due process are open
to serious question.” Id. Where there is evidence that a

130a
Appendix G
country’s judiciary is dominated by the political branch of
government or by an opposing litigant, or where a party
cannot obtain counsel, secure documents, or secure a
fair appeal, recognition of a foreign judgment may not be
appropriate. See, e.g., Bank Melli Iran v. Pahlavi, 58 F.3d
1406, 1411-12 (9th Cir.1995); Choi v. Kim, 50 F.3d 244, 24950 (3d Cir.1995); Banco Minero v. Ross, supra, 172 S.W. at
715; Bridgeway Corp. v. Citibank, 45 F.Supp.2d 276, 28688 (S.D.N.Y. 1999); see also Restatement (Third) of Foreign
Relations Law of United States § 482, comment b (1987).
A close examination of Morocco’s legal system reveals
structural and practical issues that are not present in
countries like England, France, or South Korea. While
Morocco has made serious strides in many areas and appears
to have a populous genuinely desirous of and committed to
establishing a societal framework founded upon the rule of
law, the Moroccan royal family’s commitment to the sort of
independent judiciary necessary to uphold the rule of law
has and continues to be lacking in ways that raise serious
questions about whether any party that finds itself involved
in a legal dispute in which the royal family has an apparent
interest—be it economic or political—in the outcome of the
case could ever receive a fair trial.
i.

Moroccan Judges Are Not Independent
And Are Susceptible To Being Pressured
By Members Of The Royal Family.

In September of 2010, USAID released its “Morocco
Rule of Law Report.”6 (Dkt. No. 30, Ex. H.2). Spanning
6. “The assessment took place in two phases with an initial
assessment in October 2008, followed by an additional in-country visit

131a
Appendix G
a total of 66 pages, the report touches on a broad array
of topics including many that are directly relevant to the
Court’s inquiry in this case.
Right off the bat, the authors of the report paints
a bleak picture of the state of the rule of law generally,
and the functioning of the judicial system specifically, in
Morocco. In the last sentence of the very first paragraph
of the report’s Executive Summary, the authors observe
that among Moroccan citizens, “there is a widely held
perception that corruption is tolerated, that a political and
security elite act with impunity, and that strong actions
are taken against those who would challenge power.” (Id.
at ii).
Before launching into the body of the report, though,
the authors provide the reader with seven bullet points
intended to broadly describe their findings. The first bullet
point reads: “Judicial independence is lacking due to a
number of factors, including deficiencies in both law and
practice...[t]he roles of the Ministry of Justice (MOJ) and
the King further complicate this issue.” (Emphasis in
in November 2009. The assessment teams conducted documentary
reviews; interviews with governmental officials, private sector and
civil society representatives, and other international donors; and
targeted group meetings. Based on an analysis of this information
the teams developed an assessment of the status of rule of law in
Morocco and provided recommendations for a strategic approach
to future rule of law programming.” (Dkt. No. 30, Ex. H.2). The
Court adds that the investigations took place simultaneously with
the proceedings in Morocco and are therefore directly relevant to
the reliability of the Moroccan legal system that gave rise to the
judgment at issue in this case.

132a
Appendix G
original). (Id.). The last bullet point is equally ominous. It
simply states: “Corruption is one of the most significant
challenges confronting Morocco.” (Id.).
The USAID report’s findings with respect to the
Moroccan judiciary—especially those related to the
subject of judicial independence—are particularly relevant
to the Court’s inquiry in this case. The authors describe
the current judicial system as “permeable to political
influence” and go on to explain that “the mechanisms
through which judges are appointed, promoted, sanctioned,
and dismissed leave them [Moroccan judges] vulnerable to
political retribution.” (Id. at 12). As a result, “the judiciary
still suffers from persistent complaints that it is plagued
with corruption, is not independent or accountable, does
not have effective mechanisms for enforcement, and is
encumbered by delays.” (Id. at 12).
The judiciary’s struggle to remain independent is
in part a result of structural factors. While the 1996
Constitution guarantees judicial independence, the
judiciary remains under the administrative control of
the Ministry of Justice, which of course answers directly
to the King. (Id.). Moreover, the Constitution does not
establish the judiciary as an autonomous entity. (Id.).
That the judiciary is not structurally insulated
from the other political branches of government is
unremarkable, at least in the context of other international
judicial systems. In fact, the Moroccan Constitution’s
language relating to the judiciary is modeled on France’s
Constitution. Unfortunately, members of Morocco’s

133a
Appendix G
judiciary must also contend with forces that do not exist in
France. Specifically, “[j]udicial independence [in Morocco]
is further complicated by the King’s role.” (Id.). Not only
are all judgments rendered by Moroccan courts issued
in the name of the King, but the King also presides over
the Conseil Supérieur de la Magistrature (High Judicial
Council), which is the body that appoints, disciplines, and
promotes judges. (Id.).
Additionally, per A r ticle 24 of the Moroccan
Constitution, the King appoints the Minister of Justice.
(Id.). Given that the MOJ sits on the High Judicial Council,
this gives the King considerable indirect influence over
the makeup of the judiciary since “[t]he MOJ exercises
significant influence over the appointment, discipline,
transfer, and promotion of judges.” (Id.). This fact
“makes judges beholden to the MOJ not only for their
initial appointment but for their continued job security
as well, with obvious negative implications for judicial
independence.” (Id.).
MPE/MFM argue that the USAID report overstates
the severity of the problems afflicting the Moroccan
legal system. They cite various reports which detail the
exceedingly modest steps that the King has implemented
in recent years to combat corruption. Yet this evidence
does little to persuade the Court that the Moroccan legal
system’s most troubling flaws are a thing of the past.
Indeed, in March of 2011—two years after the Moroccan
Court issued its judgment against DeJoria—Morocco’s
very own Foreign Minister all but confirmed the veracity
of the USAID report’s findings pertaining to judicial

134a
Appendix G
independence in Morocco. Speaking to an audience at the
Brookings Institute in Washington DC, Foreign Minister
Taieb Fassi-Fihri, described Morocco’s continuing
problem with “phone call justice.” Judicial independence,
he explained, “is not the reality today, because (there are)
some calls from time to time, from the Justice Department
to some judge.” (Id., Ex. H.22; a complete transcript of
the Foreign Minister’s remarks are available at http://
w w w.brookings.edu /~/media /events/2011/3/23%20
morocco/032311_morocco_transcript.pdf).
Together, the USAID report and the foreign minister’s
comments paint a picture of a judicial system in which
judges feel tremendous pressure to render judgments
that comply with the wishes of the royal family and those
closely affiliated with it. Yet perhaps the most powerful
piece of evidence that all is not well in the Moroccan judicial
system came from the Moroccan judges themselves. On
October 6, 2012, roughly 1,000 Moroccan judges staged a
sit-in in front of the Moroccan Supreme Court demanding
more independence for the judiciary. (Dkt. No. 30, Ex.
H.23). With them, the protesting judges carried a petition
signed by 2,200 Moroccan judges—roughly 2/3rds of the
country’s total judges—demanding structural reforms
to guarantee their independence from the King. (Id.).
The gesture speaks for itself, but it is worth noting that
every judge that signed the aforementioned petition did
so knowing that by publicly opposing the King, they were
opening themselves to precisely the kinds of retribution
discussed by the USAID report.

135a
Appendix G
ii.

The King’s Actions In 2007 Reveal That
The King Actively Sought To Shape The
Public’s Perception Of His (And Dejoria’s)
Role In The Talisint Oil Project Through
Intimidation.

MPE/MFM do not dispute the fact that the King could
intervene in the legal process if he wishes to do so. They
do not deny that Skidmore played an important role in the
process that ultimately lead the King to give his ill fated
speech announcing the existence of large, exploitable oil
reserves in Morocco. They do not dispute that the Prince
of Morocco himself received shares (however small the
interest) in the company Skidmore created in Morocco for
the purpose of facilitating its aims and objectives there.
MPE/MFM do not even quibble with the assertion that
DeJoria had personal contact with members of the royal
family, including the King himself, in advance to the
creation of the partnership between the Moroccans and
Skidmore, or. Nevertheless, MPE/MFM argue that the
Court need not worry about these factors since DeJoria’s
case simply did not matter enough to the King or royal
family to warrant genuine concern that the royal family
would corrupt the process. After all, MPE/MFM note, the
Prince’s financial stake in MPE was too small to matter.
Moreover, according to MPE/MFM, there is no evidence
that “the King or anyone else in Morocco these days cares
about [DeJoria] at all or even remembers who he is or the
bad acts he perpetrated.” (Dkt. No. 37 at p. 25).
As a general matter, MPE/MFM’s suggestion that
the circumstances surrounding the case do not warrant

136a
Appendix G
real concerns that the King or royal family corrupted the
judicial proceedings is simply not credible. For one, the
Prince’s “insignificant” financial interest (MPE/MFM
claim that the Prince owns 0.00026% of MPE) is not
insignificant at all. Even assuming that MPE would only
receive 50% of the settlement award of $122.9 million, the
value of the Prince’s ownership interest in the company
would be boosted by at least $15,977.7 Given that the
Prince appears to have paid zero consideration in return
for his ownership interest in Armadillo (now MPE), such
an award would represent quite a nice windfall.
As for MPE/MFM’s suggestion that there is no
evidence that the King particularly cared about DeJoria
or his role in the Talsint oil project, the evidence plainly
suggests otherwise.
On Monday, January 27, 2007, “Le Journal,” a
Moroccan daily newspaper, ran a feature story under
the headline “The Talsint Oil Lie.” (Dkt. No. 30, Ex.
I.1-I.2). Citing a letter sent by Skidmore Chairman (and
DeJoria partner) Michael Gustin to the King and other top
officials, the article “accused the King and some officials
of bribery and disinformation” in regards to Skidmore’s
exploration and attempted production of oil in south
eastern Morocco in 2000. 8 (Id., Ex. I.2). Neither the story
7. (0.00026 x 122.9 million)/2=15,977.
8. Asked about the Le Journal story, Abdulomoneim Delmy—
the chairman of the Moroccan Federation of Newspaper Publishers
and publisher of two daily newspapers—remarked that Le Journal
had “breach[ed] the ethics and applicable laws of Morocco.” (Dkt.

137a
Appendix G
nor the paper would survive for very long. The next day,
Le Journal suddenly retracted the story, stating (without
any meaningful explanation) that everything they had
published was untrue. (Dkt. No. 30, Ex. I.1-I.2). The paper
also announced—again without any explanation—that it
would voluntarily go out of circulation for an undisclosed
period of time. (Id, Ex. I.1). Two days later, a sister
publication reported that the author of the “offensive”
Le Journal article (who also served as Le Journal’s
editor-in-chief) and Le Journal’s publisher were both
compelled to appear at the Justice Center so that they
could be interrogated by criminal prosecutors about their
involvement with the story. (Id., Ex. I.1).
Unsurprisingly, it appears that the above series of
events was not an aberration. The King has a history of
suspending (and punishing) publications that displease
him. Indeed, when Le Journal resumed publishing, it was
not the only news publication that was re-emerging after a
lengthy suspension. Shortly after Le Journal returned to
print, so too did a magazine called Nishan. (Id., Ex. I.2).
Nishan was reportedly suspended from circulation for a
period of two months by a Moroccan court for “publishing
jests that were deemed offensive to King Mohammed VI
and Islam.” (Id.). The article also noted that the editor of
No. 30, Ex. I.1). Mr. Delmy proceeded to profess his professional
allegiance to the King:”we [Moroccan newspaper publishers/
editors]... have a basic reference being the charter of the profession’s
ethics that was adopted by the Confederation which provides ‘the
due respect owed to the President of the State, his majesty the King,
who is the Emir of the Believers at the same time.’” Somewhere, Ben
Bradlee just threw up.

138a
Appendix G
the offending issue of Nishan, along with another former
member of the magazine’s editorial board, was sentenced
by a Moroccan judge to three years prison with probation,
along with a $9,500.00 fine, for his role in “offending the
King.” (Id.).
The King may or may not have disliked DeJoria
personally, but the lengths his government went to silence
and punish Le Journal for suggesting, in public, that
the King’s involvement and sponsorship of the Talsint
oil project may not have been completely aboveboard
certainly suggests that the King cared a great deal about
how his involvement in the project was presented to the
public. Moreover, the government’s response revealed
that the King’s government was willing to intimidate and
retaliate in order to protect that public image.
Consider now the lawsuit against DeJoria and his
partners. Lawsuits are legal vehicles for apportioning
blame. Lawsuits also tell stories. In the underlying
lawsuit, the Moroccans accused DeJoria and his partners
of being fraudsters. The implication of that allegation, if
true, is that DeJoria and his partners lied to their partners
and mismanaged the company. Yet the inverse is also
true: the implication of a finding absolving DeJoria and
his partners of any liability would suggest that DeJoria
and his partners had dealt fairly with the Moroccans...
and that they were all equally responsible for the failure
of the project. Given the narrative power that the verdict
would undoubtedly have, MPE/MFM’s suggestion that a
man who cared enough about maintaining his image to
intimidate and prosecute a whole paper into submission

139a
Appendix G
had no interest in the outcome of a case which could either
re-enforce his favored image or, alternatively, make him
appear foolish if not downright dishonest for having
promised so much oil during his now infamous speech.
These facts would have been readily apparent to any
judge presiding over this case. Given the King’s history of
retaliation, not only against judges who displease him but
against anyone who threatens his narrative relating to his
involvement in Talsint, the Court cannot conceive of any
set of circumstances in which the presiding judge in the
underlying case would not have felt tremendous pressure
to side with MPE/MFM. The Prince had an economic
interest. The King’s behavior suggests a strong preference
that DeJoria be portrayed as a fraudster who misled
the King (since, if DeJoria did not, the King appears
dishonest, incompetent, or both in retrospect). Whether
or not the King, Prince, or some other official picked up
the phone and ordered the judge to find against DeJoria
is, in some sense, beside the point. Even if no such phone
call was ever made, the Court nevertheless cannot, in good
conscience, conclude that Morocco provided Mr. DeJoria
with adequate due process to warrant enforcement in
this country.
Judges are not stupid people oblivious to outside
pressures. As evidenced by the mass judicial protests,
Moroccan judges are keenly aware that their livelihoods
(present and future) depend on remaining in the good
graces of the King and the royal family. Given this
fact, along with the circumstances outlined at length
surrounding this case, the likelihood that DeJoria could

140a
Appendix G
have or did receive a fair hearing in which the outcome
was not pre-ordained is too minimal to permit the Court
to overlook the serious issues with both the system and
the application present in this case.
iii. Existing Ca se Law Suppor ts NonRecognition In This Case.
While it is true that few courts have declined
enforcement of a foreign judgment on due process grounds,
this case presents precisely the types of issues that
courts have found sufficient to justify non-enforcement
of a foreign money judgment on due process grounds.
As previously noted, courts have declined to enforce
foreign judgments in instances in which the evidence
demonstrated that a country’s judiciary is dominated
by the political branch of government or by an opposing
litigant, as well as when a party cannot obtain counsel,
secure documents, or secure a fair appeal. See, e.g., Bank
Melli Iran v. Pahlavi, 58 F.3d 1406, 1411-12 (9th Cir.1995);
Choi v. Kim, 50 F.3d 244, 249-50 (3d Cir.1995); Banco
Minero v. Ross, supra, 172 S.W. at 715; Bridgeway Corp.
v. Citibank, 45 F.Supp.2d 276, 286-88 (S.D.N.Y.1999); see
also Restatement (Third) of Foreign Relations Law of
United States § 482, comment b (1987).
Here, there is extensive evidence suggesting that
Morocco’s judiciary is dominated by the royal family
(through no fault of the judiciary, which would prefer to be
left alone to do its job). Additionally, the evidence plainly
shows that members of the royal family had a political
and economic interest in the outcome of the underlying

141a
Appendix G
case. This is a deadly combination, for the confluence of
circumstances makes it highly likely that the royal family
impacted the judicial oversight of a proceeding in which
they themselves had an interest.
Of the few cases in which courts have declined to
enforce a judgment on due process grounds, Bank Melli
Iran v. Pahlavi is the most applicable to this case. 58 F.3d
1406. In that case, the district court refused to enforce a
judgment entered by an Iranian court against the sister
of the recently deposed Shah after the 1980 revolution,
and the US Court of Appeals for the 9th Circuit affirmed.
While the Shah’s sister did not present any declaration
which specifically stated that she would be treated badly
by the regime, the court nevertheless concluded that “a
common sense reading of the evidence indicates...that she
could not possibly have obtained a fair hearing before the
courts of Iran had she attempted to fight the Banks’ claims
against her.” Id. at 1412.
While this case presents less extreme circumstances
(no American probably could have received a fair hearing
in Iran at that time, much less the sister of the widely
reviled Shah), the Court nevertheless believes that “a
common sense reading of the evidence” in this case
unequivocally supports the conclusion that John Paul
DeJoria could not have expected to obtain a fair hearing
in Morocco had he attempted to fight the charges against
him. While the evidence plainly suggests that Morocco’s
judges wish to obtain the freedom from pressure
necessary to impartially conduct the business of the
court system, the evidence also reveals that any judge

142a
Appendix G
presiding over DeJoria’s case would have had to ignore
either an explicit or implicit threat to his career—if not
to his safety and well-being—in order to find against
MPE/MFM. Perhaps the evidence did not ever present
the judge with this hard choice, but the Court’s job is not
to determine whether the judge in the underlying case
reached the right decision. Instead, the Court is tasked
with deciding whether, based on the evidence, DeJoria
or some similarly situated party could have received
adequately fair procedures to warrant enforcement. The
answer to this question is no. Absent an act of tremendous
bravery by the judge, there is no conceivable set of facts
or circumstances in which DeJoria could have prevailed
in the underlying case. Such a proceeding is not, was not,
and can never be “fundamentally fair.”
IV. CONCLUSION
For reasons set out above, the Court GRANTS John
Paul DeJoria’s Motion for Non-Recognition. (Dkt. No. 25).
SIGNED this 12th day of August, 2014.
/s/ James R. Nowlin
JAMES R. NOWLIN
UNITED STATES
DISTRICT JUDGE

143a
Appendixof
H rehEAring of
Appendix h — denial
the united states court of appeals
FOR THE FIFTH CIRCUIT, FILED
SEPTEMBER 17, 2019
IN THE UNITED STATES COURT OF
APPEALS FOF THE FIFTH CIRCUIT
No. 18-50348
JOHN PAUL DEJORIA,
Plaintiff-Appellee,
v.
MAGHREB PETROLEUM EXPLORATION, S.A.;
MIDEAST FUND FOR MOROCCO, LIMITED,
Defendants-Appellants.
Appeal from the United States District Court
for the Western District of Texas
ON PETITION FOR REHEARING EN BANC
(Opinion 08/15/19, 5 Cir.,

,

F.3d

)

Before Circuit Judges.
PER CURIAM:
(x) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel
Rehearing is DENIED. No member of the panel nor

144a
Appendix H
judge in regular active service of the court having
requested that the court be polled on Rehearing En
Banc (Fed. R. A pp. P. and 5th Cir. R. 35), the Petition
for Rehearing En Banc is DENIED.
( ) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel
Rehearing is DENIED. The court having been polled
at the request of one of the members of the court and
a majority of the judges who are in regular active
service and not disqualified not having voted in favor
(Fed. R. A pp. P. and 5th Cir. R. 35), the Petition for
Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:
/s/ Gregory Costa
UNITED STATES CIRCUIT JUDGE

